<html>
<title> - THE FUTURE OF NUCLEAR POWER</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
                      THE FUTURE OF NUCLEAR POWER

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Collins, Feinstein, and Udall.
    Also Present: Senator Whitehouse.


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    This afternoon, we're having the first of two hearings to 
discuss the future of nuclear power in our own country. We'll 
have the second one in November or early December.
    Today, we'll discuss the importance of nuclear power, the 
biggest challenges facing it, the status of the Department of 
Energy's nuclear research and development--and we certainly 
welcome Secretary Moniz here to help us do that--and things 
Congress can do to support nuclear power.
    In our next hearing, we'll discuss basic energy research 
and development to support nuclear power, the work that's being 
done to extend the licenses for existing reactors from 60 to 80 
years, development of new advanced nuclear technologies, 
including small reactors, accident-tolerant fuels, and advanced 
reactors.
    Senator Feinstein and I will each have an opening 
statement. I'll then recognize any other Senators on the 
committee for up to 5 minutes for an opening statement, and 
then we've invited Senator Whitehouse--and we certainly welcome 
him--to make some remarks at today's hearing. So, we'll turn to 
him as soon as Senator Feinstein and I make our opening 
statements, Sheldon, if that's all right with your schedule.
    And then Secretary Moniz we'll go to you after that.
    Our second panel--and we're delighted to have them and to 
welcome back Judd Gregg, former United States Senator and 
Governor from New Hampshire, and the Leadership Chair of 
nuclear matters, and Jay Faison, founder and CEO of ClearPath 
Foundation. That'll be the panel after the Secretary of Energy.


                the united states without nuclear power


    Today's hearing is about the future of nuclear power, but I 
want to talk, in my opening remarks, about--I said to Senator 
Feinstein, I may go 7 or 8 minutes instead of 5, I want to talk 
about--I want to imagine a day the United States is without 
nuclear power, a day that I don't want to see in our country's 
future. That seems like a distant and unlikely scenario, but, 
in fact, it's more of a threat than many people realize. 
According to a 2013 report by the Center for Strategic 
International Studies, up to 25 of our 99 reactors could close 
by 2020.
    And here are some other factors. By 2038--that's 20 years 
from now--48 reactors will be 60 years old, representing 40 
percent of the nuclear generating capacity in the United 
States. The U.S. could lose half of our reactors if existing 
licenses can't be extended from 60 to 80 years when those 
reactors close.
    There are nine reactors, three in the Northeast at seven 
sites, which are scheduled to shut down by 2025. The Energy 
Information Administration estimates that shutting down these 
nine reactors will result in a 2-percent increase in total 
carbon emissions from the U.S. electricity sector. There are 
four new reactors being built, all in the Southeast.
    As an example, Vermont Yankee closed in December of 2014. 
That was 604 megawatts. It accounted for 70 percent of the 
electricity generated in Vermont in 2012, although the State 
only used one-third of its electricity production. In other 
words, Vermont closed a plant that could have provided 70 
percent of its carbon-free electricity--could have amounted to 
70 percent of its electricity being carbon-free. Vermont's 
carbon emissions from its electricity sector increased 5 
percent between 2014 and 2015, after Vermont Yankee closed.
    Entergy announced it would close the plant in New York, but 
Exelon bought it and is working to keep it open. There are 
other examples. In California in 2012, California's carbon 
emissions reportedly increased approximately 24 percent after 
closing the San Onofre Nuclear Generating Station in 2012.
    The United States uses about 25 percent of all the 
electricity in the world. Our 99 reactors generate about 20 
percent of that electricity. In a time when 20 of the world's 
leading science academies and many Americans say climate change 
is a threat and that humans are a significant cause of that 
threat, nuclear power produces about 60 percent of our 
country's carbon-free electricity. Power plants produce about 
40 percent of the carbon produced in our country.
    One way to imagine the United States without nuclear power 
might be to take a look at the stories of three countries:
    First, Japan. After Fukushima, Japan began shutting down 
its 48 reactors, which provided about 30 percent of its 
electricity. The cost of generating electricity in Japan 
increased 56 percent. Major business organizations complained 
that an earlier restart of the reactors was essential if 
manufacturing needed to stay in Japan. A Wall Street Journal 
article reported that the Japanese were turning up their air 
conditioners to 82 degrees. The Empress and Emperor were 
wandering around the Imperial Palace at night with flashlights 
and candles. Japan has begun to change, and has begun to start 
some of the reactors.
    Second example is Germany. And both these are major 
industrialized economies like ours. One-quarter of its 
electricity came from nuclear power, using 17 reactors. Then 
the government decided to replace them with wind and solar and 
a cap-and-trade policy. The subsidies for the wind and solar 
were very high. Another problem was that it didn't produce 
enough reliable baseload energy for an important manufacturing 
company, so Germany began not only closing its nuclear power 
plants, but buying nuclear power from France to replace it, and 
buying natural gas from a very unreliable supplier--Russia--and 
in a remarkable turn of events, even began building new coal 
plants. The cost of electricity in Germany soared, 60 percent.
    Finally, there's an example of United Arab Emirates in 
another direction, a different kind of story. Twelve years 
after notifying the International Atomic Energy Agency of its 
intent to build nuclear reactors, the Emirates will have 
completed four, which will provide nearly 25 percent of its 
electricity by 2020.
    What should the United States do? Well, in summary, one, 
build more reactors. I said, one time, we should build 100 new 
reactors. People thought that was just for a shock effect. But, 
CSIS says that we may close 25 of our 99 reactors by 2020. And 
the U.S. Energy Information Agency says that about 20 percent 
of our current capacity from coal is scheduled to go offline by 
2020. And if that were entirely replaced by nuclear power, it 
would require building another 48 new 1250-megawatt reactors, 
which, by the way, would reduce our carbon emissions another 14 
percent.
    Number two, solve the nuclear waste stalemate. Senator 
Feinstein and I don't agree on everything about nuclear power, 
but we agree on this priority. And I think we agree generally, 
that we need to move on every path we can to get there. My own 
view is that we ought to open Yucca Mountain, because the 
science and the law say we should do it. But, in any event, we 
have other options--private options, repositories--Senator 
Feinstein has suggested. Solve the stalemate.
    Three, relieve the burdens of extensive regulation. We want 
to be safe, but we don't want to make it so expensive and 
difficult to build reactors that we don't build them.
    Four, stop picking winners and losers. The subsidy to big 
wind is so generous that, in some markets, wind producers can 
literally give their electricity away and still make a profit, 
and the so-called negative pricing gives such an advantage to 
wind in a deregulated market that it makes nuclear and coal 
plants uncompetitive and more likely to close.
    And then, fifth, double energy research. That's something 
the United States does very well. We only spend $5 billion a 
year on energy research. We could double that. One way to pay 
for it would be to go ahead and end the 23-year-old wind 
subsidy. There's no need to continue to subsidize a mature 
industry in that way. That would save $8 billion in authorized 
funds that we could then put directly into energy research.
    So, I believe we need to prepare now by building more 
reactors, ending the stalemate on what to do about waste, and 
stopping Washington from picking winners and losers in the 
marketplace. We need to push back on excessive regulation and 
fuel more free-market innovation with government-sponsored 
research and by encouraging energy diversity. If we do those 
things, the United States will not see a day without nuclear 
power, and our energy future will be bright.
    Senator Feinstein.


                 statement of senator dianne feinstein


    Senator Feinstein. Thanks very much, Mr. Chairman. Thank 
you for your leadership and for your remarks. As you well know, 
one of my great pleasures is to be able to work with you. I 
consider you one of the best in this body. I just want, once 
again, to say that.


                             nuclear waste


    For 5 years, you and I have worked trying to find a 
solution to our Nation's nuclear waste problem. Unfortunately, 
though, spent nuclear fuel continues to pile up; 77,000 metric 
tons, to date, scattered all across our country in spent-fuel 
pools and dry casks at reactor sites. So, there's no denying 
that this is a major issue. For me, it's a deterrent to new 
nuclear power. If we can't properly store the waste, we 
shouldn't build the reactors.
    Approximately 130 million people live within 50 miles of a 
storage site for nuclear waste. That's more than two out of 
every five people. In California alone, there are nearly 8,000 
highly radioactive spent-fuel assemblies stored in pools and 
dry casks across four sites, all of which are now shut down or 
are planning to shut down, leaving behind just the waste. The 
future of nuclear power, I believe, in this country depends on 
a solution to the waste problem. Public safety and public 
acceptance of nuclear power, I believe, depend on it.
    I can't just simply continue to support nuclear power 
generation if there is no strategy for the interim storage and 
long-term disposal of the waste. I have hoped that, over the 
past 5 years, you and I and the three Chairs and the two 
Rankings of the Energy Committee would work to put together a 
nuclear waste policy bill, and have introduced it, and it 
hasn't had a hearing, and it hasn't gone anywhere. This is one 
of my great disappointments.
    Unfortunately, the political impasse surrounding Yucca has 
stalled progress on interim storage. The fact is that Yucca was 
forced upon elected officials and a citizenry that didn't want 
it. And that's one of the great learning experiences. The two 
Senators, along with every other statewide elected official in 
Nevada, oppose it, so there's no reasonable expectation that 
their opposition will subside.
    So, the lesson of Yucca is that any solution to the nuclear 
waste issue needs to be voluntary and must have the consent, 
not only of local governments, but also of the State. We 
recognize that in our bill, we provide for that in our bill. We 
know there are areas that would like to apply for these interim 
waste sites. So, we believe that voluntary acceptance can be 
developed.
    So, regardless of whether one supports Yucca or an 
alternative consent-based process for creating a long-term 
storage facility, we also face a short-term problem. That's why 
I believe we should be working to establish an interim storage 
facility away from reactor sites and population centers.
    Interim storage is opposed by the House unless it is linked 
to new funding for Yucca. So, every year, in the Energy and 
Water Conference discussions, it is dropped from our bill. 
That's been most unfortunate. The industry can't seem to help 
themselves on the issue. They've flip-flopped and can't speak 
with one voice. First they were for consolidated interim 
storage, then they were against it. There are now 16 shutdown 
reactors in this country. Seven more shutdowns have been 
announced. So, it's baffling to me that the industry can't get 
behind an effort that is so obviously beneficial to them.
    In the midst of this debate about how to store spent 
nuclear fuel, we shouldn't lose sight of the fact that we're 
dealing with very dangerous materials. The problems at the 
Waste Isolation Pilot Plant, or WIPP, in New Mexico, are a 
prime example of the risks we face in nuclear waste. Here we 
have one of the premier laboratory facilities in the world at 
Los Alamos making a basic chemistry error on the packaging of 
waste drums, which led to a radiological release. One mistake 
in a single drum contaminated more than a third of the entire 
site. That, to me, is really striking. If we can't trust these 
experts to handle radioactive waste safely, what confidence can 
we have in other efforts to manage this material safely and 
securely, long term, at 78 sites around the country?
    There's an article in the LA Times on the WIPP incident. By 
their estimate, the cumulative cost of cleaning up the 
contamination, shutdown time, and longer operations could top 
$2 billion. For more than 2 years, the cleanup has continued. 
The Department will miss its goal of reopening the facility in 
2016. It has not yet established a new date for when the 
facility can begin to safely accept waste.
    I then am just going to do, for the record, some Fukushima 
comments that I won't do here, in the interest of time. But, 
what I say is that we can't allow an accident like Fukushima to 
happen here in the United States. The industry has spent around 
4 billion on Nuclear Regulatory Commission required safety 
upgrades. And I very much appreciate that. This is just a 
fraction of how much a disaster on the scale of Fukushima could 
cost the United States.
    In light of these risks and the lack of a storage strategy, 
I view the risks of improper handling of nuclear materials and 
accidents to be considerable deterrents to the development of 
new reactors.


                      alternative to nuclear power


    When it comes to the question of whether there's an 
alternative to nuclear power that's consistent with our firm 
intentions to combat climate change, my state--California--is a 
case in point. In 2013, Southern California Edison permanently 
shut down its two remaining reactors on the coast, north of San 
Diego, just south of LA, with 6 million people around it. Each 
of the two reactors generated 1100 megawatts of electricity. 
Pacific Gas and Electric, our other major utility, has set upon 
a course to shut down its two reactors at Diablo Canyon, also 
1100 megawatts each. That's a total of 4400 megawatts of 
nuclear power that will have to be replaced within 15 years. 
Within a decade, California will no longer generate nuclear 
power.
    In Southern California, San Onofre was shut down suddenly 
after problems were exposed with its new steam generators--not 
like-for-like, but believed to be with new alloys and new 
construction that would be superior. Despite the sudden loss of 
baseload power, the utilities and grid operator have been able 
to maintain reliability. Roughly half of the lost generating 
capacity will be replaced with renewable energy, energy 
efficiency, demand response, and energy storage. They serve 
probably the biggest area in the country.
    In Northern California, PG&E decided, this year, that it 
would not seek to extend Diablo Canyon's operating license 
beyond 2025. This provides 9 years for an orderly transition 
for the grid and the surrounding community. PG&E--and its CEO 
has directly committed this to me--they will replace the lost 
generating capacity entirely with renewable resources or energy 
conservation. The context for these power replacement decisions 
are the laws that the Governor of California has signed, which 
will bring the largest State in the Union to 33 percent 
renewable electricity by 2020 and 50 percent renewable 
electricity by 2030. I believe we will meet that goal. At the 
same time, the State will double its energy efficiency 
standards.
    Now, these are ambitious goals. California utilities are 
meeting the challenge by building a clean and more flexible 
electricity grid. So, in California, we believe we can meet the 
challenge of climate change without relying on nuclear power. I 
don't doubt that nuclear power is cheap and efficient, but if 
we can do that with 40 million people in our State, I believe 
it also can be done elsewhere in the United States.
    My hope has been that we could come to some terms on a 
nuclear waste facility which would guarantee safety and allow 
the industry to continue to develop, to invent new reactors, 
and to be a positive player. I very much regret that 5 years of 
effort to do that have not been supported by the industry and, 
essentially, have not been successful.
    Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Whitehouse, we welcome you to the hearing and have 
heard your regular speeches about climate change on the Senate 
floor, and your comments on nuclear power. And we look forward 
to your testimony.


                statement of senator sheldon whitehouse


    Senator Whitehouse. Thank you, Chairman Alexander and 
Ranking Member Feinstein, for inviting me to speak at today's 
hearing.


                         nuclear energy reforms


    The past year has seen a renewed and bipartisan interest in 
nuclear energy reforms. I'm part of the bipartisan effort 
behind two bills this Congress. The first, the Nuclear Energy 
Innovation Capabilities Act, was approved 87-to-4 as an 
amendment to the broader energy bill that passed the Senate, 
and it's now being debated in conference. This bill would 
create a new nuclear innovation program through the Department 
of Energy that would function as a shared nuclear science 
clearinghouse for Federal agencies and private industry. It 
would open up the National Labs testbed facilities to private 
industry, to create partnerships between the Federal Government 
and academia in early stages of reactor development, and foster 
greater market certainty for investors.
    The second bill is led by my friend and colleague, Senator 
Inhofe, Chairman of the Environment and Public Works Committee, 
and is coauthored by Senators Crapo and Booker. This bill, 
which looks to reform the Nuclear Regulatory Commission, 
recently cleared the Environment and Public Works Committee on 
a vote of 17-to-3. The House of Representatives recently passed 
a similar measure under suspension of the rules. Our bill would 
create a new advanced reactor licensing framework for concepts 
that are much different than today's light water reactors. As 
cosponsors, we agree NRC's (Nuclear Regulatory Commission) 
current licensing framework is not designed to promote a next 
wave of advanced nuclear technology.
    The purpose of these two bills is straightforward: drive 
homegrown innovation of next-generation nuclear technologies in 
our National Labs, and put in place a regulatory framework that 
is better suited to license these technologies. We shouldn't 
sit back and watch investors go to China and India to develop 
and commercialize next-generation reactors. This is an 
opportunity to give American businesses a leg up in that 
international marketplace.


                        advanced reactor designs


    Our bipartisan group laid out our support for advanced 
reactors in a U.S. News & World Report op-ed, which I would 
offer to submit as part of the record of this hearing.
    As we wrote, new advanced reactor designs can substantially 
reduce the threat of a meltdown. In addition, many new designs 
are much smaller than their predecessors, simplifying and 
standardizing construction. Smaller size means they can plug 
into future micro-grid systems, reducing the need for massive 
transmission system upgrades.
    Perhaps the most interesting features are that the advanced 
technologies could actually reduce nuclear waste created by the 
current light water fleet. Dealing with our existing nuclear 
waste stockpile remains an unresolved and important issue. And 
the holy grail for me in this effort would be to have these 
advanced reactors be part of that solution.
    Research on advanced nuclear reactors will help us address 
one of the most critical issues of our time: climate change. 
There is clear consensus about the urgent need to address 
climate change--from the American public, from every single 
major American scientific society, from most major American 
nameplate companies, other than those in the fossil fuel 
business, from every single American National Lab and NASA and 
NOAA, from America's national security, military, and 
intelligence leaders, and of course, from the Pope and other 
world leaders. The United States Congress is fast becoming a 
laughingstock in its denial of this problem.
    Advanced nuclear technologies could be a key part of a low 
carbon energy future. A recent study by Columbia University 
environmental economist Jeffrey Heel of the feasible pathways 
to an 80-percent reduction of U.S. greenhouse gas emissions 
below 2005 levels by 2050 found that the cheapest way to get 
there requires nuclear to play a role. The common ground we 
have established this year, I believe, is only the beginning. 
There are other areas that can benefit from the same bipartisan 
spirit, including working to preserve our existing nuclear 
fleet in the safest possible way. It makes no sense to close a 
safely operating nuclear plant just because, economically, it 
receives no value for the zero-carbon quality of its power, 
when we know there is value to that zero-carbon quality.
    So, Mr. Chairman, Ranking Member, let's make progress where 
we can. Thank you very much.
    Senator Alexander. Thank you, Senator Whitehouse. And as 
one Senator, I look forward to working with you. Senator 
Feinstein agreed--and I agree, certainly--on the importance of 
finding a repository. I also agree with you about the 
importance of finding ways to deal with climate change. If 20 
of the leading science agencies in the industrialized countries 
of the world have said it's a threat and that humans are 
helping to cause it--if 20 fire marshals of that repute came to 
my house and said, ``Your house is likely to catch fire,'' I 
think I'd buy some insurance. So, as you and I have discussed, 
10 years ago I suggested a power-plants-only plan to deal with 
carbon.
    So, I think there is some area for agreement here among 
those of us who believe that nuclear power is an important part 
of the future of the country, and those who agree that climate 
change is a threat, and those who believe in both those things. 
So, we especially welcome your participation now and in the 
future.
    Senator Whitehouse. Well, thank you, Chairman. You are also 
my Chairman on the Health, Education, Labor, and Pensions 
Committee, where it has been a real pleasure working with you. 
So, I second the kind remarks and compliments of the Ranking 
Member.
    Thank you, Chairman.
    Senator Alexander. Now, Senator Feinstein and Secretary 
Moniz, the vote is well underway, and there are two votes. So, 
I think the best thing to do is to adjourn the hearing briefly. 
Senator Feinstein and I will go to the floor and be the last to 
cast votes on the first vote, and the first on the second vote. 
There might be three votes. And then we'll come right back. So, 
that means we'll adjourn for about 20 or 25 minutes, and then 
we'll come back and we'll be able to hear your testimony and 
ask you questions. Other members of the Senate, after the vote, 
will be able to come in and do the same.
    So, Senator Feinstein, if that's all right with you.
    Senator Feinstein. That's fine with me. I really hope that 
Secretary Moniz will not mind this. I mean, it's the 
vicissitude of the conditions we can't control. And you've been 
so terrific. You know, we don't want to have you have to stand 
around. But----
    Secretary Moniz. Well, I appreciate that, but I also 
appreciate that we have a compressed schedule this month and 
you need to vote.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you.
    The subcommittee stands in recess, subject to the call of 
the Chair. We'll see you in about 20 minutes, hopefully.

                          DEPARTMENT OF ENERGY


                        Office of the Secretary

    Senator Alexander. Subcommittee will now please come to 
order.
    I now welcome and recognize Secretary Moniz to provide his 
statement on behalf of the Department of Energy.
    Secretary, your full written statement will be included in 
the record. We look forward to your testimony, and appreciate 
your making time today. Please proceed.
STATEMENT OF DR. ERNEST J. MONIZ, SECRETARY
    Secretary Moniz. Well, thank you, Chairman Alexander, 
Ranking Member Feinstein, for the opportunity to come here to 
discuss nuclear energy.
    As we all know, nuclear power contributes, as you've said, 
about 20 percent of our electricity, and importantly, over 60 
percent of our non-greenhouse-gas-emitting power. An active 
nuclear enterprise also supports our global leadership in 
nuclear nonproliferation, another area, of course, in which the 
Department is very engaged.

                          INTERNATIONAL MARKET

    I would just add that, of course, the Paris Agreement and 
our Mission Innovation initiative also indicate the enormous 
international market that's going to grow for all kinds of 
clean energy technology. And that, of course, will include 
nuclear energy. One part of that could very well be small 
modular reactors, a vital part of that innovation agenda and of 
the low carbon future.

                SMR LICENSING TECHNICAL SUPPORT PROGRAM

    The Department's SMR Licensing Technical Support Program 
expects that our reactor design partner, NuScale, will submit 
the first SMR (Small Modular Reactor) design certification 
application by the end of the calendar year, and the DOE 
(Department of Energy) is now working with partners in Idaho 
and Tennessee on potential SMR development projects as part of 
our innovation agenda.

                         REACTOR LIFE EXTENSION

    We're also developing the scientific basis to extend the 
life of existing reactors--you referred to that earlier--
through research on materials aging and degradation, digital 
modernization, and development of accident-tolerant fuels.

     CONSORTIUM FOR THE ADVANCED SIMULATION OF LIGHT WATER REACTORS

    Also, in your part of the world, at Oak Ridge, the first 
innovation hub, CASL (Consortium for the Advanced Simulation of 
Light Water Reactors), is doing extremely well, in terms of 
developing the simulation tools for reactors, indeed releasing 
products for virtual reactor design.

            PRIVATE-SECTOR NUCLEAR RESEARCH AND DEVELOPMENT

    We are also seeing, very interestingly, significant 
private-sector nuclear technology R&D, Third Way, identifying 
almost 50 companies and institutions doing nuclear energy 
innovation, which is a remarkable turnabout over the last 
several years. A major focus for us will be providing the 
technical support and infrastructure access to these 
entrepreneurs, not unlike what Senator Whitehouse described in 
one of those bills. I would note that DOE's GAIN Initiative 
also recently announced eight small businesses in this arena 
will receive about $2 million and access to the National Labs 
and Nuclear Science User Facility partners.

                        RESEARCH AND DEVELOPMENT

    Earlier this year, we announced awards to two companies 
developing one high-temperature gas reactor and another molten 
salt reactor concepts. A robust RD&D program depends on an 
infrastructure of experimental and computational facilities and 
skilled scientists and engineers. The Department supports a 
broad range of such facilities, from small-scale laboratories 
to hot cells and test reactors to 25 university research 
reactors to high-performance computation for a broad program.

                        CROSSCUTTING INITIATIVES

    In addition to these very specific nuclear energy programs 
in the innovation space, we have several crosscutting 
initiatives--that is, initiatives that cut across our energy 
and science programs--that are directly germane to nuclear 
energy innovation. That includes an advanced materials 
initiative in the fiscal year 2017 budget, our supercritical 
CO<INF>2</INF> cycle development, which is now led out of 
fossil energy, but includes nuclear energy, and our Exascale 
computing initiative and our subsurface crosscutting science 
and engineering activity relevant to nuclear waste.

                          LOAN PROGRAM OFFICE

    Finally, DOE's Loan Programs Office plays an important role 
in this space. The Vogtle Plant, under construction in Georgia, 
was partially financed using an $8.3 billion loan guarantee, 
and a new solicitation first issued in December 2014 will 
support up to $12.5 billion in loans for advanced nuclear 
projects, potentially including small modular reactors.

                               TASK FORCE

    Now, to help shape a decades-long vision for advanced 
reactor development and deployment, I also established a task 
force of the Secretary of Energy Advisory Board. They've worked 
very, very hard and I anticipate a report at the September 22nd 
meeting that is coming up next week.
    All in all, we have a robust, multidimensional nuclear 
energy innovation program that can be expanded further as we 
seek the kind of increase in the innovation budgets that you 
discussed earlier.

                   EXISTING PLANTS AND ENERGY MARKETS

    Turning to existing plants and the energy markets, we have 
99 operating reactors. We will soon add the Watts Bar 2 
Reactor. And there are the four additional reactors at Vogtle 
and Summer that are being built and should operate by the end 
of this decade. All four of those reactors being the AP-1000 
generation-3 or generation-3+ reactors.
    However, significant challenges and complex market factors 
do face the existing nuclear fleet, particularly in 
restructured markets. We run the risk that many will close just 
as we are trying to ramp up low carbon energy sources, for 
example, to meet State implementation goals for the Clean Power 
Plan.
    Here on Capitol Hill, in May, we convened experts and 
stakeholders to discuss potential Federal and State actions to 
prevent at least some of these early closures. And in addition 
to the DOE research efforts I have mentioned, which would be 
more of a mid- to longer-term impact, FERC (Federal Energy 
Regulatory Commission) has now been working diligently on 
issues of price formation, which can be important for the 
existing nuclear plants.
    At the State level, options for action include power 
purchase agreements, tax credits, and clean energy standards. 
And, of course, in August, New York established a clean energy 
standard to give zero emission credits to some of the State's 
nuclear power plants. That, together with the purchase of one 
of those plants, will result in the continuation of three 
nuclear power plants in Upstate New York. Illinois is 
considering similar measures.
    And finally, I'll add that our ongoing Quadrennial Energy 
Review second installment is taking on the challenge of 
valuation for benefits in the electricity system, including the 
national security benefits of a vibrant nuclear industry. So, 
this question of valuations, of price formations as to how 
generators are rewarded, is clearly very important.

                         NUCLEAR WASTE STRATEGY

    Finally, I would just turn to nuclear waste strategy. I 
agree, certainly, with Senator Feinstein that we must find a 
sustainable path forward for the storage and disposal of 
nuclear waste. And to achieve an integrated waste management 
system, the Department is clearly focusing on a consent-based 
siting process, as you said.
    DOE issued an invitation for public comment in December 
2015, followed by a kickoff this year in eight public meetings 
across the United States. The Department will discuss this 
feedback and next steps for a consent-based siting effort at a 
long-scheduled public meeting that will be held here tomorrow 
in Washington, D.C.
    By the end of the calendar year 2016, the Department will 
issue a number of documents, including a draft consent-based 
siting process benefiting from these regional meetings, as well 
as siting considerations for interim storage facilities and 
deep geologic repositories. Our fiscal year 2017 budget 
proposes $39.4 million to support our efforts, continuing to 
move forward with a consent-based approach to siting storage 
and disposal facilities, including $25 million for grants to 
States, tribal nations, and local governments.
    In parallel with developing a consent-based approach to 
siting, the Department is developing the concept of 
consolidated interim storage, as you have both discussed. A 
pilot facility and, subsequently, a consolidated interim 
storage facility with greater capacity and greater capabilities 
would, (1) allow the permanent removal of spent fuel from 
shutdown sites, (2) allow the Federal Government to begin 
meeting its contractual waste management commitments, (3) 
provide crucial flexibility for the overall nuclear waste 
management system, and (4) provide useful experience, including 
opportunities to conduct R&D on the behavior of spent nuclear 
fuel and high-level radioactive waste over time. So, there are 
many benefits in the interim storage addition to our waste 
management system.
    DOE would need congressional authorization to construct an 
interim storage facility. However, in parallel, with efforts to 
develop DOE constructed and operated facility concepts, we have 
seen the emergence of private initiatives that may provide 
interim storage services. And this is a very interesting 
development. We are preparing to seek public input on how a 
privately owned storage facility could fit into the overall 
integrated waste management system, specifically planning to 
issue an RFI (Request for Information) within weeks.
    The Department continues to also work toward a permanent 
disposal solution, seeking to better understand different 
methods and geologies that can effectively isolate spent fuel 
and high-level waste for thousands of years into the future.
    DOE is also pursuing our planned deep borehole field test 
to determine the feasibility of using the deep borehole 
approach as an alternative to mined geological repositories for 
certain disposal pathways--not as a replacement, but as a 
supplement.
    We have recently received letters of intent to submit 
proposals that indicate there is continued strong interest. 
Full proposals are due October 21st, with plans to select one 
or more of those applicants early in 2017. And, in fact, 
yesterday there was a proposal conference, which had about 20 
people, and about 12 companies engaged.
    DOE is also developing plans for a defense waste 
repository. Unlike commercial spent fuel, defense inventory is 
no longer growing. Some defense waste is less radioactive. It's 
cooler, easier to handle than commercial fuel. And this could 
allow for some different, simpler, and maybe faster pathways 
for disposal. We expect to seek public comment and feedback on 
a defense waste repository as well later this calendar year.
    Overall, our budget proposes $76.3 million for integrated 
waste management system activities, a $53.8 million increase 
from fiscal year 16, showing our priority in moving forward on 
these pathways, working towards waste storage and disposal 
solutions. That's in addition to $74 million for used nuclear 
fuel disposition R&D.
    So, in conclusion, again, I appreciate the opportunity to 
discuss nuclear energy as a vital component of our energy 
strategy and how we are moving forward, and frankly, setting 
the table for a new administration and Congress in about--just 
over 100 days.
    Thank you. I would be happy to answer questions.
    [The statement follows:]
               Prepared Statement of Dr. Ernest J. Moniz
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the future of nuclear energy in the United States.
    For the past two decades, nuclear power has reliably and 
economically contributed nearly 20 percent of electricity generated in 
the United States. It produces more than 60 percent of our non-
greenhouse-gas emitting power, making nuclear energy our Nation's 
single largest contributor of carbon-free electricity, and as such is 
responsible for avoiding hundreds of millions of tonnes of carbon 
dioxide emissions each year. Under President Obama's Clean Power Plan, 
the goal is a reduction of carbon dioxide emissions by 32 percent below 
2005 levels by 2030. A strong domestic nuclear energy sector could help 
with meeting this goal and is also critical for the U.S. to continue as 
a global leader in nuclear nonproliferation.
    The Paris Agreement and Mission Innovation, both announced at the 
2015 United Nations Climate Change Conference (COP21), have shown the 
enormous international interest for low-carbon technologies including 
nuclear energy, the need to accelerate clean energy innovation, and the 
potential for U.S. industry to develop these advanced technologies.
    A prerequisite for nuclear power continuing as a vital part of the 
Nation's clean energy portfolio is public confidence in the safety of 
nuclear plants and commercial confidence that the plants can be 
operated safely, reliably, and economically. Additionally, we have an 
obligation to develop a workable, long-term solution for storage and 
disposal of spent nuclear fuel and high-level radioactive waste.
                               innovation
    The Department supports innovation across all energy technologies, 
and we are involved in the entire nuclear energy lifecycle. This 
includes supporting research, development, and licensing of new 
technologies; providing infrastructure for testing and experimentation; 
working with industry to support the safe, reliable and economical 
operation of today's nuclear plants; and advancing the Administration's 
Strategy for the Management and Disposal of Used Nuclear Fuel and High-
level Radioactive Waste.
    Mission Innovation, an initiative launched in November 2015 by the 
U.S. and 19 other countries represents an unprecedented commitment to 
accelerate global clean energy innovation. The Department's fiscal year 
2017 request invests in key areas to support this initiative. The 
Department's fiscal year 2017 Budget Request invests in key areas to 
accelerate investment in nuclear energy innovation. Specifically, the 
fiscal year 2017 request includes $994 million for the Office of 
Nuclear Energy's research and development (R&D) programs, $8 million 
above fiscal year 2016. These investments include advancing 
technologies that support the existing reactor fleet and that develop 
new, next-generation options. Of this total, the fiscal year 2017 
Budget Request for the Office of Nuclear Energy includes $804 million 
in support of Mission Innovation.
Improvements in Light Water Reactor Technology
    Our Nation's existing nuclear power fleet consists of 99 operating 
light water reactors (LWR), and the Department's programs advance LWR 
technologies in a variety of ways to support the existing fleet's 
continuing role providing reliable low-carbon power for the United 
States.
    The Light Water Reactor Sustainability Program is developing the 
scientific basis to extend the life of our existing nuclear reactor 
fleet while also improving economics and reliability and sustaining 
safety and security through research on materials aging and 
degradation, safety margin characterization, and digital modernization 
technologies. The Department also is working on enhancing the accident 
tolerance of light water reactors through cost-shared efforts to 
develop advanced accident tolerant fuels for existing commercial 
nuclear power plants with improved safety and performance 
characteristics.
    We have been successful in improving modeling and simulation to 
enhance the performance of currently operating light water reactors 
through the Consortium for Advanced Simulation of Light Water Reactors 
(CASL), one of the Department's Energy Innovation Hubs, and a program I 
was honored to serve as the Chairman of the Board for its first 2 
years. Established in 2010 and centered at the Oak Ridge National Lab, 
CASL uses the Department's most advanced computing infrastructure to 
model and simulate a Virtual Environment for Reactor Applications 
(VERA) that is being used to understand performance and safety issues 
of currently operating Pressurized Water Reactors. VERA has been used 
to simulate the full operating history of the Watts Bar Nuclear Power 
Plant Unit 1 Pressurized Water Reactor in Spring City, Tennessee. This 
simulation included high-fidelity predictions of more than 18 years of 
reactor operations including fuel loading, depletion, shuffling, and 
discharge. The results have been compared with measured plant data and 
showed a high degree of consistency. CASL is working with Westinghouse, 
one of their founding partners, to use VERA to simulate the startup of 
the AP1000 reactor to confirm their engineering calculations.
    Currently in its second and final phase, CASL will enhance the 
development of VERA for applications beyond pressurized water reactors, 
to include boiling water reactors and new reactor designs like small 
modular reactors.
Small Modular Reactors
    Small modular reactors (SMRs) are one area in which we are seeing 
rapid innovation, with several companies researching light water SMR 
designs in the United States.
    SMRs have the potential to offer a new standard of passive nuclear 
safety with designs that safely shutdown without operator interaction, 
off-site power, or off-site water. They may also offer greater 
affordability by requiring potentially lower upfront capital cost 
investments than traditional gigawatt-scale nuclear plants, and 
potentially shorter construction times through factory fabrication. DOE 
sees SMRs as a vital part of the world's low-carbon future, including 
the United States.
    The Department's SMR Licensing Technical Support program was 
created to realize these and other benefits by advancing the first 
domestic SMR designs. DOE's cost-shared investment has generated 
progress, and we expect that our reactor design partner, NuScale, is 
expected to submit the first SMR design certification application to 
the U.S. Nuclear Regulatory Commission by the end of the calendar year. 
Fiscal year 2017 will be the final year of funding for SMR LTS 
activities.
    SMRs may also offer an important new option for power generation in 
a variety of settings. For one of our site partners, the Utah 
Associated Municipal Power Systems (UAMPS), SMRs may be an option to 
replace the power from retiring coal plants in the mid-2020s. UAMPS has 
identified a preferred site on Federal land at the Idaho National 
Laboratory to potentially build a NuScale SMR. Our other site partner, 
the Tennessee Valley Authority, has submitted an early site permit 
application to the U.S. Nuclear Regulatory Commission for an SMR 
project at the Clinch River site that could deliver highly-reliable 
power to ratepayers in the Tennessee Valley region. The Idaho National 
Laboratory has been investigating how SMRs could be part of a hybrid 
energy system demonstration along with renewable energy sources.
    Several factors, however, pose challenges to the path to deployment 
for SMRs, including the current low price of electricity and low 
electricity demand growth.
    Further, the production tax credits (PTC) enacted by the Energy 
Policy Act of 2005 that are available to new nuclear power plants would 
likely not apply to the first SMR deployments because SMRs would begin 
operation after the nuclear PTC sunset of December 2020, and because 
current law does not include a statutory mechanism for non-profit SMR 
owners to take advantage of the credits through transfers.
    In light of the progress and the challenges, DOE continues to study 
the path to deployment of SMRs. As part of that effort, DOE held a 
public workshop on June 22-23, 2016 to solicit industry input, and we 
expect a summary report from that workshop to be available in October 
2016.
    Executive Order 13693 set clean energy targets for Federal 
facilities to meet over the subsequent decade and SMRs are among the 
set of technologies that count towards meeting those targets. DOE is 
currently conducting a study to enumerate and analyze the various legal 
authorities available to it and other Federal agencies to meet the 
clean targets set out in Executive Order 13693, including utilizing 
power from SMRs.
Advanced Reactor Concepts
    Across all areas of nuclear reactor technology, we are now seeing a 
considerable focus by American industry to invest in the development of 
novel nuclear reactor concepts--almost 50 companies and institutions 
are working on nuclear innovation, according to a study by Third 
Way.\1\ This level of activity in industry on novel ideas is a new 
development with potentially significant implications for the future of 
nuclear power in the U.S.
---------------------------------------------------------------------------
    \1\ Todd Allen, Matt Goldberg, Amber Robson, and Kemal 
Pasamehmetoglu (Idaho National Lab), ``What's Missing in U.S. Nuclear? 
An Innovation Culture,'' Third Way, March 29, 2016. Accessed September 
9, 2016. Available at: http://www.thirdway.org/report/whats-missing-in-
us-nuclear-an-innovation-culture.
---------------------------------------------------------------------------
    To help take advantage of this industry focus, DOE started this 
year the Gateway for Accelerated Innovation in Nuclear (GAIN) 
initiative to make DOE's nuclear energy research capabilities 
accessible to industry engineers and scientists in a public-private 
partnership. The opportunities available through GAIN include: access 
to nuclear and radiological facilities and testing capabilities (e.g. 
thermal-hydraulic loops, control systems testing, etc.); computational 
capabilities including state-of the art modeling and simulation tools; 
information and data through a knowledge and validation center. In 
June, the GAIN program announced that eight small businesses will be 
provided up to $2 million for the Nuclear Energy Voucher pilot program, 
granting them access to the extensive nuclear research capabilities 
available at DOE's national laboratories and Nuclear Science User 
Facilities (NSUF) partners.
    The Department's ongoing advanced reactor programs specifically 
support research to develop technologies for advanced concepts--
Generation IV designs--that could dramatically improve nuclear power 
performance in sustainability, economics, safety, and proliferation 
resistance. Next-generation concepts each have potential significant 
advantages: high-temperature gas-cooled reactors (HTGR) could provide 
higher-efficiency power generation and high quality process heat for 
industry, thereby reducing carbon emissions; liquid metal-cooled fast 
reactors could be used to generate electricity while addressing long-
lived nuclear waste issues; fluoride salt-cooled high-temperature 
reactors (FHRs) could have the high temperature capabilities of HTGRs 
while operating at atmospheric pressure; and innovations like 
tristructural-isotropic (TRISO) coated particle fuel and graphite core 
structural components could allow for advanced designs with extremely 
high safety margins in all imaginable scenarios.
    In fiscal year 2016, Congress appropriated $12.5 million for two 
ongoing industry cost-shared awards to further the development of two 
performance based advanced reactor concepts. Earlier this year, DOE 
announced awards to two companies, X-energy and Southern Company, 
seeking to develop such novel reactor concepts. These awards will 
support two new designs with advantages in safety, operations, and 
economics from companies who presented clear plans for demonstration of 
these concepts in the 2030's. These two designs, an advanced pebble bed 
HTGR and a molten chloride fast reactor, are among many with 
significant potential for performance advantages for the next 
generation of nuclear power reactors.
    The final step in bringing these novel technologies to market will 
be obtaining certification and licensing by the Nuclear Regulatory 
Commission (NRC). Most commercial reactor types licensed to date in the 
U.S. have had designs using water as the primary heat transfer medium. 
A joint DOE-NRC initiative supports development of Advanced Reactor 
Design Criteria (ARDC) for Nuclear Power Plants with advanced reactor 
designs, specifically addressing the safety and operating 
characteristics of reactors with non-water coolants. The NRC has 
released draft ARDC for public comment and plans to hold another public 
meeting later this year and intends to have regulation guidelines 
finalized by the end of 2017. This key activity is important for the 
potential of these novel concepts to be realized.
Nuclear Energy Infrastructure
    A robust research, development, and demonstration program depends 
on an infrastructure of experimental facilities, computational 
facilities, and highly trained scientists and engineers dedicated to 
meeting the needs of the Nation. The Department supports a nuclear 
research infrastructure across the Nation incorporating a broad range 
of facilities, from small-scale laboratories to hot cells and test 
reactors. Computing facilities, ranging from desktop workstations to 
highly-parallel supercomputers at the national laboratories, are 
routinely employed to gain new insights and guide experiment design.
    The fiscal year 2017 budget proposes $102 million to support DOE 
nuclear test reactors at the Idaho National Laboratory (INL), including 
strategic investments at the Advanced Test Reactor (ATR) to improve 
reliability and availability, and refurbishments to major Transient 
Reactor Test (TREAT) Facility systems to support restart efforts. Both 
facilities play a critical role in meeting nuclear reactor technology 
R&D program objectives. The fiscal year 2017 budget also proposes $75 
million for sustainment of unique nuclear and radiological R&D 
capabilities at the Materials and Fuels Complex (MFC) at INL that are 
required for examination, characterization, fabrication, and separation 
of materials, components, and fuels.
    The High Flux Isotope Reactor (HFIR) at the Oak Ridge National 
Laboratory also is an important component of DOE's Nuclear Science User 
Facilities (NSUF), which have a singular focus on advancing 
technologies supporting nuclear energy applications. HFIR is a 
versatile 85 MW research reactor offering the highest steady-state 
neutron flux in the western world. It is able to quickly generate 
isotopes that require multiple neutron captures and perform materials 
irradiations that simulate lifetimes of power reactor use in a fraction 
of the time. Each year, NSUF conducts a rigorous competitive process 
leading to awards providing university, national laboratory and 
industry principal investigators no-cost access to the unique NSUF 
research capabilities, including HFIR.
    The Department supports 25 university research reactors located at 
24 U.S. universities that provide significant in-core fuels and 
materials irradiation experiment capabilities as well as hands on 
teaching tools for hundreds of students each year. The Department's 
fiscal year 2017 Budget Request includes $7 million to continue 
providing fresh and used nuclear fuel services for these reactors, in 
addition to funds for university reactor-supported research each year. 
In fiscal year 2017, the Department will also complete a multi-year $15 
million investment to complete safety upgrades at the TRIGA 
International fuel production facility in France to ensure a continuing 
and stable fuel source for the 12 U.S. university TRIGA research 
reactors, and many more such reactors world-wide.
Crosscutting and Other Innovation Initiatives
    The Department also supports innovation of nuclear energy 
technologies through a variety of other initiatives outside of the 
Office of Nuclear Energy.
    Several of our Crosscutting Initiatives, which harness funding and 
capabilities from many DOE program offices to advance key science and 
technology objectives with impact across DOE's missions, can support 
the advancement of some nuclear energy technologies. In fiscal year 
2017, the Advanced Materials crosscutting initiative will coordinate 
$113 million across five DOE program offices to advance innovation for 
affordable, reliable, high performance materials--a key to next-
generation nuclear technologies. The Subsurface Crosscutting Initiative 
will coordinate $258 million in R&D investment across five program 
offices at DOE to advance science, technology and engineering in the 
subsurface, which could benefit nuclear waste disposal. Our 
Supercritical CO2 Crosscutting Initiative is advancing a technology 
that could significantly improve the efficiency of future, generation 
IV nuclear plants--improving both their capital and operating costs. 
Our Exascale Computing Crosscutting Initiative continues to support 
activities, such as CASL, by significantly accelerating the development 
and deployment of high performance computing capabilities.
    DOE's Loan Programs Office also plays an important role in the 
deployment of innovative nuclear reactor designs. The Vogtle Plant, now 
under construction in Georgia, was financed using $8.3 billion in DOE 
loan guarantees to support construction of the facility. These newly 
constructed units will provide enough reliable, zero-carbon, baseload 
electricity to power 1.5 million homes in the Southeastern United 
States. In addition, a new solicitation, first issued in December 2014, 
will support up to $12.5 billion in loans for advanced nuclear projects 
in the U.S., potentially including small modular reactors to help 
jumpstart this innovative new area.
The Nuclear Energy Workforce
    To maintain and grow its vibrant domestic nuclear energy industry 
while continuing its global leadership in nuclear nonproliferation, the 
U.S. requires a strong domestic workforce of nuclear scientists and 
engineers.
    DOE engages with industry to address workforce needs. The 
Integrated University Program at DOE has funded each year approximately 
30 multi-year student fellowships and 46 single-year scholarships in 
the nuclear engineering and science fields of study. Since 2009, this 
program has awarded nearly $25 million to more than 500 students for 
nuclear energy-related scholarships and fellowships. Ninety-eight 
percent of the students who have completed nuclear energy-related 
fellowships have subsequently pursued careers in nuclear energy fields 
at the Department's national laboratories, other government agencies, 
academic institutions or private companies.
    DOE implemented in fiscal year 2016 a Nuclear Energy Traineeship 
initiative to address priority nuclear energy workforce needs in 
critical areas of science, technology, engineering, and mathematics 
(STEM) to advance critical disciplines and competencies necessary for 
DOE's nuclear energy mission responsibility. The $3 million Traineeship 
in Radiochemistry, which was recently awarded to a consortium led by 
Washington State University, is the Department's first jointly-funded 
traineeship, supported by $2 million from the Office of Nuclear Energy 
and $1 million from the Office of Environmental Management. The Office 
of Nuclear Energy requested $1 million for fiscal year 2017 to produce 
a study on areas where the market is not providing sufficient 
educational resources for specific nuclear fields and why those market 
failures exist.
    Finally, at any given time, between 400-500 university students are 
participating in university-led research funded by the Office of 
Nuclear Energy, helping to provide diverse thought and capabilities to 
these activities and to develop the future nuclear workforce.
The Path Ahead for Nuclear Energy Innovation
    Accelerating nuclear energy innovation and ensuring the 
commercialization of those new technologies will require a decades-long 
vision. To that end, in 2014, I established a Task Force of the 
Secretary of Energy Advisory Board (SEAB) to focus on the Future of 
Nuclear Power.
    The Task Force's principal charge is to develop a report that will 
describe the landscape to go from today's reliance largely on light 
water reactors to a situation from 2030 to 2050 where one or many 
nuclear technologies have reached technical and commercial maturity and 
are deploying at a rate that could contribute carbon free nuclear power 
for 20 percent of global electricity generation. This report could 
include historical operating performance; evolving end-user 
requirements such as process heat, hydrogen production, and 
desalination; options for new development and test facilities; and 
reactor design and development.
    I expect the report to be discussed at the upcoming SEAB meeting on 
September 22 and look forward to its recommendations informing this 
conversation.
            existing plants and the energy market landscape
Status of the Current Fleet
    As I mentioned previously, there are currently 99 reactors 
operating in the United States, totaling 99 gigawatts-electric (GWe) of 
capacity. As already stated, this nuclear fleet is the largest part of 
America's clean, emission-free electricity generation, with these 
reactors provide about 20 percent of electricity in the United States 
and approximately 60 percent of our zero-carbon electric generation. 
Nuclear power plants provide reliable power, maintaining the highest 
capacity factors of all electricity generators.
    In May 2016, the Tennessee Valley Authority's Watts Bar Unit 2 
achieved criticality, and in June 2016, it produced power for the first 
time and is currently undergoing start-up testing with commercial 
operation planned for the fall of 2016. It is the United States' first 
new commercial nuclear generation in the 21st century. Additionally, 
two Vogtle units in Georgia are scheduled to come on-line in 2019 and 
2020 respectively. Construction of two new AP-1000 units at V.C. Summer 
in South Carolina are also under construction.
Market Structure and Early Closures
    In spite of the good news associated with these new nuclear plants, 
there are significant challenges facing the existing nuclear fleet. In 
just the past 4 years, five reactors have shut down earlier than the 
end of their licensed operating period and even more have announced 
intensions to close early. The shutdown of these power plants 
eliminates needed zero-carbon electricity generation just as states 
begin design of Clean Power Plan implementation.
    The challenges facing operation of these plants are largely due to 
a combination of complex market factors. Inexpensive electricity prices 
driven primarily by low natural gas prices, low demand growth, and 
other market factors have made operating nuclear power plants 
uneconomical in some parts of the country.
    The current fleet of reactors was built under a very different 
market structure: cost-of-service regulated utilities that incentivize 
large capital investments. 54 GWe of the current generating capacity is 
in regulated markets, with the rest in restructured electricity 
markets, and all five new plants are in regulated markets. Today, 
however, many nuclear reactors have to compete in wholesale power 
markets, and some reactors with higher operating costs--especially 
single-unit, smaller plants--are struggling. Several more reactors may 
be at risk of early closure due to these economic forces and the 
increasing costs of operation.
    The Federal Energy Regulatory Commission (FERC) is working on 
reconsideration of price formation--or how electricity prices are 
established to balance supply and demand. Following several workshops 
in the Fall of 2014 and following extensive industry response, FERC 
required the regional transmission organizations and independent system 
operators to submit reports considering a number of potential issues 
for improving the function and transparency of pricing in electricity 
markets. FERC has also docketed several proposed and final rules with 
new market requirements that reconsider price formation principles. 
Actions like these could ultimately help appropriately price the value 
nuclear plants offer, which could in turn help their economics.
    At DOE, we have been using our convening power to advance the 
conversation. In May 2016, I convened a meeting of experts and 
stakeholders in the nearby Hart Senate Office Building to discuss these 
economic challenges and the unintended consequences that could arise 
from early closures. I appreciate that Senator Crapo hosted this event 
and that both he and Senator Booker participated and provided remarks. 
At the meeting, we identified potential policy options that can be 
pursued at Federal and state levels to address these concerns, as well 
as technical options that utilities can use to improve the economic 
competitiveness of operating nuclear power plants.
    Actions at the State level were also discussed in the May meeting, 
including power purchase agreements, tax credits, and clean energy 
standards, and some are now being implemented. In August, New York 
established a Clean Energy Standard that will give Zero Emission 
Credits to some of the State's nuclear power plants. This action has 
the potential to keep open three plants that were all at risk of 
closure. In Illinois, a similar clean energy standard is under 
consideration by the State, which has the potential to keep open about 
3 GWe of clean electricity generation. As States struggle with these 
energy related issues, we in DOE are available to provide technical 
assistance as needed.
    DOE's research programs are also working in a number of areas that 
may begin having an impact in the 2020 timeframe to address longer-term 
solutions to these issues. DOE is supporting R&D jointly with industry 
through the Light Water Reactor Sustainability Program, Accident 
Tolerant Fuel development, and CASL that can enable plant performance 
gains and reduce operating costs. DOE recently convened a panel of 
experts from industry, national laboratories, academia, and regulators 
to identify research, development, and demonstration opportunities that 
could prove economically beneficial, an effort that highlighted the 
potential improve materials--already an area of emphasis for DOE's R&D 
programs. Lastly, our joint work between the Office of Nuclear Energy 
and Energy Efficiency and Renewable Energy in nuclear-hybrid systems 
has the potential to further improve the economics of nuclear power.
Clean Power Plan
    The Clean Power Plan can also benefit the existing nuclear fleet--
although with implementation a few years off, bridge solutions may 
still be required in the near-term. The plan is projected to reduce 
greenhouse gas emissions from the power sector by 32 percent versus 
2005 levels by 2030. Its limits on carbon pollution from fossil fuel 
power plans help by taking the cost of that pollution into account, 
enabling the market to internalize the value of zero-emitting sources 
like nuclear.
    Under the Plan, the EPA's targets for each state provide tremendous 
flexibility in implementation, leaving it up to the states to determine 
incentives for the existing nuclear fleet. For example, the Clean Power 
Plan allows either mass-based or rate-based approaches for compliance. 
Under a mass-based approach, states can choose whether to cover new as 
well as existing fossil fuel plants. By covering new as well as 
existing coal and gas plants, a state would provide the greatest 
incentive for the nuclear fleet because it most clearly reflects the 
value of zero-emitting sources.
Quadrennial Energy Review and Valuation
    The crux of the challenge for owners and regulators is economic. 
Taking into account the climate benefits and the potential value of 
baseload power, the benefits of nuclear power can outweigh the costs of 
operating our nuclear fleet. This alignment requires characterizing and 
pricing the benefits and costs provided by all electricity resources to 
determine an optimal generation mix for the various regions across the 
United States. Some benefits are regional, such as grid stability, 
while others are national, such as improved energy security.
    The first installment of the Quadrennial Energy Review (QER) 
included a recommendation to appropriately value electricity services 
and technologies. We are acting on this recommendation in our 
Quadrennial Energy Review 1.2, which is focused on electricity from 
generation to end-use. We are focused not just on valuing new grid 
services and technologies, but also on understanding how existing 
assets--like nuclear plants--should be valued as the grid's physical 
and institutional structures evolve. Decisions about energy tariffs, 
policies, and market structures should consider a full suite of value 
streams, including reliability, flexibility, resilience, environmental 
benefits, security, and others.
    Some value streams that nuclear plants provide, like carbon-free 
electricity and high availability, are either not valued completely or 
are valued differently across jurisdictions. As a result, nuclear 
plants are not always fully valued through electricity prices. Changes 
in capacity markets to reward capacity performance are a step in the 
right direction toward valuing firm capacity.
    We also must remember that maintaining a vibrant nuclear industry 
is important for national security. It is important for the United 
States to serve a major role in setting international standards of 
safeguards, physical security, nonproliferation, and safety, we must be 
a major player in domestic nuclear energy. These and other valuation 
issues are central to the analysis we are doing for the next 
installation of the QER.
                         nuclear waste strategy
    To help ensure the long-term contribution of nuclear power in 
meeting the Nation's energy needs and to fulfill the Federal 
Government's responsibility to manage the more than 75,000 tons of 
waste accumulated over decades of defense activities and clean energy 
production, we must find a sustainable path forward for the storage and 
disposal of nuclear waste.
    As outlined in the Administration's Strategy for the Management and 
Disposal of Used Nuclear Fuel and High-Level Radioactive Waste, the 
Department is planning for an integrated waste management system to 
transport, store, and dispose of spent nuclear fuel and high-level 
radioactive waste from commercial electricity generation, as well 
national defense and research and development activities.
Consent-Based Siting
    To achieve an integrated waste management system, the Department is 
developing a consent-based siting process to help work collaboratively 
with the public, communities, stakeholders, and governments at the 
local, state, and tribal levels. In fiscal year 2016, the Department 
launched an effort to solicit input from the public and interested 
parties on what elements to consider when designing a fair and 
effective consent-based siting process.
    DOE issued an Invitation for Public Comment in December 2015 and 
held a kickoff meeting in January 2016 requesting feedback from 
communities, states, Tribal Nations, and other interested stakeholders. 
From March through July, DOE hosted a series of eight public meetings 
across the United States in order to engage with citizens at a national 
level and discuss the development of a consent-based approach to siting 
nuclear waste facilities. DOE is hosting a long-scheduled meeting 
tomorrow, September 15, to wrap up this process and discuss comments 
collected in our public meetings across the country. A report will 
subsequently be issued summarizing the results of those meetings.
    By the end of the calendar year 2016, the Department will issue a 
number of documents, discussed below, for public comment and 
discussion. These include a draft consent-based siting process, as well 
as siting considerations for interim storage facilities and deep 
geologic repositories.
    The Department's fiscal year 2017 Budget Request includes funding 
to help transition mutual learning and engagement activities for 
consent-based siting to the community level through a Funding 
Opportunity Announcement. Funds will enable communities to learn more 
about nuclear waste management and explore their potential roles in 
consent-based siting and the management of our Nation's nuclear waste. 
In total, our fiscal year 2017 Budget proposes $39.4 million to 
supports our efforts continuing to move forward with a consent-based 
approach to siting storage and disposal facilities, including $25 
million for grants to states, Tribal Nations, and local governments.
Consolidated Interim Storage
    In parallel with developing a consent-based approach to siting, the 
Department is developing the concept of consolidated interim storage of 
commercial spent nuclear fuel. As outlined by the Administration's 
Strategy, consolidated storage will benefit the Nation regardless of 
how and when the waste is ultimately disposed.
    Interim storage would encompass siting, though a consent-based 
process, a pilot interim storage facility and subsequently a 
consolidated interim storage facility with greater capacity and greater 
capabilities. A pilot facility would be focused on the near-term need 
of receiving spent fuel from the existing shutdown reactor sites around 
the country. A larger consolidated interim storage facility, 
potentially co-located with a pilot facility, would provide needed 
flexibility in the waste management system and allow for important 
capacity in implementing the Federal commitment to manage the Nation's 
spent nuclear fuel. These interim storage facilities, as part of an 
integrated waste management system, would perform important functions 
including:
  --Allowing for the permanent removal of spent nuclear fuel from 
        shutdown reactor sites;
  --Allowing the Federal Government to begin meeting its contractual 
        waste management commitments;
  --Providing crucial flexibility for the overall nuclear waste 
        management system, such as the ability to conduct thermal 
        management activities and re-package spent nuclear fuel and 
        high-level radioactive waste if necessary to prepare for 
        permanent disposal, as well as the ability to regulate the 
        future flow of waste shipments to a permanent disposal facility 
        as circumstances require; and,
  --Providing useful learning and experience, including opportunities 
        to conduct R&D on the behavior of spent nuclear fuel and high-
        level radioactive waste over time.
    DOE is currently in the process of developing generic design safety 
analyses for interim storage concepts for two primary reasons. The 
first is to inform potential host communities interested in learning 
more about how such a facility may fit into their future in terms of 
risks and benefits. This second is to develop the necessary regulatory 
strategies for moving the spent fuel from existing facilities, where in 
some cases it has been located for decades, and receiving it at new 
facilities in a safe and efficient manner.
Private Initiatives for Interim Storage
    It should be noted that in order to construct an interim storage 
facility, DOE would need additional congressional authorization. 
However, in parallel with DOE's efforts to develop DOE-constructed and 
-operated facility concepts, we have seen the emergence of private 
initiatives that may provide interim storage services and potentially 
accelerate the schedule to remove spent fuel from the shutdown reactor 
sites.
    These initiatives present a novel approach that is distinctly 
different from DOE's consent-based siting approach, as they essentially 
already include an aspect of community, state, and tribal consent. DOE 
is encouraged by the opportunities presented by these private 
initiatives, and we are preparing to seek public input on how a 
privately-owned storage facility could fit into the overall integrated 
waste management system. DOE will issue a Request for Information 
within the coming weeks.
Ongoing Efforts Towards Permanent Disposal
    Moving forward with developing a consolidated interim storage 
concept does not mean we are putting on hold efforts to find a 
permanent disposal solution for nuclear waste. The Department continues 
to work to better understand different methods and geologies that can 
effectively isolate spent nuclear fuel and high-level waste from the 
biosphere for thousands of years into the future.
    We are conducting analyses, as well as lab and field tests, 
including collaborations with international partners, to evaluate three 
main rock types for geologic disposal: crystalline, clay/shale, and 
salt. This information is essential to starting a meaningful dialogue 
with any community, state, or Tribe that is interested in learning 
about hosting a waste disposal facility. As with interim storage 
concepts, communities should have the most up-to-date information on 
waste disposal facility risks and benefits to allow them to make an 
informed decision on whether they wish to play a role in hosting such a 
facility.
    DOE is also pursuing our planned deep borehole field test to 
advance the science and engineering knowledge and determine the 
feasibility of using the deep borehole approach for the possible 
disposal of smaller, DOE managed-waste as an alternative to mined 
geologic repositories.
    Our earlier effort to begin the deep borehole project in January 
met with deep community concern after the contract was awarded, as 
local governments felt they we not sufficiently part of the procurement 
process. While this activity is a non-radioactive science project, the 
initial mistrust led to a general fear and suspicion that the Federal 
Government would force the community to accept waste at some point in 
the future. We recognized that a ``reset'' was in order to form the 
bonds of partnership from the onset and to ensure any community, state, 
or Tribe who played a role in the field test would be an important and 
valued partner.
    As a result, the Department issued a new solicitation in August of 
this year that now includes a phased approach and allows for making 
more than one award. This will allow the best quality proposal to 
continue through community outreach and support and permitting approval 
before the more technically challenging design, testing, and drilling 
phases are started by the most promising contractor team. The results 
and data from this project, if the borehole disposal concept is proven 
feasible, will be essential to inform a yet-to-be-determined, future 
community on what it would take to host such a waste facility.
    This improved approach is well underway, and we have recently 
received Letters of Intent to Submit Proposals that indicate there is 
continued strong interest. Full proposals are due October 21st with 
plans to select one or more of those applicants early in 2017.
Defense Waste Repository
    Consistent with the March 2015 Presidential determination that a 
defense-only repository is required, DOE is also developing plans for a 
defense waste repository. As I laid out in March of 2015, there are 
many advantages to pursuing defense and civilian waste on separate, 
parallel paths.
    Unlike commercial spent fuel, which has an inventory that continues 
to grow, the United States is no longer generating defense high-level 
waste associated with weapons production, and the inventory is 
essentially finite and known. Some defense waste is also less 
radioactive, cooler, and easier to handle than commercial spent fuel, 
and a defense repository could therefore have a simpler design and 
present fewer licensing and transportation challenges. In addition, 
defense high-level waste streams are heterogeneous, existing in many 
different waste forms, which could allow for different disposal 
pathways. A majority of the inventory of defense high-level waste has 
been or will be vitrified, which means that it could be disposed in a 
separate repository with a simpler design.
    A defense high-level waste repository could be selected, licensed, 
and built sooner than if it were disposed of in a common repository 
with civilian waste. This could potentially reduce ongoing storage, 
treatment, and management costs for defense waste currently stored at 
DOE facilities. Finally, successful development of a defense-waste-only 
repository could play an important role in a broader nuclear waste 
strategy by providing important experience in the design, siting, 
licensing, and development of the facility that could be applied to the 
development of a future repository for commercial spent fuel.
    A repository for disposal of defense high-level waste allows 
greater flexibility in the selection of a site--and greater flexibility 
can help to keep costs down. Over the last year and a half, we have 
begun early planning to identify various activities that need to be 
performed to evaluate and design a separate repository for defense 
waste. Although these plans are preliminary, they begin to describe the 
different components--including technical, regulatory, risk management, 
cost and schedule considerations--that must come together to build a 
viable program, all within the framework of a consent-based siting 
process.
Fiscal year 2017 Budget to Continue Progress on Nuclear Waste Strategy
    Overall, our budget proposes $76.3 million for integrated waste 
management system activities, a $53.8 million increase from fiscal year 
2016, to work towards waste storage and disposal solutions, in addition 
to $74.3 million for Used Nuclear Fuel Disposition R&D, to make 
progress on the needed research for transportation, storage and 
disposal. This budget will carry forward our consent-based siting, 
consolidated interim storage, and disposal activities in fiscal 2017 to 
move us toward a solution for managing the Nation's nuclear waste and 
avoid leaving the burden to future generations.
                               conclusion
    In conclusion, I appreciate the opportunity to discuss how nuclear 
energy is a vital component of the U.S. clean energy strategy. The 
Administration looks forward to working with the Subcommittee and other 
Members of Congress to ensure that our Nation can continue to benefit 
from the significant contributions of nuclear power to our energy needs 
and efforts to mitigate climate change.
    The Department of Energy's programs continue to push to achieve 
these goals by advancing reactor technologies, developing used fuel 
management technologies and approaches, and supporting a world-class 
nuclear energy research infrastructure.
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Subcommittee, thank you for inviting me to discuss this important topic 
and the work that Department is currently doing. I will be happy to 
answer any questions you may have.

    Senator Alexander. Thanks, Mr. Secretary.
    We'll now go to a round of 5-minute questions.

                      THE FUTURE OF NUCLEAR POWER

    Mr. Secretary, you--as you know, I've been critical of the 
Administration's, what I believe to be, obsession with giant 
wind turbines and the continued subsidy of them. But, I would 
be--I want to compliment you, and your predecessor, too, for 
continuing to be an advocate for the importance of nuclear 
power as a part of our energy future. And if it's true that, 
within 20 years--2038--48 reactors will be 60 years old, 
representing 40 percent of the nuclear generating capacity in 
the United States, we could lose half our reactors if the 
existing reactors can't be extended from 60 to 80 years, and 
these reactors close.
    Now, if nuclear reactors produce 60 percent of our carbon-
free emissions, and we lose 40 percent of that, it's a 
significant blow to the effort to reduce carbon emissions. 
Don't you see a real disconnect in the public discussion 
between those who see the urgency of climate change but who 
don't see nuclear as an important part of the solution?
    Secretary Moniz. Well, again, it certainly is a fact that 
nuclear power has been our largest carbon-free source. And I 
certainly think that having a strong, robust nuclear energy 
sector will be an important part of a highly decarbonized 
electricity sector by mid-century. So yes, I think it's very, 
very important.
    Secondly, I agree with you, by the way, that--well, it's a 
question of arithmetic, basically--with 60 years lifetime, the 
major wave of retirement starts just around 2030, and I would 
use that to suggest that, when you look at the planning times 
for utilities, for investors, for large capital outlays, that 
means that we don't have a lot of time to have both the 
technology base, but also the kind of clear signals, in terms 
of support for nuclear power, resolving the nuclear waste 
issues, so that, in these next 5 years or so, those capital 
planning activities can really weave nuclear energy into that 
planning.

                         NUCLEAR WASTE STORAGE

    Senator Alexander. You were a member of the President's 
Blue Ribbon Commission on America's Nuclear Future, and you've 
testified about that. Let me go to Senator Feinstein's comments 
and some of your testimony.
    You said that for consolidated storage to be of the 
greatest value to the waste management system, the current 
rigid legislative restriction that prevents a storage facility 
developed under the Nuclear Waste Policy Act from operating 
significantly earlier than a repository should be eliminated.
    Now, the way I read those remarks and other comments you've 
made is this, that you support the idea that we should move on 
several tracks at the same time. And if one gets stalled, that 
doesn't mean we should stop the other two or three tracks. We 
should just keep pushing ahead and hope that one or more of 
those tracks succeeds. Am I correct about that?
    Secretary Moniz. Absolutely. And, in fact, the interim 
storage facility, in my view--facilities--always should have 
been part of an integrated waste management system, providing 
much greater flexibility and allowing us, again, also to avoid 
the liability that we have. And we're paying billions of 
dollars already by not moving spent fuel.
    Senator Alexander. Well, Senator Feinstein and I have been 
working for 5 years on this, and we were doing a pretty good 
job of reconciling Senators who have fundamentally different 
points of view on nuclear power in some ways, but not on 
nuclear storage, not on the need for, the solution to it. And I 
thought it was a particularly boneheaded move by the nuclear 
industry to kind of jerk the rug out from under that effort by 
moving away from the idea that, if we have a chance to go for a 
short-term repository or a long-term repository or a private 
storage option or a defense option or Yucca Mountain, that we 
ought to push on all of those paths.
    At present, Senator Feinstein and I have a different 
opinion on Yucca Mountain, but that doesn't keep us from 
agreeing that we should push ahead with something. And just 
because we're stalled on one aspect of storage, I think people 
who believe that if we stop one, we should stop all--are as 
misinformed, I think, as those who believe that climate change 
is urgent, but we don't need nuclear power to help solve the 
problem.
    Senator----
    Secretary Moniz. May I----
    Senator Alexander. Yes, sir.
    Secretary Moniz [continuing]. Just comment on that? That I 
certainly agree with you. I would observe that, in particular, 
for the utilities operating nuclear power plants, if you look 
at their specific interests, the interest is to have the fuel 
moved away, whether it's to a storage facility, a repository 
immediately, or not. So, I think that this statement that we 
need to be sending the signals very soon about how we're going 
to meet the zero carbon generation in the 2030-and-beyond 
period includes this issue of providing the signal that, yes, 
you build a nuclear power plant, the government will move the 
spent fuel away, whether it's to a private or a public----
    Senator Alexander. We have significant bipartisan support 
in the Senate for moving on several tracks at the same time and 
with the hope that sometime that one or more of those will get 
there first.
    Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    And I think you said it like it is.
    Mr. Secretary, I'd like to call your attention page 11. 
There are two paragraphs I wanted to speak to you about. But, 
you know, it----
    Secretary Moniz. Excuse me, Senator Feinstein. Of my 
testimony?
    Senator Feinstein. Of your testimony.
    Secretary Moniz. Yes. Okay.
    Senator Feinstein. The consolidated interim storage part of 
it. To me, this is the key. You know, I think Southern 
California Edison has in the vicinity of 3300 rods in spent-
fuel pools right at the facility, and no place to put them. And 
so, they sit there and--they've got 6 million people right 
around them. And they've had the same--they have big security. 
But, that isn't the answer. The answer is getting the stuff 
secured.
    You state what interim storage would encompass through the 
consent-based process. And there's no question that it has to 
be consent-based, and there's no question that I think consent-
based will work, because there are places and States that would 
like to participate in this.
    The question comes, Do you have the ability just to do it? 
Your final paragraph here, which, ``DOE is currently in the 
process of developing generic design safety analyses for 
interim storage concepts for two primary reasons, to inform 
potential host communities about how such a facility may fit 
into their future, in terms of risks and benefits; the second 
is to develop the necessary regulatory strategies for moving 
the spent fuel from existing facilities.''
    Now, this kind of endorses what the Chairman and I were 
just saying. The question that I have is, Can you just go ahead 
with it, or do you need legislation?
    Secretary Moniz. So, certainly, again, my understanding is 
that, for a government-operated facility, we would need 
congressional authorization to do that. However, our general 
counsel advises that, for a private storage facility, we have 
the authority, although it's not explicitly spelled out in 
statute, but language that has been put forward, I think, 
acknowledges that authority. I think that acknowledging that 
authority from the Congress is very important for confidence, I 
think, also of the applicant. So I think we're on the same page 
on that.
    Senator Feinstein. Okay. So, would you be prepared to move 
ahead on your own?
    Secretary Moniz. Well, I think if the Congress is 
supporting us to do that, yes. As I said, we are in a process 
of gathering information. We could move forward. There is some 
language right now about moving forward on setting up the 
contracting bases, which we could certainly do with the 
funding--$10 million, I think, is proposed. And then, if we 
wanted to try to move that rapidly on the timescale that some 
of the interested parties are talking about, in fact, we would 
want to start doing some additional activity, particularly on 
the transportation of the spent-fuel side. That would require 
some additional funds. But, there's a lot that we could do to 
move forward.
    Senator Feinstein. Let me ask you. I think we're all agreed 
it should be consent-based. I mean, the problem with Yucca is, 
nobody in Nevada wants to move ahead with it. That's a problem. 
What would you advise? That you go ahead and develop the 
consent? Obviously, it's----
    Secretary Moniz. Yes. Well, so we want to go through this 
process. We want to provide--we want to be able to provide some 
support for interested communities so that they can work 
through the issues, make sure there's a lot of public 
confidence in this. Now, of course--again, there's public and 
there's private, both. On the private side, in a certain sense, 
going through the application to the NRC, which one group has 
already initiated that process, that is, in some sense, already 
suggesting a certain level of consent there. But, I think it's 
very important that we learn the lessons, not only of the 
past--1980s--but actually some also more recent events in which 
we've got to do the upfront work, in terms of working with the 
communities and the States and making sure we're all aligned in 
the interest. And certainly, I would be prepared to accelerate 
that process even more than we are currently doing.
    Senator Feinstein. Yes. Is that process set to go, pretty 
much, now?
    Secretary Moniz. In terms of--yes--in terms of getting--for 
example, the consent-based meeting--the summary meeting of that 
will be tomorrow, as I mentioned, following eight regional 
meetings. Then we will consolidate the input from the meetings 
tomorrow into a consent-based siting plan that we would like to 
issue later this year.
    Senator Feinstein. Okay. And the consent would be the 
Governor of the State, how would that part work?
    Secretary Moniz. Well, I think there's no----
    Senator Feinstein. Because that's important. That's where 
it all happens.
    Secretary Moniz. Sure, there's no specific rule. But, if 
they go back to the Blue Ribbon Commission, it was pointed out 
that, fundamentally, at the community, at the State, and at the 
Federal level, we have to be aligned to not get bad surprises 
later on.
    Senator Feinstein. Thank you.
    Secretary Moniz. Yes.
    Senator Feinstein. Good work.
    Secretary Moniz. Yes.
    Senator Feinstein. Thank you, Mr. Chair.
    Senator Alexander. Senator Udall.

                    REGIONAL INNOVATION PARTNERSHIPS

    Senator Udall. Thank you, Mr. Chairman.
    Thank you, Secretary Moniz, for being here, and for your 
excellent testimony on all ends of the nuclear issue.
    I wanted to talk a little bit about the visit you had to 
New Mexico. Senator Heinrich and I sent you a letter, I think 
today, expressing thanks for your participation in the 
Southwest Regional Energy Innovation Forum hosted by the 
University of New Mexico this July. The successful forum 
brought together as you know, 140 university, National Lab, 
government, and industry participants to discuss the critical 
issue of clean energy technologies at the regional level and at 
the national level. And nuclear energy played a key role in 
those discussions.
    I'd like to reiterate our strong desire to see New Mexico, 
with our labs and universities, play a key role in the 
Department of Energy's Mission Innovation Initiative. New 
Mexico can be a hub for the Four Corners region to explore 
revolutionary materials necessary to transform energy 
technologies in markets, not only in nuclear energy, but 
photovoltaics, fuel cells, novel materials essential for clean 
energy growth. Lots going on in the Southwest. And I strongly 
believe that New Mexico can bring together cutting-edge 
industries, university researchers, local and State 
governments, and national energy labs to address regional and 
national energy challenges.
    Can you talk about the progress we're making towards 
regional innovation centers and how New Mexico can play a 
greater role in mission innovation in the future, given DOE's 
assets in the State?
    Secretary Moniz. Well, thank you, Senator Udall. And thank 
you for coming to Lab Day yesterday, as well.
    Senator Udall. Thank you.
    Secretary Moniz. First of all, the regional meeting in New 
Mexico, in Albuquerque, was really terrific. It had a focus 
completely on materials, for hydrogen, for batteries, for 
nuclear. So, that was terrific.
    We just had our 13th regional meeting, on Monday, in 
Morgantown. We've now covered just about all parts of the 
country. The enthusiasm for the regional innovation 
partnerships has been absolutely uniform. I have to say, if one 
set of institutions has been particularly excited, it's been 
our research universities. Like UNM, in the case of hosting 
that meeting.
    So, we are very, very eager to move forward with this. We 
did make a proposal in the budget. We hope that will be 
reconsidered in the final discussions of the budget, because 
this would be a new start. So, I think we have to wait for some 
form of bus at the end of the CR. We are putting together 
summary documents of what we learned in these 13 meetings, 
which included Tennessee and California and New Mexico, all 
three of you. We would like to then, now, solicit ideas about 
how one promotes regional innovation. Because I think this idea 
has really got a lot of very, very positive attention. That was 
one of 13 examples of that.
    Senator Udall. Yes. No, thank you for----
    Secretary Moniz. And New Mexico--that part of the 
questions--again, I--obviously, I can't prejudge the 
competition and----
    Senator Udall. Right.
    Secretary Moniz [continuing]. How people would organize 
nonprofits. But, certainly there's no question, New Mexico has, 
obviously, some major innovation assets--universities, labs--
and could very well organize one of those teams.
    Senator Udall. Yes. Great. Thank you very much.

                      WASTE ISOLATION PILOT PLANT

    And let me take just a minute to stress that we're eager to 
see that the Waste Isolation Plant be reopened, and that be 
done with worker and community safety as a top priority. And I 
know that you've talked about that many times.
    On that topic, I want to ensure that inspections by the 
Mine Safety and Health Administration will continue at WIPP at 
least four times per year, as required by law, and that all 
issues are remedied as quickly as possible. Unfortunately, 
those inspections had fallen off, as you know, at WIPP prior to 
the accident that caused----
    Secretary Moniz. Right.
    Senator Udall [continuing]. The radiation release. Will you 
give DOE's commitment on this to continue----
    Secretary Moniz. Absolutely. And, in fact, frankly, I think 
we will be reopening with, certainly, I would say, upgraded 
mine operations. There was a real issue, in terms of the 
bolting, for example. That's been gone after now aggressively. 
And, frankly, we are helped now by getting some more air down 
below, which is going to allow greater work effort down there 
to complete----for example, the mine inspector particularly 
focused on those roof bolting issues, and those have been--the 
pace of addressing that has been picked up dramatically.
    Senator Udall. Yes.

               CLEANUP AT LOS ALAMOS NATIONAL LABORATORY

    Mr. Chairman, I only have one more quick question. I know 
I'm running out of time here. Is that okay?
    On the topic of nuclear waste cleanup, I believe it's 
important for the Department of Energy to prepare a lifecycle 
cost estimate cleanup at Los Alamos National Laboratory. Each 
year, we need to make a case to our Chairman and Ranking Member 
on why we believe Los Alamos needs funds for cleanup. And I 
believe such an estimate would be helpful to demonstrate where 
those funds are needed and can be used. Can I get your 
commitment to work with us on that?
    Secretary Moniz. Yes, absolutely, Senator. And we're well 
along on that. We have a preliminary draft that, in fact, was 
shared with some of the local citizens, but--it's a preliminary 
draft, so we still have a process to go through. But, we hope 
to have that, certainly this year.
    Senator Udall. Great. Thank you very much.
    Secretary Moniz. And we'll work with you on that.
    Senator Udall. Yes. Thank you very much.
    Thank you, Mr. Chairman.

             SAFELY EXTENDING LICENSES FROM 60 TO 80 YEARS

    Senator Alexander. We'll have one more round of questions 
for the Secretary, if he can spare that time, and then we'll go 
to our next panel.
    Mr. Secretary, I think I'm about right in this. It--a new 
nuclear reactor might cost $10- or $12 billion and might take 8 
years or so to build. I guess it would depend on factors. 
Nobody's quite sure. But, they're very expensive and large 
projects to do correctly. And while we're waiting to see 
whether the California experiment in renewable energy takes it 
down the road of Germany, or not, and while we're waiting to 
see whether these 50 companies who are working in 
entrepreneurial efforts in advanced reactors and other things, 
over the next 20 years we could lose half of our existing 
reactors if their licenses can't be extended from 60 to 80 
years. Now, in practical terms, that means we can get another 
20 years of cheaper, reliable, carbon-free electricity that 
would represent about a quarter, from these reactors that I'm 
talking about, of all of our carbon-free energy.
    What are you doing--you've mentioned some things, but what 
are the prospects for safely extending the licenses of, say, 
half of the 99 reactors we have today for another 20 years, and 
giving us that 20 years of cheaper, reliable, carbon-free 
electricity?
    Secretary Moniz. Well, clearly, I think I cannot judge the 
outcome of the NRC evaluations, but let me say, as was 
mentioned earlier, we are certainly supporting work to support 
those applications--materials work, controls issues, et cetera. 
And, by the way, I think CASL can be a big help in this. I 
should add perhaps, as well, that, since I had the pleasure of 
being the chairman of the CASL board for its first 2 years, 
that, right from the beginning, another important issue, which 
is quite relevant to this, is that, right from the beginning, 
CASL leadership engaged the NRC to make sure the NRC could 
understand these tool developments as they were happening so 
that they could be integrated into their licensing. And when it 
comes to the 80 years, I think that's going to be very, very 
important.
    So, we're working that. We work with NRC also directly, in 
terms of the various criteria, whether it's for the 20-year 
extension or for things like advanced reactors, how to develop 
the criteria for advanced reactor licensing. So, we're pushing 
on that. But, I think now some companies have come forward. 
They're planning to go ahead with the additional 20-year 
application with the NRC, and I think that's going to be a 
process that we will support as best we can.
    Senator Alexander. Well, for those companies and for the 
country, I think--speaking as one Senator, I want to do 
whatever I can to create an environment where a utility can 
make that decision, if it's possible to extend the license and 
do it safely.
    Secretary Moniz. Safely, right.
    Senator Alexander. I think it's in the best interests----
    Secretary Moniz. Right.
    Senator Alexander [continuing]. Of the country, for many, 
many reasons.

                       ADVANCED NUCLEAR REACTORS

    My last question is--has to do with those 50 entrepreneurs 
you talked about. You released a draft Vision for Advanced 
Nuclear Power. Do you support the goal stated in one of your 
reports to have two advanced reactors licensed by the early 
2030s? And why do you suppose there's this flurry of 
entrepreneurial activity at a time when there are clearly 
obstacles to building new reactors? The low cost of natural 
gas, excessive regulation, the negative pricing from wind 
power--despite that, you see all this entrepreneurial activity. 
What's the source of that?
    Secretary Moniz. Well I'm not sure I know. But, it 
certainly is extremely interesting. I think it is driven, to a 
large extent, by the expectation as evolves from any serious 
scenario about meeting our climate goals, that the electricity 
sector is the first sector to, essentially, totally 
decarbonize. And in that future, then--and I am very bullish, 
as you know, on both wind and solar. But, they are variable 
technologies. Now, advances in storage--lower-cost storage, 
would be very important. But, I still have to say that I find, 
you know, the nuclear power zero-carbon baseload possibilities 
to be very important.
    In addition, some of those entrepreneurs are looking at 
their--the technologies, not just for electricity, but for 
other applications, as well. And some of those technologies 
are, in fact, potentially well suited to producing low--zero-
carbon heat, for example, to do hybrid technologies with 
renewables, a program that actually we are working on, as well, 
right now.
    So, I think they're seeing a lot of possibilities and 
seeing new ideas. The fact is, you know, we have not, I think, 
had--there was a long period of, I would say, not a terrible 
amount of innovation in this arena. Obviously, given the long 
hiatus in building plants, one can understand that. But, I 
think the confluence of the low-carbon future, the importance 
of that, specifically in the power sector, and the fact that so 
many new tools and technologies are available to apply in this 
space that haven't been applied for a long time, that I think 
the entrepreneurial community is seeing that coming together.
    We do have a challenge. As I said earlier, we feel a focus 
area for us is to try to build up the accessibility to our 
energy infrastructure--to our nuclear infrastructure for these 
companies. But, I have to concede that there are some areas in 
which we just don't have the infrastructure, in fact, and we 
know that some of those entrepreneurs are going to other 
countries to find, for example, fast neutron spectrum.
    Senator Alexander. Thank you.

                             ENERGY STORAGE

    As to the storage, I hope we do make great advances in 
storage. My suspicion is that the major source of electricity 
that will benefit from improved storage will be nuclear, 
because of the size of the nuclear generating capacity and you 
can't turn a nuclear reactor up and down, and it produces a lot 
of electricity at night that's not needed. So, my guess would 
be that if we improve our storage capacities, that our reactors 
may be able to take more advantage of that than any other form 
of electricity.
    Secretary Moniz. It depends on the mix. And, obviously, in 
France, for example, where they had so much nuclear--75 
percent--they had to have a third or 40 percent of their fleet 
with ramping capability, in fact.
    Senator Alexander. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.

                       REACTOR LICENSE EXTENSIONS

    I believe we have 16 new nuclear plants, so far, that have 
shut down, and another 7 coming in the next few years. That's 
for a variety of reasons. Some, like plants in Illinois and 
Wisconsin, can't compete with natural gas. Others, like Vermont 
Yankee, are closing after sustained local opposition. Still 
others have had equipment or structural issues, like San Onofre 
and Crystal River. Given these private-sector, market-driven 
decisions, why would DOE invest by extending operating licenses 
from 60 to 80 years?
    Secretary Moniz. Well, of course, for those plants, unless 
there were dramatic retrofits needed, a lot of it's capital 
sunk costs. And capital costs, of course, drive it, so they can 
have relatively low, at least, marginal operating costs.
    Secondly, for the long term, there's no doubt that the 
shale gas revolution has been a tremendous economic boom--boon 
to the country, but also an environmental one, from the point 
of view of--it accounts for about 60 percent of our lower 
CO<INF>2</INF> emissions by substituting for coal so 
dramatically. However, as I said earlier, if we look forward to 
mid-century and beyond, we're talking about really low carbon 
in the electricity sector, like decarbonized, and then natural 
gas will also have emissions. As long as it's substituting for 
coal, it lowers emissions; but, if it substitutes for nuclear, 
it's raising emissions. And so, I think that if you're a 
utility executive and you're looking forward to the low-carbon 
future, the natural gas production still looks very, very 
strong. And EIA (Energy Information Administration) still 
projects very modest prices for natural gas for a long time. 
But, there is a vulnerability, a risk to fuel costs, which 
traditionally was the issue with natural gas. So, in terms of a 
portfolio and going to zero carbon, that's why we would see 
nuclear as an important contributor along with renewables.
    Senator Feinstein. Is it prudent, with all of the stresses 
on plant and materials----
    Secretary Moniz. Well, that's what I say. I mean, that----
    Senator Feinstein [continuing]. To go from 60 to 80 years?
    Secretary Moniz. That's what I'm saying, where I'm not 
going to judge the outcome.
    Senator Feinstein. Okay.
    Secretary Moniz. So, all we are doing is, we are supporting 
some of the research, for example, that will be needed to make 
that judgment at the NRC--materials--the materials issues, for 
example, with time, with more radiation flux and the like. So--
yes, so--no, so I don't judge the result. But, I do think it's 
our responsibility to develop the technology and the tools to 
help that informed decision.

                             FUSION ENERGY

    Senator Feinstein. Could you just talk a little bit about 
fusion energy? ITER--as you know, we had concerns about funding 
ITER. And you won one from us, right? So--and small companies 
are making progress with innovative approaches, with burning 
plasmas and other things. Where is ITER? And what is your 
position today, so we can be aware?
    Secretary Moniz. The ITER situation is what we summarized 
in our report to the Congress. Basically, our statement was 
that there's no doubt that the new leadership of ITER--Mr. 
Bigot--has made tremendous strides in pulling together this 
project. But, we also said that there was a long way to go. And 
we put down some, I think, pretty stringent conditions that we 
are going to insist upon being met to make what we felt was 
that the right time for the decision, given what's happened 
with ITER, is probably--I think we said at the end of 2017, to 
influence the next year--fiscal year's budget. So, we're 
probably a year away from really having, I think, the 
information that would come back, administration and Congress, 
to make a decision.
    Senator Feinstein. So, you won't ask for any additional 
money.
    Secretary Moniz. I didn't say that. Well, whoever it is, 
next year--a reminder: Almost all the funding to ITER--in fact, 
by congressional direction, all the funding of last year--was 
to American institutions and companies building equipment for 
ITER. So, it was not like just sending 100-and-some-million 
dollars to Cadarache. The 100-million-dollar scale was for 
building things here. And so, we said, ``Look, we have a 
commitment to, in the international arena, at least to first 
plasma, which is the middle of the next decade.'' Ignition 
would be in the 2030s. So, we said, ``Look, we have a 
responsibility to deliver some equipment that we manufacture to 
first plasma. There's also, however, more work that needs to be 
done''--I give Bigot a lot of credit for what he's done, in 
terms of shaping that up as a project. But, there's still a 
ways to go. And, frankly, the countries have to cooperate in 
making this really go as an integrated project and not as, 
``Well, I'll do my thing here, and you do your thing there.''
    So, that's where we are. And so, we are deeply engaged. I 
think we've brought more discipline to this. And the real time 
to judge this will be just over a year from now.
    Senator Feinstein. Thanks, Mr. Secretary.
    Secretary Moniz. Yes.
    Senator Feinstein. Thanks, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator--Secretary Moniz, thank you for----
    Secretary Moniz. You keep promoting me to----
    Senator Alexander. I know. Well----
    Secretary Moniz [continuing]. To Senator.
    [Laughter.]
    Senator Alexander. Senator Collins, Secretary Moniz is 
about to leave. Would you like to ask questions before he--all 
right.
    Secretary Moniz. We had an interaction earlier today----
    Senator Alexander. Mr. Secretary----
    Secretary Moniz [continuing]. On an offshore wind. Your 
favorite subject.
    [Laughter.]
    Senator Alexander. No, no. We took care of it, Senator 
Collins.
    [Laughter.]
    Senator Alexander. I don't know how many other times you'll 
appear before our subcommittee. Maybe this is the last. But, I 
genuinely appreciate the way you've worked with us in Congress 
from the day you arrived, being accessible and letting us know 
in advance of things, whether we liked those things or not, and 
the fact that you had a lot of experience in the Department 
where you went, and you knew the subject cold--has made you a 
very effective member of the President's Cabinet. So, I thank 
you for that service and look forward to continuing to work 
with you during the rest of the year.
    Secretary Moniz. Thank you very much. And I appreciate the 
opportunity to have worked with you, including on the issues 
that Senator Feinstein described earlier. But, working not only 
in a bipartisan way, but in a nonpartisan way.
    Senator Alexander. Well, we like to work that way.
    We will now excuse Secretary Moniz and invite the witnesses 
for our second panel to be seated at the witness table, and 
then I will introduce them.

                       NONDEPARTMENTAL WITNESSES

    Senator Alexander. Our second panel includes someone very 
familiar to all of us, Senator Judd Gregg, of New Hampshire, a 
flinty individual who served in this body with great 
distinction, watching the budget and working on education and 
healthcare and other matters. We are delighted to see him and 
welcome him back. He is the Leadership Chair of Nuclear 
Matters. We welcome, again, Jay Faison, whom many of us know, 
Founder and CEO of The ClearPath Foundation.
    We have your testimony, and have read it. If you could 
summarize it in 5 minutes or so and give us a chance to have a 
conversation with you, we would appreciate it.
    Senator Gregg, we'll start with you.
STATEMENT OF HON. JUDD GREGG, FORMER U.S. SENATOR FROM 
            NEW HAMPSHIRE
    Mr. Gregg. Well, first off, let me say what a great honor 
it is to be here to address this Senate committee, of which I 
had an opportunity to participate. And obviously, it's a great 
honor to be here with folks that I consider friends. Thank you 
for having me.

                      PREMATURE CLOSURE OF PLANTS

    Actually, so much of what I was going to say has already 
been said, and said better than I could say it, by the 
Chairman, by Senator Whitehouse, by the Secretary. I'm not 
speaking about waste issues, so I haven't necessarily gotten 
into the issues of Senator Feinstein, but, on the issue of 
premature closure of plants, the Chairman has said, Why would 
we do it? The Secretary has said, Why would we do it? And 
Senator Whitehouse has said, Why would we do it? And that's 
what our group is about, asking, Why would we do something like 
that? Because it makes no sense, from the standpoint of policy.
    The Nuclear Matters Coalition essentially takes the 
position that if a plant has useful life, it should not be 
closed, that you shouldn't have premature closure, that there 
are approximately five plants now that have been closed 
prematurely, that still had useful life, that there are eight 
more that are at significant risk of being closed, that still 
have useful life, and then probably another five to ten that 
are likely to fall into that category.
    As has been suggested here rather effectively and 
forthrightly, obviously nuclear power plays a very positive 
role in our electrical production in this country. It is 
noncarbon-based. Twenty percent of the baseload is nuclear, as 
was mentioned, and 60 percent of the noncarbon-based energy in 
this country is nuclear. Every time you close one of these 
plants, it's the practical effect of putting a million cars on 
the road. And so, it makes no sense, from the standpoint of 
environmental protection, especially.
    It also makes no sense from the standpoint of reliability. 
Those of us who suffered through the polar vortex of 2014 know 
that we came very close to a major blackout in the Northeast 
and the Midwest, which would have had devastating economic 
effect. The only thing that saved us from that was our nuclear 
plants, because they function 24/7, and they are not affected 
by that type of weather event.
    In addition, of course, nuclear brings big-time jobs and 
economic benefit to the communities in which it's located, and 
it completes the diversity picture of our energy supply. As we 
move towards gas replacing coal, as was mentioned by the 
Secretary, we don't want to get in the position of all the eggs 
in one basket. Nuclear being 20 percent of our baseload really 
is an important part of making sure that we don't have an all-
eggs-in-one-basket approach.
    These plants that are being closed prematurely are being 
closed for economic reasons primarily, and it's because nuclear 
is at a significant disadvantage in the present culture of 
structured markets. Essentially, these markets end up with spot 
pricing of energy. And in a spot-pricing situation, nuclear 
can't compete as effectively as the other types of energy, 
especially gas, because the capital costs of building the plant 
are not really factored in to the pricing of the product or, 
alternatively, it's competing against energy which is highly 
subsidized. And nuclear isn't highly subsidized.
    How do you address this? Well, our view is, you address it, 
first, by making people aware of how important nuclear is, and, 
second, by giving nuclear some sort of support in the area of 
recognizing that it is carbon-free and that it is reliable and 
it is part of the diversity mix. This probably is going to be 
done on a State-by-State basis. It's being done in New York 
now. It's being moved forward, hopefully, in Illinois, as 
different States realize the importance of their nuclear mix in 
maintaining and reducing their carbon, and in maintaining their 
reliability.
    So, that's our theme. We are an advocacy group, in the 
sense that we've been out proselytizing this approach across 
the country. We aren't involved in the other areas of nuclear 
issues directly, other than to be very supportive of nuclear 
power, as I personally am.
    I thank the Chairman for his time, and the Ranking Member 
for her time, and obviously, the Senator from Maine.
    [The statement follows:]
                 Prepared Statement of Hon. Judd Gregg
    Good afternoon, Chairman Alexander, Ranking Member Feinstein and 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you as the Chairman of Nuclear Matters to talk about the role 
nuclear energy will play in our clean energy future.
    Nuclear Matters is a coalition of organizations that recognizes the 
value of America's nuclear energy plants, educates the public on the 
clear benefits of nuclear energy, and explores possible policy 
solutions to preserve this essential part of the Nation's energy 
infrastructure.
    Our Nation's nuclear power plants are vital national assets that 
provide reliable, carbon-free electricity to tens of millions of 
households and businesses around the country.
    Despite their value, a combination of factors--including low 
natural gas prices and market rules that fail to recognize this value 
and subsidies that depress electricity prices--have caused otherwise 
exemplary performing nuclear plants to close and put the future of 
others in jeopardy.
    The implications of these closures--both today and in the future--
will have staggering impacts on the country's economy and its goals to 
decarbonize the electricity sector.
    With Watts Bar II coming online in Tennessee, the United States has 
nearly 100 nuclear power plants, which generate 20 percent of our 
electricity and 62 percent of the Nation's carbon-free electricity. 
Nuclear plants are the Nation's most reliable source of electricity, 
operating nonstop for 18 to 24 months before they have to refuel.
    Nuclear energy has a distinct set of attributes, generating vast 
amounts of electricity, emission-free, around the clock. No other 
electricity source can match that. In a carbon-constrained world, with 
an economy and a way of life that depend on reliable electricity, we 
cannot afford to take nuclear energy for granted.
    For most parts of the country, meeting state and national carbon 
reduction goals, including the Environmental Protection Agency's Clean 
Power Plan, will be compromised without existing nuclear power plants. 
Bear in mind that the carbon-reduction targets for the Clean Power Plan 
reflect an energy supply that includes a large contribution of 
electricity from carbon-free nuclear power plants. When nuclear plants 
shut down, most of the baseload generation that fills the gap usually 
comes from fossil-fueled electricity sources, with a resultant rise in 
carbon emissions. This was a measurable result in the New England 
region after the Vermont Yankee nuclear plant closed in 2014.
    Renewables like wind and solar represent a growing share of our 
electricity supply, and it is vital that we continue to develop them. 
However, these sources are still a small fraction of our total 
generation and renewables are not equally viable in all parts of the 
country. States need the flexibility to keep existing nuclear plants 
online.
    In 2015, U.S. nuclear power plants avoided 564 million metric tons 
of carbon dioxide. Without the 99 nuclear power plants that operate in 
30 states, carbon emissions from the U.S. electric sector would be 
approximately 25 percent higher. After Vermont Yankee closed carbon 
emissions in New England increased by almost 1.5 million tons. That's a 
5 percent increase in emissions at a time when we desperately need to 
be going in the other direction.
    In contrast, the Clean Energy Standard (CES) that New York recently 
approved assigns a value to nuclear energy facilities based on their 
clean electricity output. The new policy could keep at-risk nuclear 
power plants operating, help the state meet its emission reduction 
goals and keep electricity rates predictable. Already, the prospect of 
beneficial changes resulting from the CES is helping to facilitate the 
sale of one nuclear plant that was under the threat of closure. I hope 
that policymakers from around the country are paying attention to New 
York's example.
    The clean-air benefits of nuclear energy ought to be obvious. Their 
reliability ensures that we can maintain safe temperatures in our homes 
in the worst heat waves or the coldest winters. Their fuel doesn't 
freeze. It doesn't have to be delivered ``just in time'' as it is
    used. They don't stop generating electricity when the sun doesn't 
shine or the wind doesn't blow.
    Nuclear energy also provides substantial economic benefits. At the 
national level, they are significant. Each year, the average nuclear 
plant generates approximately $470 million in economic output or value. 
This includes more than $40 million in total labor income. These 
figures include both direct output and secondary effects. The direct 
output reflects the plant's annual electricity sales--approximately 
$453 million.
    At the local level, nuclear plants are often the economic anchors 
of their community employing 500-700 workers per plant. Shutting down 
safe, reliable nuclear plants because the markets haven't found a way 
to compensate their value unfortunately means that hundreds of people 
lose good-paying jobs, while local businesses lose customers. The 
closure of Vermont Yankee is a loss of 600 highly skilled jobs.
    The average nuclear plant pays about $16 million in state and local 
taxes annually. These tax dollars benefit schools, roads, and other 
state and local infrastructure. The average nuclear plant also pays 
Federal taxes of $67 million annually.
    The U.S. Department of Energy projects that demand for electricity 
in the United States will rise by 22 percent by 2040. That means our 
Nation will need new sources to provide electricity for our homes and 
continued economic growth.
    As Congress considers its policies toward nuclear energy we 
encourage this committee and your colleagues to consider policies that 
recognize the benefits that nuclear energy provides and support 
regulations that streamline the regulatory process of permitting and 
license renewal, while still maintaining rigorous oversight.
    On behalf of Nuclear Matters, I want to thank this committee for 
giving consideration to these important issues facing the industry.
    We look forward to supporting Congress in its efforts to maintain 
nuclear as a valuable energy source for hard working Americans well 
into the future.

    Senator Alexander: Thank you, Senator Gregg.
    Mr. Faison.
STATEMENT OF JAY FAISON, FOUNDER AND CEO, THE CLEARPATH 
            FOUNDATION
    Mr. Faison. First, I'd like to thank the Chairman, Ranking 
Member, and members of the committee for the chance to testify.
    I come to this discussion as an entrepreneur, turned 
philanthropist, turned energy policy advocate. At ClearPath, we 
focus on accelerating conservative clean energy. We don't make 
any money at this, and so I hope I can contribute an 
independent perspective on nuclear energy policy.

                     ADVANCED NUCLEAR ENERGY DESIGN

    Fifty years ago, when America was the major innovator in 
nuclear technology, we demonstrated many nuclear concepts--
concepts beyond the light water reactors we have today. In 
recent years, American nuclear entrepreneurs have dusted off 
these alternative technologies and are refining them, designing 
reactors that most estimate will cost significantly less than 
the current reactors. There are now 40 to 50 companies working 
on advanced nuclear designs across America. These concepts have 
attributes that can provide services beyond those available 
from today's large light water reactors, including: many can be 
built in a factory to reduce construction costs; they can ramp 
up and down quickly, essential for a modern energy system; most 
of the concepts are walkaway safe, with passive safety features 
automatically halting a nuclear reaction if a malfunction 
occurs; some can recycle used fuel and therefore, potentially 
help deal with our nuclear waste problem.
    While the prospect for advanced reactors is bright, our 
nuclear industry faces challenges abroad, where Russia and 
China are moving quickly to develop their own designs and 
export technology around the world. Domestically, our fleet is 
aging. A number of them may retire prematurely in the coming 
years, in part due to the market distortions caused by highly 
subsidized wind generation. Additionally, since the 1970s, only 
five new reactor construction projects have been started in the 
U.S., all of them within the last 5 years. This drastically 
reduces our ability to deliver new projects affordably, given 
the complexity of building a large new nuclear plant.

                            ELECTRICITY MIX

    Despite these challenges, I believe that nuclear should be 
between 30 and 40 percent of our electricity mix if we're to 
maintain affordability and reliability while reducing 
emissions. 2040 is an aggressive, but doable, target for this 
goal. Doing so would require dozens of new reactors to be built 
to replace some of our aging light water reactors. Before those 
commercial projects, multiple projects for advanced reactors 
will need to be carried out in the 2020s to prove feasibility 
and economics for these technologies. Federal policy should 
embrace this goal to provide the support necessary to achieve 
it.
    Given the large regulatory hurdles and the high initial 
cost for each technology, government can contribute in four 
areas:

                         REGULATORY ENVIRONMENT

    First, we need a rational regulatory environment for 
advanced nuclear. Recent bills in the Senate and the House are 
good first steps, but need to be accompanied by the NRC aiding 
advancement of R&D in improved technologies.

                            TECHNOLOGY GOALS

    Second, and building on the Secretary's testimony about the 
need for clear signals, DOE needs to work with industry to set 
ambitious technology goals. The DOE performs well when given a 
steady funding source and a target. While recent goals and 
initiatives like the Advanced Reactor Concepts Program are a 
good start, they won't go far enough. For example, one possible 
goal would be for DOE to support the demonstration of at least 
five different advanced reactor technologies by 2026 at $65 to 
$70 a megawatt hour. While ambitious, I believe this is 
achievable.

                       PRIVATE-SECTOR INNOVATION

    Third, the government should work more closely with 
industry by complementing private-sector innovation. DOE and 
the Office of Science and Technology Policy should work closely 
with an advisory board of reactor designers, utilities, and 
other end users to identify research priorities and efficiently 
co-invest public and private capital to accelerate innovation 
efforts. The DOE and NRC should continue recent efforts in the 
spirit of the GAIN Initiative, enabling companies to develop 
their designs, removing regulatory roadblocks, creating and 
maintaining high-quality user facilities while solving these 
fundamental challenges.

                           ELIMINATING SILOS

    Fourth, silos must be eliminated. Appropriators should work 
together with the DOE to consider how the budget can better 
enable crosscutting nuclear initiatives outside the standard 
funding framework. We should stop funding tools and start 
funding outcomes. DOE should be given the flexibility to work 
towards a goal, even when that goal spans multiple offices and 
lab jurisdictions. Oversight should be focused on whether or 
not the DOE is working towards its technology goals while 
recognizing that some ideas will fail.
    In closing, America has an opportunity to continue to lead 
the global market for clean, affordable, reliable advanced 
reactors. Without a more focused government effort, we will be 
unable to sustain our nuclear industry and control nuclear 
proliferation. ClearPath and our advisors are eager to assist 
in realizing this opportunity.
    Thank you.
    [The statement follows:]
                    Prepared Statement of Jay Faison
    I'd like to thank Chairman Alexander, Ranking Member Feinstein, and 
other members of the Subcommittee for this opportunity to testify 
today. This subcommittee has continued to be a staunch supporter of 
nuclear innovation through initiatives such as the Advanced Reactor 
Concepts Program and initiatives for Small Module Reactor (SMR) 
research. I come to this discussion as an entrepreneur-turned-
philanthropist-turned-energy policy advocate. After donating the money 
from the sale of my last company to create ClearPath Foundation, I 
developed a passion for better energy policy, and have been studying it 
with our expert policy team ever since. At ClearPath, we focus on 
accelerating conservative clean energy. We don't make any money at 
this, and so I hope that today I can contribute an independent 
perspective on nuclear energy policy.
    Energy drives everything we do. Our businesses and households 
depend on reliable, affordable energy. And Americans increasingly 
expect cleaner energy sources to reduce environmental risks. However, 
as the saying goes, ``What got us here, won't get us there.``
    We know how critical energy diversity is to reducing the risks of 
price spikes, supply shortages and natural disasters. We are now 
putting pressure on our energy system to modernize, and, while doing 
so, it is important that we maintain the diversity of our energy mix. 
Intermittent renewables such as wind and solar can be good additions to 
our energy supply. But unlike other energy sources, as their system 
penetration increases, costs rise rather than fall due to the burden of 
compensating for their intermittency. Greatly scaling up these 
intermittent resources requires expensive backup sources when the sun 
isn't shining or the wind isn't blowing. Germany has shown what 
happens: it's trying to both close its nuclear plants and dramatically 
increase solar and wind, a plan which has only raised electricity 
prices and increased reliance on inefficient lignite coal.
    Nuclear remains our most reliable clean energy source. It is our 
clean energy workhorse, supplying almost 20 percent of our energy 
supply and more than 60 percent of our clean power. On average, the 
plants operate year-in, year-out at about 90 percent of their 
theoretical maximum (and 95 percent of the time during the extreme 
temperatures of winter and summer)--significantly higher than any other 
source of electricity. Fuel is a relatively small fraction of the cost 
of electricity produced by nuclear plants and is stored onsite. By 
comparison, fuel represents 80-90 percent of the cost of electricity 
from a gas-fired combined cycle plant, and gas supply can be 
interrupted during periods of extreme weather, when gas is diverted to 
homes and businesses.
    A healthy nuclear industry is also vital to our national defense. 
Our preeminence in nuclear science and engineering allows us to lead 
globally on nuclear safety and nuclear weapons non-proliferation. 
Ceding that leadership to other countries is not in our national 
interest and could prove to be dangerous. A robust domestic nuclear 
energy infrastructure and supply chain is vital to maintain global 
leadership.
    However, since the 1980s, only four new reactor construction 
projects have been started in the US, all of them in the last 5 years. 
This drastically reduces our ability to deliver new projects 
affordably, given the complexity of building a large new nuclear power 
plant. The supply chain and experience base for new construction has 
been decimated by years of inactivity.
    This factor, coupled with unusually cheap natural gas, subsidized 
renewables, and a complicated regulatory system make building more 
large light-water nuclear plants a difficult proposition--at best. Like 
all of our infrastructure, our existing fleet is aging. A number of 
them may retire prematurely in the coming years, in part due to the 
market distortions caused by highly subsidized wind generation, 
outdated price controls in the wholesale markets, and the painfully 
slow pace of new transmission build-out. Most of today's reactors will 
operate for at least 60 years. But this decline places our entire 
energy infrastructure and national security at risk and will almost 
certainly result in increased carbon emissions.
    Despite these challenges, I believe that nuclear should be between 
30 and 40 percent of our electricity mix if we are to maintain price 
stability, affordability, and reliability while greatly reducing 
emissions.
    2040 is an aggressive but achievable goal for this level of 
penetration. Doing so requires three categories of actions: (1) support 
our existing fleet of nuclear power plants by removing the distortive, 
non-market barriers and disincentives; (2) reduce bureaucracy to enable 
substantial investment in the construction of new nuclear power plants 
using proven light water technology; and (3) accelerate and remove the 
obstacles to research, development and commercial deployment of a new 
generation of advanced nuclear energy technologies. This testimony 
focuses on that third pillar, aggressively moving forward with advanced 
nuclear energy technologies.
    Increasing the amount of nuclear energy made in America by 2040 
would require dozens of new reactors to be built in the late 2020s and 
30s to replace some of our aging light-water reactors, to meet 
additional demand growth, and to gain market share. The speed and scale 
of this build-up cannot be accomplished with today's technologies: 
Advanced reactors are the answer to increase nuclear penetration and to 
preserve this critical industry. Before committing to those commercial 
projects, industry will need to participate in multiple demonstrations 
of advanced-- mostly non-light water--reactors in the 2020s to prove 
out their feasibility and economics. Federal policy should embrace this 
goal and provide the support necessary to achieve it.
    Forty to fifty years ago, when America was the world's innovator in 
the peaceful use of nuclear technology. We demonstrated many advanced 
nuclear power approaches beyond light water reactors. Recently, 
American nuclear entrepreneurs have dusted off, and begun to refine, 
these alternatives--designing reactors that most estimate will cost 
significantly less than the current leading reactor from Westinghouse. 
There are now 44 companies and organizations working on advanced 
nuclear designs across America.
    These concepts, some many years in the making, have attributes and 
can provide services beyond those available from today's large light-
water reactors, including:
  --Many can be built on an assembly line and delivered to the site, 
        reducing construction costs and delays.
  --Many can ramp up and down quickly, which complements the 
        intermittency of renewables and variations in demand.
  --Many of the concepts have passive safety features automatically 
        halting a nuclear reaction if a malfunction occurs.
  --Many are expected to have far lower operating costs.
  --Many can recycle used fuel, and therefore potentially help deal 
        with our nuclear waste problem.
  --Many operate at low pressure, requiring a fraction of the concrete 
        and steel associated with current pressurized reactors, at 
        tremendous cost-savings.
  --All excite the new generation of engineers desperately needed to 
        replace an aging workforce and breathe life into the industry 
        as a whole.
    Given the extraordinary regulatory and financial hurdles faced by 
the nuclear industry, government can contribute in four areas to enable 
private sector investment:
    First, it must create a rational regulatory environment for 
advanced nuclear.
    The Nuclear Regulatory Commission's (NRC) overly conservative 
regulatory approach could squelch advanced nuclear efforts even before 
they get off the ground. The Commission is focused on traditional 
light-water reactors and is not prepared to oversee new technologies in 
an efficient and effective manner. As a result, some of our nuclear 
entrepreneurs are moving their development and testing overseas to 
countries that are eager to embrace these innovative technologies. We 
chronicled one such promising company, ThorCon, and its decision to 
move offshore to Indonesia. Recent leadership changes in the NRC's 
Office of New Reactors is a major step in the right direction, and we 
applaud this progress. However, reluctance by line reviewers to embrace 
new concepts and technologies could still scuttle entrepreneurial 
efforts. NRC's mission needs to be clarified to explicitly encourage 
advanced reactor licensing.
    Recent legislation in Senate Bill 2795 and House Bill 4979 
represent a step in the right direction by developing a potential 
framework that is staged, risk-informed, and performance based. The 
proposed budget to begin developing this separate regulatory pathway 
inside the NRC is only $5 million. We were pleased to see this money 
make it into the committee's markup earlier this year and hope the 
advanced licensing capacity at NRC continues its growth in the future.
    Second, the government must provide a new framework that works with 
industry to set ambitious technology goals.
    The Department of Energy's (DOE) continued support for SMR 
technology will help lay the groundwork for advanced reactor licensing. 
The DOE's recent draft goal of two advanced reactors licensed by 2030 
as well as the Advanced Reactor Concepts (ARC) program to help achieve 
that goal have started us in this direction. Considering the need to 
demonstrate multiple technology pathways (as some will fail), we can 
surely do better than our current goal. Some advanced reactor 
developers are also planning construction for the mid-2020's, which is 
faster than the current 2030 licensing expectation. While a step in the 
right direction, the $2 million in Gateway for Accelerated Innovation 
in Nuclear (GAIN) vouchers, for private companies to access national 
lab resources, is insufficient to support the technologies beyond the 
ARC programs.
    Any effective goal must be understood by contributors at all 
levels, and used to actively guide and prioritize efforts. The current 
DOE portfolio is aimed at early research--as appropriate--but such 
research should be targeted at commercially relevant problems. The goal 
should be based on price points, time, and performance characteristics. 
It should be broad enough not to automatically exclude technologies, 
but specific enough to act as a forcing mechanism to identify cross-
cutting research priorities, work through licensing issues, and guide 
cost-sharing with industry on new demonstrations.
    For example, one possible goal would be for DOE to provide research 
facilities to enable the demonstration of at least four different 
advanced light water and non-LWR reactor technologies by 2026--a decade 
from now--producing power at $65-70/MWh (or below) for the nth of the 
kind reactor in competitive markets.
    While ambitious, I believe this is achievable. NuScale already has 
an arrangement with Idaho National Lab to deploy an SMR on site--
targeting the early 2020's. The ARC program has begun development of 
two specific technologies with the private sector, both of which would 
need to be accelerated to achieve this goal. It is now a question of 
broadening the technology portfolio, providing funding support, and 
accelerating the timing.
    Third, government should work more closely with industry by 
complementing, not replacing, private sector innovation.
    Advanced nuclear companies have already raised over $1.5 billion in 
private capital, and the government and philanthropy need to leverage--
not replace--that investment. End users of technologies--utilities and 
other potential customers--often make better decisions than government 
alone. DOE and the Office of Science and Technology Policy should 
collaborate closely with an advisory board of reactor designers, 
utilities, and other end-users and innovators to efficiently co-invest 
public and private capital to accelerate innovation efforts. 
Independent guidance from the private sector can identify research, 
commercialization, and deployment priorities with potential to help a 
broad range of technologies, keep that research on track, and result in 
technologies that are more innovative and commercially realistic than 
might be produced with DOE going it alone.
    This private sector board's mandate will include a strategy that 
supports development of more nascent but less mature technologies as 
well as demonstrating more mature technologies. DOE efforts should 
encourage a broad portfolio of technologies at different stages of 
maturity.
    Focused in this way, DOE should see its role as investing in 
enabling tools and capabilities. Most of these tools exist today, but 
DOE should expand access to the private sector.
    For example, advanced reactor companies need a supply and a 
technical understanding of a variety of fuel forms. The current process 
for qualifying new fuels takes 10 to 20 years, which alone could prove 
a nearly insurmountable barrier for most companies. Despite significant 
improvements in analytical capabilities, the fuel qualification process 
has not been simplified for many decades. Providing alternatives, such 
as use of analytical modeling of advanced nuclear fuels, is an area 
where DOE-funded research may prove essential to the rapid development 
of advanced reactors. Better communication on the quality of these 
tools will also enable NRC to leverage them to speed licensing.
    In addition, we should learn from, and not repeat the mistakes of 
FutureGen or Solyndra--both recent examples of the government deciding 
to invest huge amounts of money into technologies with questionable 
commercial prospects. The DOE and NRC should continue recent efforts in 
the spirit of the GAIN initiative, and enable the private sector to 
develop their designs, remove regulatory roadblocks to enhance 
efficiency, create and maintain high-quality user facilities, and solve 
fundamental challenges. Recognizing that technology development 
benefits company profits as well as our energy system, industry cost-
share must be part of the equation.
    Fourth, our government must eliminate the silos that stifle 
progress on innovation.
    Appropriators should work together with the Department to better 
enable crosscutting nuclear initiatives outside of the standard funding 
framework. This is more effective than allotting specific budgets for 
various offices and specific national labs to work on specific 
individual line items.
    We should stop funding tools, and start funding outcomes. DOE 
should be given the flexibility to work towards a goal, even when that 
goal spans multiple office and lab jurisdictions. This level of 
cooperation requires setting an ambitious national goal for advanced 
reactor development. Quantitative goals provide both accountability and 
flexibility. Research isn't locked into programs that are deemed 
ineffective, and price and time targets help select efficient research 
pathways.
    Two potential models for this approach that have generated results 
are the SunShot Initiative and the Joint Bioenergy Institute (JBEI). 
SunShot is a 10 year DOE initiative to reduce the cost of solar 
electricity to $1/watt (.06 cents/KWh) by 2020. Although only 5 years 
in, the initiative is already 70 percent of the way there. SunShot 
works closely with utilities, industry, and universities to conduct its 
work.
    JBEI is a program working across multiple national labs with 
industry to drive cost reductions in biofuels and biopower. JBEI has a 
private sector board of advisors, continuously assesses which 
strategies are working and which are failing, and is about to hit its 
cost target of $2.20/gallon of highly efficient, gasoline-equivalent 
biofuel. While we can't predict whether their technology is the future 
of transportation fuel, their goal-based research model has produced 
results.
    Each of these programs demonstrates that the DOE can work well with 
industry and achieve significant technology improvements when given a 
strong vision and checkpoints along the way. The same could be possible 
in nuclear energy.
    America has an opportunity to continue to lead the global market 
for clean, safe, affordable, reliable, proliferation-resistant advanced 
nuclear reactors. Without a more focused government effort, we will not 
sustain our vital nuclear industry and control nuclear proliferation. 
We do not want these innovative American reactor designs to move 
offshore because of regulatory over conservatism and government 
inertia. ClearPath and our advisors are eager to assist in realizing 
this opportunity and currently have multiple cost benefit projects 
underway to support our positions in great detail. We look forward to 
making these reports publicly available.

    Senator Alexander. Thanks, Mr. Faison.
    We'll have a round of questions.

                            ENERGY SUBSIDIES

    Senator Gregg, you talked about spot pricing. Sometimes we 
talk about negative pricing. I'm going to ask you, since you're 
skilled as an economist in many ways, to explain to us the 
effect subsidies for wind, for example, have on nuclear power 
operation. One example of what's going on is, the subsidy for 
wind is so generous that, in some regulated markets, producers 
can actually give away the power and still make a profit. I 
know that we've got a company coming into Tennessee, and with 
plans to build these massive turbines that are twice as tall as 
our football stadium, destroy the landscape, and do it in an 
area where the Energy Information Administration says that the 
wind blows 18 percent of the time and where the Tennessee 
Valley Authority has said it doesn't need the power. So, the 
only justification, I would assume--only economic justification 
of them coming to Tennessee to do that would be that they're 
getting such a generous subsidy, they have to build those 
somewhere. But, talk about the effect of so-called spot pricing 
on nuclear power generation, and to what extent that 
contributes to the premature closing of reactors.
    Mr. Gregg. Well, I am very familiar with the Senator's 
views on wind. Is it Bristol Motor Speedway now or is it the 
stadium?
    Senator Alexander. Well, it's going back to being a 
speedway. I think there's one more football--one more football 
game to be played.
    [Laughter.]
    Mr. Gregg. The issue for nuclear is that, because it does 
these good things, like reduce carbon and have reliability and 
be part of the diversity mix, it gets no credit for this in the 
marketplace the way that other types of energy production does 
get credit. And we're not against--our group has no position; 
in fact, most of us support alternative energy sources. But, 
what we're pointing out is that, with nuclear power, and 
especially the plants that are at risk of closing prematurely, 
they're being pushed into a situation which is primarily driven 
by the economics--and I know Senator Feinstein mentioned that 
Vermont Yankee was closed because of popular opposition. There 
was significant popular opposition in Vermont--Vermont Yankee, 
but it was actually closed, in the end, because of the numbers. 
And it's ironic, because all of Vermont Yankee's power is now 
being replaced by gas. And so, it's gone totally to a carbon 
production energy source to replace Vermont Yankee, which was 
noncarbon. And that's an example of what happens when you don't 
reward nuclear for the fact it's not producing carbon and it's 
reliable and it's diverse. And so, what we've--suggesting is 
that, as States move through their plans for addressing a clean 
plan--Clean Power Plan or whatever they--however they decide to 
take on carbon emissions, such as New York has--that they 
consider the fact that if nuclear is to compete, because it is 
a long-term capital investment of significant amounts, it must 
get--it must be reflected in the process of reimbursement, the 
fact that they do not produce carbon, they are reliable, and 
that they are diverse.

                            CLEAN POWER PLAN

    Senator Alexander. But, the Clean Power Plan which is 
currently being appealed, I guess to the Supreme Court, if I'm 
correct about this, it would require States to come up with 
their plans by 2030--compliance is by 2030, so get their plan 
and--so their compliance with whatever the standards are, the 
reduction of carbon by 2030, that's--it takes a long time to 
build a nuclear reactor, at least under the current way of 
doing it, maybe 8, 10 years. And then, under the Clean Power 
Plan, as I understand it, you'd only get credit for the carbon-
free emissions in the remaining years before 2030. So, there 
would be very little--so, it would seem to me that we're just 
introducing one more element of policy, the Clean Power Plan, 
in the name of carbon-free emissions that discriminates against 
the single largest producer of carbon-free emissions and makes 
it more difficult to build more reactors.
    Mr. Gregg. Well, from our viewpoint, the Nuclear Matters 
viewpoint, we think that State-by-State decisions on this make 
sense, that some States are reacting to the Clean Power Plan 
proposal in a way that is constructive to nuclear power, such 
as Illinois and New York, but that it's going to depend on each 
State making its own decision. And, in making those decisions, 
if you've got nuclear plants in--operating in your region which 
are producing power and could continue to produce power, that 
are going to be prematurely closed because they're not being 
rewarded for the fact that they're noncarbon, that they're 
reliable, and they're diverse, then, in our opinion, these 
State plans should take that under consideration, whether it's 
pursuant to the Clean Power Plan or whether it's pursuant to a 
State decision, such as New York is doing.
    Senator Alexander. Thank you, Senator.
    Senator Feinstein.

                             ENERGY MARKETS

    Senator Feinstein. Thanks very much, Mr. Chairman.
    I sort of wanted to get into the difference that regulated 
versus unregulated markets make in the building of a plant. And 
my understanding is, all five reactors in the United States 
under construction today are in regulated electricity markets. 
And these markets can support the very large, long-term 
investments needed to make the power competitive. Also, 
utilities in these markets are allowed to pass on the costs of 
construction to consumers even before the plants are finished.
    Now, utilities in deregulated markets aren't investing in 
nuclear power, because, I'm told, they don't have certainty 
about future electric--electricity prices, and sources like 
wind and natural gas are cheaper near-term options.
    Mr. Faison, what is your group's position on this 
regulated-versus-unregulated marketplace, in terms of the 
incentive to develop a reactor?
    Mr. Faison. I think that's a very good question. And 
regulated markets do have an advantage, in that they can look 
long-term, they can look 30, 40 years down the road and make 
sure that we have a diverse and reliable mix so that we don't 
have problems that the Senator spoke about. When the vortex 
came through, we had a spike in natural gas prices and the 
question about reliability. So, they're looking--they can look 
further down the road. I think they could sell that to public 
utility commissions. Whereas, a nonregulated utility has to buy 
the lowest-cost power, effectively, every day, and that 
preempts paying for that kind of dependability and reliability.
    Now, wind being heavily subsidized gives that an advantage, 
where nuclear does not have that advantage. And that also, I 
think, distorts markets, particularly----
    Senator Feinstein. So----
    Mr. Faison. Sorry.
    Senator Feinstein [continuing]. Speak a little bit about 
how big this is in the consideration of whether you're going to 
go into a certain place. Is this an important determinant of 
whether you will go or not, whether the market is unregulated 
or regulated? For example, we have a regulated market.
    Mr. Faison. Right. Well, I--the only potential new plants 
that I know of--Southern just got approval for a plant--I think 
about 100 miles away from Vogtle, where they're going to start 
doing--apply for a license for a new generation-3 nuclear 
plant. I don't think we're going to see a lot more generation-3 
light water nuclear plants, and certainly not in competitive 
markets.
    I applaud Southern, because they are looking at the market 
as a whole, and they want to preserve the nuclear industry. 
They are employing advanced--well, people coming out of the 
Navy right now can't find jobs. The nuclear engineers--there's 
a big national security concern, I think, when our Navy nukes 
don't have jobs, coming out of the Navy, when we have power 
plants coming offline. For example, advanced welders, nuclear 
welders, a lot of those folks are down at Vogtle. And so, 
Southern has spent a lot of time and money training these 
people up, adding additional cost to build out these reactors, 
and they want to keep that supply chain and those benefits 
going. If they weren't building this next set of plants 100 
miles away, I think it's really hard to rebuild supply chains 
as big and complex as nuclear, so I really applaud them for 
what they're doing.
    Senator Feinstein. So----
    Mr. Faison. It has to be in regulated markets.
    Senator Feinstein. Yes. It has to be a regulated market.
    Mr. Faison. In today's environment.
    Senator Feinstein. Yes.
    Mr. Faison. Unless we sort of change the rules, I think 
you're right. I think it has to be in regulated markets.
    Senator Feinstein. Senator Gregg, do you differ with that?
    Mr. Gregg. Under the present rules, yes. However, if the 
State----
    Senator Feinstein. You differ, or you agree?
    Mr. Gregg. No, I agree.
    Senator Feinstein. Oh, I see. Okay.
    Mr. Gregg. But, under--but, you know, we're in a time of 
change. And as States and regions try to address the noncarbon 
reduction capabilities of their power sources, I think they're 
going to take a look at nuclear as an option which they can 
lock in over a long period of time, or they should. And 
certainly, in maintaining plants that have a useful life, that 
makes a lot of sense. So----
    Senator Feinstein. Well, that would be a good thing, then, 
for people that are interested in doing this to take a good 
look at the difference between regulated and unregulated 
markets. And that will certainly skew the base for nuclear 
power, it seems to me. Because if what you said is true, that 
you cannot build in a deregulated market today, effectively or 
efficiently, or be assured that you have some certainty, you're 
not going to do it. Is that not right?
    Mr. Faison. If you want to keep your job as the CEO, I 
think it would be difficult, right?
    Senator Feinstein. Yes, right. Okay, thank you very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Thanks, Senator Feinstein.
    Senator Collins.

                  CLEAN-AIR BENEFITS OF NUCLEAR POWER

    Senator Collins. Thank you very much, Mr. Chairman.
    I'm so happy that my Aging Committee hearing, which I was 
chairing, ended in time so that I could get to the end of your 
important hearing, and particularly to welcome back our 
esteemed colleague and friend, Senator Gregg.
    Senator Gregg, I was struck by the statistics in your 
written testimony about the magnitude of nuclear energy's clean 
air benefits. You said, and I quote, ``Without the 99 nuclear 
power plants that operate in 30 States, carbon emissions from 
the U.S. electric sector would be approximately 25 percent 
higher.''
    As someone who's very concerned about climate change and 
the impact on coastal States like mine, where we're already 
seeing changes in our waters, I am puzzled why there is not 
more acknowledgment of the carbon benefits of nuclear power. 
And, as we were sitting here, I was thinking about all of the 
meetings that I have--and they are frequent--with environmental 
groups from Maine and nationally that I've had in the last 
couple of years because of our shared concern about climate 
change. And I cannot remember a single one of those meetings 
touching on the benefits of nuclear power to improving clean 
air and lessening carbon emissions, despite the fact that Maine 
is at the end of the Nation's tailpipe and receives emissions 
from coal-fired power plants, even though we don't have coal-
fired power plants.
    So, I guess that's largely a comment rather than a 
question, but I'm going to turn it into a question. And that 
is, why aren't the clean-air benefits of nuclear power more 
widely promoted by those who are sincerely and fervently 
committed to efforts to reduce carbon emissions?
    Mr. Gregg. That goes to me, Senator?
    Senator Collins. Yes, it is.
    Mr. Gregg. Thank you.
    Senator Collins. I thought I'd try to stump you.
    [Laughter.]
    Mr. Gregg. Well, I can't really speak for the environmental 
community that you've been meeting with, because I don't know 
them. But, I can say that, amongst our group--and our group's 
purpose was to raise the level of education as to the 
importance of nuclear power, and specifically in the area of 
reducing carbon. And you cited the fact it's 25 percent. Try to 
put it in real terms that people can understand: If all the 
nuclear power plants were closed in this country, it's the 
equivalent of adding 115 million cars to the road. Staggering 
amount of emissions which will affect our environment and 
obviously affect the issue of global warming.
    So, that's why we came together. It's a totally bipartisan 
group. And one of our members is Carol Browner, who was 
formerly head of the EPA and who was very active in the Obama 
administration, also, on environmental--and she openly admits 
that, at one time, as an active environmentalist, she was 
totally opposed to nuclear power. And she's moved 180 degrees, 
because she sees nuclear power as one of the key elements of 
addressing the global warming issue. And there are a number of 
people like Carol. And she's speaking, I think--it's starting 
to resonate.
    But, it takes education. That's what it takes. And that's 
why we came together. We're an educational group, primarily, 
and we're trying to do exactly that, tell people that--
proselytize the fact that nuclear power makes a lot of sense if 
you're concerned about this environment.
    Senator Collins. Thank you. That's really interesting, 
about the former EPA Commissioner coming to be part of your 
group, as well.

              ADVANCED REACTORS THAT REDUCE NUCLEAR WASTE

    Mr. Faison, I think part of the issue is one which the 
Ranking Member mentioned just as I was getting here, and that 
is concern about nuclear waste. This is an issue in my State, 
where we have a decommissioned nuclear plant, and there's no 
repository to accept spent nuclear fuel. So, Maine has had to 
store that nuclear fuel on the site for decades now. And I'm 
interested--in your written testimony, you mentioned, briefly, 
advanced nuclear design concepts that are being developed. And 
I would ask you, How would they deal with the nuclear waste 
issue?
    Mr. Faison. Thank you for that question. I think Secretary 
Moniz could much more articulately--he could articulate that in 
a thoughtful way.
    Having talked to nuclear entrepreneurs, and read a bit 
about it, a lot of those designs can use spent fuel, and they 
can process the fuel longer. It was very--there's a drastic 
reduction in the amount of waste that they produce. And nuclear 
waste--I think there is a bit of a misnomer on the amount of 
nuclear waste. I think right now we're sort of at four football 
fields stacked on top of one another, as far as the total 
amount. So, I wish I could give you a better answer than that, 
except that a lot of these designs do--do what the France 
system does, which is regenerate the waste.
    Senator Collins. Thank you, Mr. Chairman.

                      THE FUTURE OF NUCLEAR POWER

    Senator Alexander. Thank you, Senator Collins.
    Building on Senator Gregg's testimony, you said, in your 
comments, that future that you see is an environment in which 
30 to 40 percent of our electricity is produced by nuclear. Is 
that correct?
    Mr. Faison. That's a goal. It's a----
    Senator Alexander. Yes. That's a goal. And today it's 20 
percent.
    Mr. Faison. Correct.
    Senator Alexander. And we know that maybe half our reactors 
may close in the next 20 years.
    Mr. Faison. Right.
    Senator Alexander. So, a few years ago, I recommended--5 
years ago, in a speech at Oak Ridge--that we build 100 new 
reactors. People thought that was a fanciful idea. It seems to 
me, if you add it up, that we'd have to build at least 100 new 
reactors, or the equivalent of that, if we were to have any 
chance of getting to 30 to 40 percent of our electricity 
produced by nuclear by the year 2040. What's your comment on 
that?
    Mr. Faison. It sounds like we're aligned.
    Senator Alexander. Yes.
    Mr. Faison. But, I do have quite a bit of passion around 
this, having spent a lot of time at the Department of--not a 
lot of time--a week, a great week, touring the Labs, including 
Oak Ridge, and was incredibly impressed about the, sort of, 
national treasure we have there. But, a lot of folks that work 
there, when I asked, sort of, ``What do you need?''--I heard, 
over and over again, ``Goals.'' And, you know, I'm a little bit 
of a sap on this. I think America could still do great things, 
but I think we have to aim at great things. You're definitely 
not going to hit something you don't shoot at. And I don't know 
what we're shooting at. And the people that I find in this 
industry don't know, either.
    And I think we have to set big--these are big, huge, long-
term projects, with multiple inputs. I think we need to 
identify the bottlenecks, we need to be ready to really roll up 
our sleeves across a lot of different sectors. And, without 
goals, and working towards longer-term goals, then backing down 
to shorter-term goals, as a business guy, I don't know how you 
do that. Smarter people than me might know, but I--that's what 
I struggle with.
    So, we want to be, maybe, an instigator, if you will, on--
try to stack up these goals and then work backwards to the 
things that we think we need to get there. And I think a short-
term goal of four to five advanced, demonstratable concepts on 
a site like Idaho National Labs, where you have NuScale 
demonstrating their--they've been, I guess, approved to start 
building that test site--without a diversity of technologies 
and a hard push to it in the short term, I think our nuclear 
energy percentage, as a whole, is going to go down, and we're 
going to have a decimated industry that will not give us the 
capability to do much in the future around nuclear.
    Our average employee in the nuclear industry, I believe, is 
56 years old; and roughly 25 percent of these employees, these 
workers, are going to retire in the next 5 years. So, I think 
we're actually at a very critical juncture, here. And when I 
went to the Nuclear Energy Conference, the NEI Conference, 
there are a lot of young people that want ambitious goals, and 
they're coming into this industry with a chance to attack 
carbon emissions. And I think we've got to give them something 
to shoot for.
    So, sorry for the long-winded answer, but I couldn't agree 
with you more. We need to set big, ambitious goals.

                         NUCLEAR PLANT CLOSURES

    Senator Alexander. Thanks.
    Senator Gregg, I'll ask you one last question. Three 
reactors in New Jersey, Massachusetts, and New York, up in your 
neck of the United States, are scheduled to close in the next 
few years. We've talked about--Vermont Yankee, which closed a 
couple of years ago, had the capacity for providing Vermont 70 
percent of its electricity, but now it doesn't. And they've 
chosen, instead, to take a carbon-emitting source of 
electricity.
    On the other hand, New York, instead of closing a plant, is 
trying to find a way to keep one open. You say Illinois may be 
doing the same. Do you see a shift in attitude?
    Mr. Gregg. Yes, I do. And it's driven by people being 
concerned about carbon emissions and global warming, and common 
sense taking hold. It's a commonsense answer that you don't 
shut down your noncarbon-emitting energy source to replace it 
by carbon-emitting energy sources. In fact, hopefully, even in 
Massachusetts, the closure there may be reconsidered. I'm not 
sure of it, but that's a possibility, because you're going to 
end up with----
    New England's a unique situation. You know, we don't have a 
natural energy source. We don't have coal, we don't have gas. 
What we have is nuclear power. New Hampshire still has a 
nuclear plant. So, when we shut a nuclear plant down in New 
England, we have to not only replace it with carbon-emissions, 
and we also lose reliability if we hit another polar vortex--
and it does get fairly cold in New England on occasion, mostly 
in Maine--she's not here to defend herself anymore--but, we 
have to import the energy.
    So, one of our--when I was Governor of New Hampshire, one 
of our advocacy points was, ``We have our energy source right 
here.'' Now we don't, in western New Hampshire.
    So, it really is a ``cut off your nose to spite your face'' 
approach to close nuclear plants prematurely, and that's the 
case we've been making. And I think it's getting traction, 
because I think people see--you know, American people are 
inherently filled with common sense. That's one of our great 
strengths as a Nation. When you explain the issue to folks, 
they pretty much get it.
    Senator Alexander. Thank you.

                      THE FUTURE OF NUCLEAR POWER

    Senator Gregg, thank you. Mr. Faison, thank you. This has 
been our first hearing on the future of nuclear power. Our 
purpose in this is, just what you stated, to try to focus 
attention on the irony and the inconsistency of, on the one 
hand, having a national goal to produce carbon--to reduce 
carbon, but, at the same time, closing nuclear plants and 
making it harder to build new ones at a time when nuclear 
produces 60 percent of your carbon-free electricity. It makes 
no sense whatsoever, and it's apparently--certainly makes no 
sense for the same people to be urgently arguing to deal with 
climate change and then either quiet or urgently opposed to 
nuclear power.
    I'd like to also say, because I think it's important to say 
at any nuclear hearing, there's never been a death at a nuclear 
power plant as a result of a reactor accident in the United 
States; nor, since the 1950s, there's never been a death in 
connection with a reactor accident in the nuclear Navy. Our 
most celebrated nuclear accident in the United States was Three 
Mile Island, in Pennsylvania, in 1979, I guess, and no one was 
hurt at Three Mile Island. So, if we're looking for a form of 
electricity production that we know a lot about, that produces 
reliable, clean, and safe electricity, and helps meet our low-
carbon future, nuclear certainly ought to be a part of our 
future.
    Without objection, the written testimony from our witnesses 
will be included in the record. Hearing record will remain open 
for 10 days. Senators may submit additional information within 
that time. The Subcommittee requests all responses to questions 
be provided within 30 days of receipt.

                          SUBCOMMITTEE RECESS

    Senator Alexander. The Subcommittee thanks the witnesses 
and stands adjourned.
    [Whereupon, at 4:48 p.m., Wednesday, September 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


 
                  THE FUTURE OF NUCLEAR POWER, PART II

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander, (chairman) 
presiding.
    Present: Senators Alexander, Feinstein, Tester, Udall, and 
Shaheen.

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
will please come to order. This afternoon we'll have the second 
of two oversight hearings to discuss the future of nuclear 
power in the United States.
    In our previous hearing in September, we discussed what 
actions should be taken to maintain today's nuclear power 
plants and to ensure our country continues to invest in nuclear 
power.
    Today we'll discuss the recent Task Force Report on the 
Future of Nuclear Power from the Secretary of Energy's Advisory 
Board. We'll also discuss basic energy research and development 
to support nuclear power, the work that's being done to safely 
extend reactor licenses from 60 to 80 years where appropriate, 
and the development of new nuclear technologies, including 
advanced reactors, small modular reactors, and accident-
tolerant fuels.
    Senator Feinstein and I each will have an opening 
statement. I will then recognize each Senator for up to 5 
minutes for an opening statement, and we'll go from there.
    We'll then turn to the witnesses for their testimony. The 
first panel will be Dr. John Deutch. He is Chair of the 
Secretary of Energy's Advisory Board and an Institute Professor 
at MIT. He is a former Director of CIA, Deputy Director of 
Defense, and Director of Energy Research at the Department of 
Energy.
    The second panel includes Dr. Alan Icenhour and Dr. Matthew 
McKinzie. Dr. Icenhour, Associate Lab Director for Nuclear 
Science at Oak Ridge National Laboratory. Dr. McKinzie, 
Director of the Nuclear Program at the Natural Resources 
Defense Council.
    After that, we'll have some questions.
    Now I would like to make a brief opening statement. Today's 
hearing, as I said, is our second oversight hearing to discuss 
steps we can take to ensure that carbon-free nuclear power has 
a strong future in our country.
    Our first hearing, we heard from Secretary Moniz about the 
challenges. We heard about research, a lot of which is being 
done at our national laboratories, including Oak Ridge.
    We heard Senator Whitehouse, who is very concerned about 
climate change, tell us that in his view it made no sense to 
close carbon-free reactors at the same time we're trying to 
deal with climate change.
    We also heard from Senator Judd Gregg and Jay Faison, CEO 
of the ClearPath Foundation, who gave us much of the same 
message and talked about the amount of innovation, 40 to 50 
companies are working on advanced reactor concepts that would 
lower construction costs, increase safety, and make better use 
of fuel management than today's reactors.

                        FUTURE OF NUCLEAR POWER

    I believe the future of nuclear power can be bright, but 
that we need to prepare now by building more reactors; by 
ending the stalemate on what to do about nuclear waste, Senator 
Feinstein and I are united on that; stopping Washington from 
picking winners and losers in the marketplace, which sometimes 
disincentivizes the use of nuclear power; pushing back on 
excessive regulation; and fueling more free market innovation 
with government-sponsored research.

                           TASK FORCE REPORT

    The witnesses today will discuss the Task Force Report I 
mentioned, R&D, and steps we can take to maintain the fleet.
    We received the report in October of the Secretary's Energy 
Advisory Board, which examined the challenges that the nuclear 
industry is facing, as well as steps necessary to develop new 
technologies. It emphasized, and I'm sure Dr. Deutch will talk 
about, five factors limiting investment in nuclear power in our 
country. First is that nuclear power doesn't get enough credit 
for being carbon-free. Second, new nuclear technologies are 
complex, expensive, and heavily regulated. Third, we haven't 
solved the nuclear waste stalemate, which has been going on now 
more than 25 years, the stalemate, market conditions and 
unanticipated events, such as an accident.
    At a time when leading science academies of 20 developed 
countries and many Americans say climate change is a threat and 
that humans are a significant cause of that threat, nuclear 
power produces 60 percent of our country's carbon-free 
electricity, and power plants produce nearly 40 percent of the 
carbon produced in our country.
    Now, just speaking for myself, in my hometown of Maryville, 
Tennessee, if I had 20 fire marshals of repute come around and 
tell me my house might burn down, I might buy some fire 
insurance. So my recommendation is that we should get some 
insurance in this country against climate change, and I think 
the best insurance in the near term is nuclear power. It makes 
no sense to close reactors at a time when people believe 
climate change is a problem.

                  NEXT GENERATION ON NUCLEAR REACTORS

    We need to invest in the next generation of reactors. We 
need to continue to work with the Regulatory Commission to move 
forward with small modular reactors. Our bill, the 
appropriations bill of this committee, includes $95 million for 
that work.
    The Task Force recommends we undertake an advanced nuclear 
reactor program to support the design, development, 
demonstration, licensing, and construction of a first-of-a-kind 
commercial scale reactor. I'm looking forward to hearing more 
about that from Dr. Deutch.
    Dr. Icenhour, who is here today on behalf of the Oak Ridge 
Laboratory, leads a consortium for advanced simulation of light 
water reactors. We're looking forward to hearing his discussion 
of that.

                        INTERIM STORAGE FACILITY

    Secretary Moniz said at our hearing that by the end of the 
year, the Department would begin the process of moving forward 
with interim storage facilities for nuclear waste. That's 
something Senator Feinstein and I congratulated him for and 
have encouraged.
    And I'm pleased to report after our hearing, the Department 
took the initial step of seeking information on private interim 
nuclear waste storage sites. We need to move on all tracks at 
the same time to solve the nuclear waste stalemate, and I 
appreciate the Secretary's attention to this.
    Secretary Moniz took that important step. The new Congress 
should take the next steps and pass the Bipartisan Nuclear 
Waste Administration Act, introduced last year by Senators 
Feinstein, Murkowski, Cantwell, and me. Congress should pass 
the pilot program that would allow the Secretary to take title 
to used nuclear fuel. Both the pilot program and funding for 
private interim storage were included in this year's Senate 
Energy and Water Appropriations bill that Senator Feinstein and 
I have recommended and the committee approved.

                         EXISTING NUCLEAR FLEET

    We need to maintain our existing nuclear fleet. We need to 
extend reactor licenses from 60 to 80 years where it's 
appropriate and safe to do so. We need to relieve the burdens 
of unnecessary regulation, to use our supercomputing resources. 
Since our hearing, another reactor has shut down, Fort Calhoun 
Nuclear Generation Station shut down on October 24th, which 
means we've lost another 484 megawatts of carbon-free 
electricity.
    In conclusion, I would say this, imagine a day when the 
United States is without nuclear power. That's a day I don't 
want to see in our country's future. It seems distant and 
unlikely, but it's a real threat. By 2038, just 20 years from 
now, 50 reactors will have reached 60 years of operation, 
representing 42 percent of the nuclear generating capacity in 
the United States. So our country could lose about half our 
reactors if existing licenses can't be extended from 60 to 80 
years, and those reactors close.
    While there are four new reactors being built, all in the 
Southeast, there are eight reactors, three in the Northeast, at 
seven sites, which are scheduled to shut down by 2025. The 
Energy Information Administration estimates that shutting down 
these eight reactors, plus the recent closing of Fort Calhoun, 
will result in a 3 percent increase in total carbon emissions 
from the U.S. electricity sector.
    We need to take steps today to ensure nuclear power has a 
future in our country. And with that, I would like to recognize 
Senator Feinstein, our committee's distinguished Ranking 
Member, for her opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    The Subcommittee on Energy and Water will please come to order.
    This afternoon we will have the second of two oversight hearings to 
discuss the future of nuclear power in the United States.
    In our previous hearing, in September, we discussed what actions 
should be taken to maintain today's nuclear power plants and ensure our 
country continues to invest in nuclear power.
    Today, we will discuss the recent Task Force Report on the Future 
of Nuclear Power from the Secretary of Energy's Advisory Board.
    We will also discuss:
  --Basic energy research and development to support nuclear power;
  --The work that's being done to safely extend reactor licenses from 
        60 to 80 years; and
  --The development of new nuclear technologies, including advanced 
        reactors, small modular reactors, and accident tolerant fuels.
    Ranking Member Feinstein and I will each have an opening statement.
    I will then recognize each Senator for up to five minutes for an 
opening statement, alternating between the majority and minority, in 
the order in which they arrived.
    We will then turn to the witnesses for their testimony. The first 
panel will be Dr. John Deutch.
    He is the Chair of the Secretary of Energy's Advisory Board and an 
Institute Professor at the Massachusetts Institute of Technology.
    He is also a former Director of the Central Intelligence Agency, 
Deputy Secretary of Defense, and Director of Energy Research at the 
Department of Energy.
    The second panel includes Dr. Alan Icenhour and Dr. Matthew 
McKinzie.
    Dr. Icenhour is the Associate Laboratory Director for Nuclear 
Science and Engineering at the Oak Ridge National Laboratory.
    Dr. McKinzie is the Director of the Nuclear Program at the Natural 
Resources Defense Council.
    After witness testimony, Senators will then be recognized for five 
minutes of questions each, alternating between the majority and 
minority in the order in which they arrived.
                                 * * * 
    Today's hearing is our second oversight hearing to discuss steps we 
can take to help ensure that carbon-free nuclear power has a strong 
future in this country.
    In September we held our first oversight hearing on the future of 
nuclear power, and we heard from Secretary Moniz about the biggest 
challenges facing nuclear power, and the work the Department of Energy 
is supporting in nuclear research and development programs to help 
solve those problems. A lot of that research and development is 
performed at Oak Ridge National Laboratory, and the other laboratories. 
We'll hear more about that today.
    At that hearing, Senator Whitehouse discussed his efforts to drive 
innovation in next generation nuclear technologies at our national 
laboratories, and foster a regulatory environment that enables these 
technologies to come to market. He explained the reasons he supports 
advanced nuclear reactors--compared to today's reactors, they are 
potentially safer, less costly, may produce less used fuel.
    We also heard from former Senator Judd Gregg and Jay Faison, CEO of 
ClearPath Foundation. Senator Gregg said it makes no sense to close 
down nuclear reactors if they still have useful life. He explained how 
nuclear plants are closing, in part because they are competing with 
other forms of energy that are highly subsidized. Mr. Faison talked 
about the innovation--he said 40 to 50 companies are working on 
advanced reactor concepts that have lower construction costs, increased 
safety and better used fuel management than today's reactors.
    Our nuclear future can be bright, but I believe we need to prepare 
now by:
  --building more reactors;
  --ending the stalemate on what to do about nuclear waste;
  --stopping Washington from picking winners and losers in the 
        marketplace;
  --pushing back on excessive regulation; and
  --fueling more free market innovation with government sponsored 
        research.
    The witnesses today will discuss:
  --The Secretary of Energy Advisory Board Task Force Report on The 
        Future of Nuclear Power;
  --Research and development of the next generation of nuclear 
        reactors;
  --Steps we can take to maintain our existing reactor fleet:
    --Recognizing nuclear as a carbon-free source of electricity;
    --Extending reactor licenses from 60 to 80 years if it is safe to 
            do so; and
    --Solving the nuclear waste stalemate.
    In October we received the Secretary of Energy Advisory Board Task 
Force Report on The Future of Nuclear Power.
    The report examined challenges that the nuclear industry is facing 
today, as well as the steps that are necessary to deploy new advanced 
nuclear technologies in the future.
    The report concluded that there are five factors that are limiting 
investment in nuclear power in the U.S.:
  --Nuclear power does not get credit for being carbon-free;
  --New nuclear technologies are complex, expensive and are heavily 
        regulated;
  --We have not solved the nuclear waste stalemate;
  --Market conditions; and
  --Unanticipated events, such as a nuclear accident.
    At a time when he leading science academies of 20 developed 
countries, and many Americans, say climate change is a threat--and that 
humans are a significant cause of that threat--nuclear power produces 
about 60 percent of our country's carbon-free electricity.
    Power plants produce nearly 40 percent of the carbon produced in 
our country.
    If in my hometown of Maryville, I had twenty fire marshals come 
around and tell me my house might burn down, I think I would buy some 
fire insurance.
    So my recommendation is that we should get some insurance against 
climate change.
    I think the best insurance is nuclear power. It makes no sense 
whatsoever to close reactors at a time when many people think climate 
change is a problem.
    We need to invest today in the next generation of nuclear reactors, 
advanced reactors, small modular reactors, and accident tolerant fuels.
    The Department of Energy should continue to work with the Nuclear 
Regulatory Commission to move forward with small modular reactors, a 
technology I strongly support.
    The Senate Energy and Water Appropriations bill includes $95 
million for this work.
    The Task Force recommends that the United States undertake an 
advanced nuclear reactor program to support the design, development, 
demonstration, licensing and construction of a first- of-a-kind 
commercial-scale reactor.
    Dr. Icenhour, who is here today on behalf of Oak Ridge National 
Laboratory, leads the Consortium for Advanced Simulation of Light Water 
Reactors, also known as CASL.
    Dr. Icenhour and his colleagues at our national laboratories are 
currently developing the advanced nuclear technologies that will be 
needed to ensure nuclear power has a future in our country.
    Secretary Moniz said at our hearing that by the end of the year the 
Department would begin the process to move forward with interim storage 
facilities for nuclear waste.
    Solving the nuclear waste stalemate is a priority that Senator 
Feinstein and I agree on.
    I am pleased to report that after our hearing the Department took 
the initial step of seeking information on private interim nuclear 
waste storage sites.
    We need to move on all tracks at the same time to solve the nuclear 
waste stalemate, and I appreciate the Secretary's attention to this 
issue.
    Secretary Moniz has taken an important step. Now Congress should 
take the next steps, and pass the bipartisan Nuclear Waste 
Administration Act, which was introduced last year by me, and Senators 
Feinstein, Murkowski, and Cantwell. Congress should also pass the pilot 
program that would allow the Secretary to take title to used nuclear 
fuel. Both the pilot program and funding for private interim storage 
were included in this year's Senate Energy and Water Appropriations 
bill.
    We need to maintain our existing nuclear fleet and extend reactor 
licenses from 60 to 80 years if it is safe to do so.
    We need to relieve the burdens of unnecessary regulation. We want 
to be safe, but we don't want to make it so expensive and difficult to 
build reactors that we don't build them.
    We need to use our supercomputing resources to model and simulate 
reactor designs in ways that we never could before to make sure new 
reactors are safe and more cost-effective.
    Since our hearing another reactor has shut down--the Fort Calhoun 
Nuclear Generating Station in Nebraska shut down on October 24 which 
means we have lost another 484MW of carbon-free electricity.
    Imagine a day the United States is without nuclear power--a day I 
don't want to see in our country's future.
    That seems like a distant and unlikely scenario but in fact it's 
more of a threat than many people realize.
    By 2038--that's just over 20 years from now--50 reactors will have 
reached 60 years of operation, representing 42 percent of the nuclear 
generating capacity in the United States. The U.S. could lose about 
half our reactors if existing licenses can't be extended from 60 to 80 
years and those reactors close.
    While there are four reactors being built, all in the southeast, 
there are eight reactors, three in the northeast, at seven plants, 
which are scheduled to shut down by 2025.
    The Energy Information Administration estimates that shutting down 
these eight reactors, plus the recently closed Fort Calhoun reactor, 
will result in a 3 percent increase in total carbon emissions from the 
U.S. electricity sector.
    We need to take steps today to ensure nuclear power has a future in 
our country, and with that, I'd like to recognize Senator Feinstein, 
our subcommittee's ranking member, for her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Well, thank you very much, Mr. Chairman. 
And I think you know that there really is no one that I respect 
more in the Senate from either party than you, and one of my 
great pleasures has been to work with you. And on most things 
we have agreed.
    We do not agree on nuclear power, as you know. And so 
because I'm a history major, I thought that I might, in my 
opening remarks, just cite some facts of history about the 
nuclear experience.

                            ADVANCE REACTORS

    I think examining the potential risks and opportunities of 
advanced reactors is important. They're in competition with 
Federal research funding, with other clean energy sources, and 
the 4,400 megawatts of California's nuclear power, which is in 
the process of being shut down, will be replaced with clean 
energy, and California is going to aim to make 50 percent of 
its power all clean power before too long.
    Now, some may claim the future is bright for this 
technology. I suggest otherwise. Advanced nuclear reactors are 
those that achieve higher efficiencies in electricity 
production through the use of graphite, salts, and metals as 
coolants and moderators instead of water.
    In 1956, United States Navy Admiral Hyman Rickover, the 
father of our nuclear Navy, said of advanced reactors, and I 
quote, ``They are expensive to build, complex to operate, 
susceptible to prolonged shutdown as a result of even minor 
malfunctions, and difficult and time-consuming to repair.'' And 
strangely enough, his words have been prophetic.
    In 1965, the Fermi sodium-cooled fast reactor went online 
in Southeast Michigan. Ten months later, it suffered a partial 
meltdown when a coolant inlet became blocked and the core 
overheated. It operated briefly again from 1970 to late 1972, 
when it was shut down due to cost issues. The plant took 9 
years to build, and operated for only 3 years.
    Then in the 1970s, the United States spent over a billion 
dollars on the Clinch River Breeder Reactor project in eastern 
Tennessee. Costs were initially estimated at $400 million, but 
by 1983, the GAO (Government Accountability Office) said the 
project would cost $8 billion, something that we go through 
with uranium and plutonium processing now. Congress abandoned 
the project before construction was completed.
    President Carter, a nuclear engineer, said of the project, 
and I quote, ``The Clinch River Breeder Reactor is a 
technological dinosaur. It's an assault on our attempts to 
control the spread of dangerous nuclear materials. It marches 
our nuclear policy in exactly the wrong direction.''
    Now, these are fundamentally the same reactor designs we're 
still discussing today.
    More recently, the Monju fast-breeder reactor in Japan 
operated for only a few months in 1994 and 1995 before a 
coolant leak caused a fire. Then it operated again for 3 months 
in 2010 before another accident during a refueling. After 
spending $12 billion building, briefly operating, and repairing 
the facility, the Japanese government decided last month to 
abandon the project once and for all.
    The recent history in the United States is not much better. 
The Energy Policy Act of 2005 authorized DOE to work with 
industry to develop a next-generation nuclear plant. The plant 
was intended to process heat and hydrogen for use in industrial 
applications. The program included cost-shared research and 
development activities with industry that would eventually lead 
to a demonstration facility.
    By 2012, this committee had invested $550 million in the 
next-generation nuclear plant, and was ready to move into Phase 
2 by inviting industry participation, but not a single company 
could be found to put up the meager $40 million cost share that 
was needed. DOE ended the program in 2013 because the 
government could not justify spending millions to develop 
advanced reactor designs that have no real support from the 
industry.
    Even if advanced reactors overcome their history of 
disappointment, this Congress has not yet grappled with the 
need to find a workable solution to nuclear waste despite the 
best efforts of this committee. A bottom line fact is that the 
existing fleet of reactors has generated 77,000 metric tons of 
highly radioactive spent fuel. That staggering amount is 
growing by an average of 22 tons per year.
    Even if some advanced reactor designs someday run more 
efficiently or even consume more spent fuel, a future built on 
nuclear power is impossible if we don't have a solution for 
dealing with existing waste.
    Mr. Chairman, the Nation faces real challenges in 
addressing climate change, grid reliability, increased energy 
efficiency, and a proper mix of generation sources. In each of 
these areas, this committee funds complex and necessary 
programs for research. I don't see how we can afford to divert 
several billion more dollars from these programs in order to 
explore speculative technologies that the industry itself has 
shied away from.
    I think nuclear power must overcome its own significant 
shortcomings--one, astronomical upfront costs; and, two, waste 
that is toxic for thousands of years--if nuclear is to be a 
significant solution to our climate challenges.
    Before this committee decides to devote significant new 
resources to the development of advanced nuclear reactors, I 
believe we need to see three things: one, a solution to nuclear 
waste, long term and viable; two, an indication that these 
reactor designs can overcome their history of technical 
shortcomings; and, three, an industry willing to make a 
financial commitment on its own. And I know that's a tall 
order.
    So I very much look forward to our witnesses today. I've 
known John Deutch for a long time. I have great respect for 
him. And I look forward to listening to his testimony and the 
others.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Yeah, I'll be brief. First of all, thank 
you, Mr. Chairman and Ranking Member Feinstein, for having this 
hearing. I think this is a good discussion to have and talk 
about the challenges. And I appreciate you, Mr. Chairman, 
bringing up climate change because it's occurring whether we 
want to deny it or not, it's happening. I've been on the farm 
now since 1978, and things are happening that never ever 
happened before. Some of them are good, but a lot of them 
aren't so good.
    And just for full disclosure, and I've been farming my 
whole life, I lost more money on an investment in an electrical 
energy company that had a nuclear power plant than I ever lost 
in anything else I've ever done in life.
    So with that aside, I certainly don't have issues with the 
power. I think that there are positive things about the 
environment from a CO<INF>2</INF> standpoint. And I think 
Dianne, Senator Feinstein, brought up some points on reactor 
design.

                             NUCLEAR WASTE

    The waste is the problem. We've got to figure out how you 
can repurpose it and get it done if we're going to do this. We 
may be changing CO<INF>2</INF> for nuclear waste, and I don't 
think we want to do that. I think we want to make sure that if 
we're going to have something that our kids and grandkids and 
generations and generations from now can deal with, it's got to 
work. And so I appreciate the hearing. I think it's a good 
discussion. And I don't think anybody on this committee, and I 
certainly have the utmost respect for you, Mr. Chairman, wants 
to do something that our kids are going to have to pay for 
forever. So thank you very, very much.
    Senator Alexander. Thank you, Senator Tester.
    Senator Udall.
    Senator Udall. Mr. Chairman, I'm ready to proceed to the 
witness. Thank you.
    Senator Alexander. Thank you, Senator Udall.
    Dr. Deutch, usually we ask witnesses to take about 5 
minutes because that gives more time for questions, but you're 
the only witness on the first panel, and you've worked long and 
hard on a Task Force Report, plus you've got a lot of 
experience, so if you need more time than that, why don't you 
take it.
STATEMENT OF HON. JOHN DEUTCH, INSTITUTE PROFESSOR, 
            MASSACHUSETTS INSTITUTE OF TECHNOLOGY, 
            CHAIR, SECRETARY OF ENERGY ADVISORY BOARD
    Dr. Deutch. Thank you very much, Mr. Chairman.
    Thank you, Senator Feinstein, Senator Udall.
    I'm very pleased to be here. I was chair of the Secretary 
of Energy Task Force----
    Senator Feinstein. Could you speak directly into the mic, 
John?
    Dr. Deutch. Yes. Is that better?
    Senator Feinstein. Better.
    Dr. Deutch. If it's not, poke me again and I'll do better.

                               TASK FORCE

    So I'm here to report to you on this Task Force that I 
chaired, and I want to make clear what our task was. The 
Secretary asked the Task Force to describe an initiative that 
had the potential of giving the country the option, the 
ability, to have between 5- and 10,000 gigawatts of electricity 
built annually in the time period 2030 to 2050. That was our 
task.
    Many other questions about nuclear power were not part of 
our task. So what would the country have to do to restore the 
level that, for example, was here when I joined the Department 
of Energy in 1976? That was the task.
    The summary report, I mean the report and summary charts, 
are in the public domain. They've been supplied to committee 
staff, so I'm just going to focus on the main views of the 
committee, what were the message we want to--of our Task Force, 
what the message is, and then say a few words about five or six 
main findings.

                           NUCLEAR INITIATIVE

    So here are the main takeaways. If the country is going to 
have a nuclear option in 2030, it must undertake an initiative 
of the scope and size that this committee described. It doesn't 
have to be exactly the same, but if you do not undertake a 
major initiative now, it is inevitable that in 2030 the country 
will not have a nuclear option.
    Secondly, any such initiative is going to require time, 
considerable Federal resources, redesign of electricity 
markets, and sustained and skilled management.
    Third, there is no shortcut to doing this. There is not 
going to be a magic technology provided that at low cost 
quickly can get you safe and reliable nuclear power.
    Those are the takeaway messages.

                      CENTRAL TASK REPORT FINDINGS

    So I want to now speak to the five or six central findings, 
recommendations, of the Task Force Report.
    First, as you know, the nuclear fleet is aging, and there 
have been a number of early retirements. The early retirements 
are due in many respects to the rules governing electricity 
rates and dispatch that differ in different parts of the 
country, which makes it challenging to have value-based nuclear 
power. Examples include the structure of rates in wholesale 
capacity markets, preferential dispatch rules for renewable 
generation, exclusion of nuclear power from renewable portfolio 
standards, and rates that are inadequate to assure recovery 
investment.
    The Task Force Report makes several suggestions for 
redesign of market rate structure, but for existing plants, 
this has to be done on a State-by-State basis, and different 
States are approaching it in different ways. New York came to 
some agreement which seems to be suitable for that State. I 
believe that Illinois is under detailed discussions at the 
present time, but fundamentally for existing reactors, that 
disparity in market structure has to be addressed at a State 
level, and it's not going to be changed easily.
    The outlook for the construction of nuclear plants in the 
United States and other OECD (Organization for Economic 
Cooperation and Development) countries is bleak primarily 
because of the high overnight capital cost of nuclear power, 
roughly $5,000, compared to natural gas, $1,000 or less, which 
makes the levelized cost of nuclear power for the foreseeable 
future higher than the closest competitor, which is at least 
for the time being with low natural gas prices being levelized 
cost of electricity from natural gas.
    The cost disparity would be greatly diminished if the 
carbon-free nature of nuclear power were recognized. It could 
be recognized in two ways, by the assessment of a carbon 
emission charge based on the social cost of carbon on fossil 
fuel generating electricity plants or, alternatively, on a 
production payment to new nuclear plants, not existing nuclear 
plants, for their carbon-free--that you recognize their carbon-
free character. That is on the order of 2.7 cents per kilowatt 
hour. That is their carbon-free equivalent value.
    Let me note that wind and photovoltaics, solar electricity 
generation, have that same carbon-free character and indeed do 
have an ongoing through the investment tax credit, a 
contribution for the taxpayers of this country roughly 
comparable to the 2.7 cents I mentioned before. So that would 
be a rule that I would apply to all new carbon-free electricity 
generation.
    The Task Force actually recommends a two-part program. It 
is not only about advanced nuclear reactors.
    The first point is, are there light water reactor 
technologies which will lead to new plant constructions of 
lower cost and which have other advantages, such as a small 
modular reactor? So the first aspect of the recommendations is 
pursue promising light water reactor technologies, which no 
longer have an unproven technology, but which have the 
practical questions of cost, licensing, siting, waste 
management. That's our first, but all new plants need to have a 
2.7 cent production payment or its equivalent in order to prove 
itself competitive with natural gas generation, which is 
generating, of course, carbon.
    For advanced reactors, based on new technology, the Task 
Force recommends a four-part program to bring an advanced 
program from the research level to the construction of a first-
of-a-kind plant, first-of-a-kind commercial plant.
    The Task Force based its estimate of the time and cost of 
that as being $11.6 billion with huge uncertainty around that 
number, and taking about 25 years. An important aspect of that 
judgment was based on carefully looking at a stage-by-stage 
development program from concept all the way to construction of 
a first commercial scaled plant.
    There are many people who believe that could be shortened, 
and indeed it was mentioned, Mr. Chairman, there are 20 or 30 
venture capital-based firms which are exploring all different 
sorts of technologies. They would see optimistically a much 
smaller time and cost for going through this development 
process for an advanced reactor.
    We don't believe that's so, and we believe one important 
way of deciding is to compare the template for development that 
the Task Force has proposed with a template for development 
that the private sector firms are suggesting.
    In any event, the point I want to leave with the committee 
is in our judgment, roughly speaking, this is a $6.5 billion 
program for the period from selecting a plant all the way to 
the point where you develop where you start spending money on 
your first commercial plant.
    We talked about financing of that. We believe that it 
should be in a well-run program, half, roughly half, provided 
by the Federal Government, mostly in the early stages where 
there are great technology efforts to reduce technology risks, 
and the latter half, more by private sector investors who see 
the practicality of these new reactor types.
    Let me next turn to fuel cycle and waste management. I 
should say to you that when I was in the Department of Energy 
in the mid-'70s, the Department confirmed President Ford's 
decision not to do commercial reprocessing of spent fuel, and 
the Department continually proposed no additional funding for 
Clinch River Breeder Reactor, but there was a great effort to 
maintain light water reactor technology and the base nuclear 
technology for next-generation plants.
    But there is no question about it, that advanced reactors 
will have a different fuel cycle, and therefore require 
different approaches for both licensing and for waste 
management. That is part of the challenge of moving to a new 
generation of reactors.
    Now, we recommend for the management of this program that 
we propose, this 25-year, $11.9 billion, $11.6 billion program, 
the creation of a quasi-public corporation created by the 
Congress with a one-time appropriation for that long period of 
a difficult technical task going through several different 
administrations to pay attention and responsibly execute this 
program. I notice that the Blue Ribbon Task Force that you 
mentioned, that you both support, as I understand it, of Lee 
Hamilton and Brent Scowcroft, recommends exactly the same sort 
of a creation of a quasi-public corporation to carry out the 
waste management part of this challenge. There may be a 
possibility for having a single, as committee staff has 
suggested to me, quasi-public corporation to carry out both the 
waste management piece and the new reactor development piece.
    The NRC (Nuclear Regulatory Commission) today only has 
recent experience with licensing light water reactor plants. 
That means if you want to proceed to an advanced reactor, the 
NRC must develop the capability to do that licensing carefully. 
It's going to require more time and more resources for the NRC 
to do that job. We believe, and in our report we discuss--we 
have two ex-chairs of the Nuclear Regulatory Commission on our 
Task Force, a staged approach for the licensing of the advanced 
reactors that we believe deserves attention.
    Some developers may choose to construct and license new 
advanced reactors in other countries, for example, China. I 
remind those developers, and everyone here, that the first time 
one of those plants come back into the United States, it will 
have to go through the whole entire NRC process again, so we 
will always have the oversight of the NRC prospect.
    My final point, Mr. Chairman, has to do with international 
linkages. For a long, long time, the counterproliferation 
policy of the United States, where we've been a world leader, 
has been based on the influence we have through our knowledge 
and our activities in nuclear power technology.
    As you know, the plants which are going to be built around 
the world are not going to be in Europe, they're not going to 
be in the United States, they're mainly going to be in China, 
in India, in Russia, in several countries in Asia, which this 
will be their first plant, the Emirates, Turkey, Jordan. We 
want to make sure that the proliferation and safety of those--
the proliferation resistance of those plants is maintained. We 
have a national security interest in maintaining our 
international activities, especially in safety in the future of 
nuclear power.
    I want to make a concluding remark. The Task Force, 
completely unanimous with this report, we had a wide range of 
people with different experience and backgrounds, unanimous, 
especially unanimous on the point that if the United States 
does not undertake an initiative like this, the nuclear option 
is not going to be there in 2030.
    Now, that leaves open the broader question Senator 
Feinstein addressed. Does the country need this? Is it a 
practical thing that we can do given the fact that we have a 
changing administration all the time?
    And there are very widely ranging different views on that. 
So it's not the case that everybody on our Task Force believes 
the country must do exactly this, but we all agree that if you 
don't do something like this, there is no possibility of 
nuclear power.
    Then there is a set of people who say, well, what is the 
consequence of not having that base load generation, can it all 
be done with clean power or renewable sources? Differences of 
view on that, too. It depends very heavily, as you--as this 
committee knows, on how the grid develops.
    But let me say it again, we give you a program to consider, 
which is in the scale of both time and dollars, one way of 
getting possibly a substantially 30 percent or so cheaper, not 
zero cost, nuclear power in the future. And we raise a warning 
that if you don't do something like this, the country does not 
have a nuclear option in the future.
    Thank you very much, Mr. Chairman. Thank you.
    [The statement follows:]
                   Prepared Statement of John Deutch
    Mr. Chairman and Members of the Committee. My name is John Deutch 
and I am here to present the results of the SEAB Task Force study on 
The Future of Nuclear Power, which I chaired. I served as Director of 
Energy Research and Undersecretary of the Department of Energy in the 
Carter Administration and, for many years I was a director of CMS 
Energy, a Michigan utility that operated two nuclear power plants.
    Secretary Moniz charged the Task Force to describe an initiative 
that, if successful, would result in a revitalized U.S. nuclear 
industry of a scale able to deploy 5,000 to 10,000 MWe of nuclear power 
annually, during the time period 2030 to 2050. The Task Force report 
and a summary set of charts are available on the web and these 
materials have been provided to Subcommittee staff. In order to allow 
the greatest opportunity for discussion, I wish to confine my remarks 
to the basic thrust of the Task Force report and then to summarize very 
briefly its major findings and recommendations.
  --If the nation wants to have a nuclear option in 2030 it must 
        undertake now an initiative of the scale and scope such as that 
        described by the Task Force.
  --Such an initiative will take time, significant public resources, 
        redesign of electricity markets, and sustained and skilled 
        management.
  --There is no shortcut to reestablishing a vigorous U.S. nuclear 
        power industry that could be a major source of carbon-free 
        electricity generation for this country and the rest of the 
        world.
    I draw your attention to following findings and recommendations of 
the Task Force:
  --The U.S. nuclear fleet is aging and there have been a number of 
        early retirements. The early retirements are due to the many 
        aspects of the rules governing electricity rates and dispatch 
        that differ in different parts of the country, which make it 
        challenging to value base load nuclear generation 
        appropriately.

     Examples include the rate structure in wholesale capacity markets, 
        preferential dispatch rules for renewable generation, exclusion 
        of nuclear power from renewable portfolio standards, and rates 
        that are inadequate to assure recovery of investment. The Task 
        Force report discusses a variety of market design measures that 
        could overcome these obstacles. For existing plants the market 
        obstacles need to be addressed at a State level such as has 
        occurred in New York. However, absent market reform, additional 
        early retirements are likely to occur and in most regions of 
        the country there will be no real prospect for new base load 
        generation. The Task Force believes that significant market 
        restructuring is a prerequisite for the success of any nuclear 
        power Initiative.

  --The outlook for construction of new nuclear plants in the United 
        States and other OECD countries is bleak primarily because of 
        the high overnight capital cost of nuclear ($5,000 per kWe) 
        compared to natural gas ($1,000 per kWe), which makes the 
        levelized cost of electricity of nuclear generation 
        significantly higher than the cost of natural gas generation. 
        The cost disparity would be greatly diminished if the carbon 
        free nature of nuclear power were recognized either by direct 
        production payment proportional to the social cost of carbon 
        avoided or by imposition of a carbon charge on natural gas 
        generation emissions. Absent an economy-wide carbon emission 
        charge the Task Force recommends a 2.7/kWe-hr production 
        payment for new nuclear plants.

  --The Task Force has reviewed analyses of the technical readiness of 
        many advanced nuclear reactor systems that have experienced or 
        are experiencing R&D either under the sponsorship of DOE or 
        private firms. The Task Force recommends a two-part program:

     New plants based on proven Light Water Reactor, LWR, technology do 
        not need additional Federal financial support beyond the 2.7 
        cents/kWe-hr production payment mentioned above. DOE assistance 
        with NRC licensing and possibly placing early reactors on DOE 
        or DoD sites would be appropriate and helpful.

     For advanced nuclear reactors based on new technology, the Task 
        Force recommends a four-part program to bring an advanced 
        reactor from early concept to construction of first-of-a-kind, 
        FOAK, commercial scale plant. The Task Force estimates this 
        program will take up to 25 years and cost approximately $11.5 
        billion. However, this estimate is highly uncertain. There is a 
        realistic prospect of achieving a new reactor system that has 
        significant advantages in such attributes as safety, lower 
        cost, and water usage over present day pressurized water LWRs, 
        but this is by no means certain. The Task Force envisions the 
        cost to be split approximately 50--50 between the government 
        and the private sector entity undertaking the project, with the 
        government contribution coming in the earlier phase of the 
        program.

  --A program plan template developed by the Task Force supports the 
        Task Force estimate of the duration and cost of an advanced 
        nuclear reactor development:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
     Some observers may believe the Task Force estimate is excessively 
        high. Note, however, the recommended program includes a $2 
        billion, 5 year, Part I initial R&D period, leading to down 
        selection of one or more advanced technologies for further 
        development, and the Part IV 5 year period for construction of 
        the $3 billion FOAK commercial plant. These two stages are 
        often not explicitly considered. An estimate that does not 
        include these two stages would have an estimated cost and 
        project length in the range of $6.5 billion and roughly 15 
        years.

  --Fuel Cycle and Waste Management. Advanced nuclear reactors will 
        raise different issues from LWRs for the front and back end of 
        nuclear electricity generation. The issues depends on the 
        advanced nuclear technology and the Task Force underscores the 
        importance of addressing fuel cycle and waste management as 
        part of the proposed initiative.

  --The Task Force recommends the creation of an independent quasi 
        public corporation to manage the proposed advanced reactor 
        initiative. The corporation should be funded by a one-time 
        Congressional appropriation and should be exempt from Federal 
        personnel and acquisition regulations. The independent board of 
        directors of the corporation would be subject to Senate 
        confirmation and an annual financial and operational report 
        would be submitted to Congress. Such a structure is appropriate 
        for a highly technical program that takes place over several 
        years and requires stable funding and expert management.

     The 2012 Blue Ribbon Commission on America's Nuclear Future, co-
        chaired by Lee Hamilton and Brent Scowcroft, recommended the 
        creation of a similar organization to manage their recommended 
        program for nuclear waste. Committee staff has made the 
        interesting suggestion of considering the creation of a single 
        entity to manage both the advanced nuclear initiative proposed 
        here and implementation of the Blue Ribbon Commission nuclear 
        waste plan.

  --Nuclear Licensing and Safety. The United States Nuclear Regulatory 
        Commission, NRC, license is the gold standard for safety. 
        However, the NRC recent experience is only with licensing LWRs. 
        Since the time and cost needed to obtain a construction and 
        operating license is large, it is important for the NRC to 
        develop a staged approach for the licensing of advanced 
        reactors. The Task Force believes the NRC has the authority to 
        proceed and should do so now although more some budgetary 
        support will be needed. Some developers may choose to construct 
        and license new advanced reactors abroad, e.g., in China, but 
        U.S. deployment will require full NRC review.

  --International Linkages. For the next one to two decades, the 
        majority of new nuclear deployments will be in Asia, especially 
        in China and India, but also with new entrants such as United 
        Arab Emirates, Jordan, Vietnam, and Turkey. South Korean, 
        Russian, and Chinese firms will do most of the construction. As 
        U.S. and OECD Europe nuclear deployments and exports decline, 
        influence inevitably shifts to China, India, South Korea and 
        Russia. This has important national security consequences for 
        U.S. counter proliferation policies that could be partially 
        reversed by the advanced nuclear initiative proposed by the 
        Task Force. Since a nuclear accident anywhere in the world is 
        an accident everywhere, the United States must continue to 
        encourage safety and security in all countries.

  --Concluding Remark. The Task Force report is unanimous. All members 
        agree that if the nation wants to have a nuclear option in 2030 
        it must undertake now an initiative of the scale and scope such 
        as that described in the report. The Task Force recognizes that 
        there will different views on whether the proposed initiative 
        is ``practical'' (i.e., whether it could gain Congressional 
        support given alternative demands) or ``necessary'' (i.e., 
        whether the future electricity system will depend on 
        distributed generation and there will no longer be a need for 
        base load generation).

    Senator Alexander. Thanks, Dr. Deutch, and thanks to you 
and your committee for your leadership.

                      THE FUTURE OF NUCLEAR POWER

    We'll have a round of 5-minute questions now. And I'll 
begin. Just to reiterate, today we have, what, 99 reactors or 
about that. They produce about 20 percent of all of 
electricity, about 60 percent of our carbon-free electricity. I 
know in the region where I come from, the Tennessee Valley 
Authority expects to have about 40 percent of its electricity 
from nuclear power within a few years, and when combined that 
with its pollution control equipment on coal and new gas 
plants, it's going to be a very clean, lower cost mix of power.
    You're saying, though, that your committee unanimously 
agrees that if we don't take some action like the one the 
committee recommended, that by 2030, as a country, we won't 
have the option of having electricity produced by nuclear 
power. Is that what you're saying?
    Dr. Deutch. Precisely. Precisely. Let me say to you that 
when I joined the Department of Energy, six or seven nuclear 
plants were being fielded every year. We had four U.S. 
manufacturers of reactors, Babcock & Wilcox, Combustion 
Engineering, GE, and Westinghouse, four competing U.S. firms. 
That kind of capability is not going to be there in 2030 for 
sure, no new plants will be built in the United States unless 
they have very favorable regulatory findings about managing the 
market problems that I mentioned to you.
    Senator Alexander. So we would lose 20 percent of our what, 
we call our base load capacity, of our electricity, which is 
base load capacity in this case, and about 60 percent of our 
carbon-free. What is likely to replace that if that were not 
there?
    Dr. Deutch. Natural gas. But--so let me point out to you, 
you, I think, said that--how many--there are 50 or so plants 
which are going to reach 80 years of age?
    Senator Alexander. By 2038.
    Dr. Deutch. And I personally do not think it likely that 
the companies that manage those plants for the NRC are likely 
to relicense these plants from 60 to 80 years. They're the 
oldest plants we have. It would require quite a lot of 
additional investment without any attention to whether--not 
whether their cost of construction is cheaper, but if they 
actually don't have their electricity dispatched for one reason 
or another, they're not going to be there.
    Senator Alexander. Now, to reiterate again, you gave us a 
recommendation and said, ``Unless you do something like the 25-
year $11.6 billion program to create advanced reactors, we 
won't have the option. If we did something like that, we were 
more likely to have the nuclear option.
    Dr. Deutch. Let me pull it back one step further. 
Furthermore, in the first 5 years, we're proposing part 1, is 
the R&D phase. Meanwhile, you have these advanced light water 
reactors coming on. They may fit the bill, but they're going to 
need some help, and there is no certainty that that will be 
there, but there may be somebody who comes forward with a light 
water reactor proposal that's as good as the advanced reactor 
stuff. We're not married to any particular technology. We want 
to see the best technology developed and pushed.

             CREDIT FOR CARBON-FREE ELECTRICITY GENERATION

    Senator Alexander. And you said that one of the 
difficulties--you mentioned five different difficulties in the 
report, but one of the difficulties is that nuclear power 
doesn't get credit for being carbon-free at a time when many 
people think carbon-free electricity is important. And if I 
heard you right, you said that in order to get credit that 
would be equal to the credit given to wind power, for example, 
it would be 2.7 cents per kilowatt hour.
    Dr. Deutch. Roughly. Roughly.
    Senator Alexander. Roughly.
    Dr. Deutch. The advancement tax credit.
    Senator Alexander. Yes.
    Dr. Deutch. Which wind and solar--and, of course, as you 
know, as the penetration of wind and solar increases, there's 
an intermittency cost which has to be carried by somebody on 
the grid one way or the other.
    Senator Alexander. Yes.
    Dr. Deutch. That's not included in these----
    Senator Alexander. So at the moment, taxpayers give wind, 
for example, a 2.7 cents advantage over nuclear power. Both of 
them are equally carbon-free.
    Dr. Deutch. Yes. And I hope that I wouldn't be 
misunderstood to say I think we should take that away from 
wind----
    Senator Alexander. No, I didn't mean that. I might do that, 
but I understand you wouldn't.
    Dr. Deutch. Right. But my point, I want to underscore this, 
carbon-free electricity generation is important in the United 
States and the world, and nuclear is an essential piece of that 
here and elsewhere in the world.
    Senator Alexander. Senator Feinstein.

                   NUCLEAR WASTE STORAGE AND DISPOSAL

    Senator Feinstein. You know, John, I've known you for a 
long time. It's interesting to me because I look at this so 
differently. I look at it from the California perspective. I've 
been to Southern California Edison three times, seen the 
reactors. They have a problem with the steam generator. They 
buy two from a Japanese company. They're faulty. They end up 
having to shut down the plant. They've got 3,300 rods in spent 
fuel pools, no place to put them. They have a big security 
force. They've got a plant on a shelf above the Pacific with 6 
million people living around.
    Then I get a call from Tony Earley, of PG&E (Pacific Gas 
and Electric Company), that they're going to shut down both of 
their reactors because they believe they can now find cost 
effective clean energy to replace their 1,100 megawatts. So I 
have all this spent fuel sitting in metropolitan areas in an 
earthquake-prone State when the rim of fire is going around the 
Pacific with big quakes----
    Dr. Deutch. New Zealand.
    Senator Feinstein. Yes. 7.8. I don't understand the push 
for this and the absence of a push to safely secure the waste. 
And we have tried and he has enormous patience with me, and so 
we have tried year after year to get a pilot waste. We know 
there are people that want to build it, a waste facility, where 
some of this waste--because even if Yucca went ahead, Yucca 
would be filled, and we have 77,000 metric tons of hot waste 
all over the country.
    To me, until you've got a methodology to properly harbor 
this waste for the millennium, it's ridiculous to talk about 
any of this because something is going to happen one day, and 
it's probably on the Pacific Coast, some kind of Fukushima is 
going to happen, and all the probabilities of a big quake are 
up.
    So I sit here and I listen to this, and it's like I'm in a 
fairy tale, that what I see in my State with four of the 
biggest reactors shut down, waste piling up, it makes no sense 
to me. And I don't understand why the industry doesn't help us 
push for waste facilities, and they don't.
    Dr. Deutch. First of all, again I want to remind you, these 
are very sensible questions to raise about the--our task was to 
describe it. You may say--just the waste alone. But I want to 
make some remarks about that. This Congress commissioned a 
group of people under the chairmanship of Brent and Lee 
Hamilton. In 2012, they came out with a report, which was a 
systematic approach to managing the waste.
    You know, Senator, I've got to say I'm old enough to 
remember Lyons, Kansas, and trying to put the wastes away. And 
I'll tell you, that proposal from Congressman Hamilton and 
General Scowcroft is an absolutely sound way to, in an orderly 
fashion, address all of the concerns that you properly are 
raising.
    Senator Feinstein. We had Hamilton in. We sat there with 
the chairs of the Authorizing Committee. We put together a 
nuclear waste policy for this country, which was voluntary. We 
went through three chairs of the Energy Committee working on 
this, oh, from New Mexico, Bingaman, Wyden, and Murkowski. 
Murkowski worked with us all along. We've got a bill in there 
that the two appropriators, the two authorizers, all support, 
and it sits in committee, and the nuclear waste industry does 
nothing to help pass it. Why? I mean, I don't understand this. 
And we see the accidents take place? It's a kind of madness to 
build stuff and not be able to properly dispose of the waste.
    Dr. Deutch. Pass the bill.
    Senator Feinstein. Pass the bill.
    [Laughter.]
    Dr. Deutch. The other thing--the other thing was--now, 
California,--may I say a word about California?
    Senator Feinstein. Sure.
    Dr. Deutch. Which I know little about except that I have 
now two grandsons living in Palo Alto, so I have a much bigger 
interest in their safety.
    Senator Feinstein. Right.
    Dr. Deutch. I don't know how California is going to manage 
without those plants, but I don't think it's so clear that it's 
going to be cost-free, I mean cost now in a risk sense. So I 
would say I don't know the head of PG&E, but I know a lot of 
people in California who know a lot about energy, I don't think 
it's going to be so easy to get that energy. Maybe--maybe----
    Senator Feinstein. All I can say is so far, so good.
    Dr. Deutch. So far, so good is good, and we have to keep at 
it, but I think it's not at all clear how it's going to come 
out.
    Senator Feinstein. Well, I guess I plead with the industry 
to help us get a permanent waste facility, and one won't do it, 
and there have to be a number of them. You know, the WIPP 
(Waste Isolation Pilot Plant) accident, which is now costing in 
the billions of dollars, it's expensive stuff. We deal with the 
waste, with the plutonium and uranium processing, and it's the 
same kind of thing. It comes in, in the hundreds of millions 
and it grows to the billions of dollars to build these 
facilities. So somebody like me that sees what's happening in 
California says, why are we thinking about this if we can't 
provide the infrastructure to do it right?

           U.S. INVOLVEMENT IN INTERNATIONAL NUCLEAR PROJECTS

    Dr. Deutch. We have to be players because there are going 
to be much bigger problems with these issues in India and 
China, and the people who are going to be building these plants 
are going to be Russian firms, Japanese firms, and Chinese 
firms. We have to be players in that.
    Senator Alexander. Thank you, Senator Feinstein.
    Well, Senator Feinstein and I are going to figure out how 
to pass that bill, so we'll----
    Senator Udall.

                        PARIS CLIMATE AGREEMENT

    Senator Udall. Thank you so much, Mr. Chairman, and thank 
you both for your commitment to this and having this hearing.
    Mr. Deutch, thank you. Very interesting testimony up till 
now, and I hope it will continue.
    110 nations have ratified the Paris climate deal, which 
will demonstrate and initiate a need for nuclear power. Here at 
home, more than 360 businesses and investors support the Paris 
climate agreement and a low-carbon energy future for the United 
States.
    I am very concerned about President-elect Trump's 
statements about withdrawing from the Paris agreement. Many 
nuclear companies and supporters recognize the need for nuclear 
energy to meet emission goals, especially in the short term, 
when we need dramatic movement on emissions.
    Won't withdrawing from Paris have potentially negative 
consequences on the future of nuclear power? Could you give me 
a yes or no on that? And then you can expand, or course.
    Dr. Deutch. I don't think so, Senator.
    Senator Udall. You don't think so.
    Dr. Deutch. I don't think I can give you a yes or no 
answer.
    Senator Udall. Okay, go ahead.
    [Laughter.]
    Dr. Deutch. No, no, no, I don't think--I don't think it's a 
question which--my credentials here are to report on the 
Secretary of Energy's Advisory Board, not to make comments----
    Senator Udall. But the expertise that you have directly 
reflects on this question.
    Dr. Deutch. Senator, I'm just not going to be able to be 
helpful to you on this. I mean, I would go in a completely 
different direction, but this is not occasion to address the 
question of Paris, or now they're in Morocco now, right? That's 
where they are, Secretary Moniz and Secretary Kerry, unless 
they're coming back. They've been planning for COP 22.
    Senator Udall. Right. Right.
    Dr. Deutch. But this, I'm not the person--here I'm not the 
person to ask about this.

                SAFELY EXTENDING EXISTING NUCLEAR PLANTS

    Senator Udall. Okay. Today, 20 percent of the U.S. 
electricity, and as the Chairman said, 63.3 percent of our 
carbon-free electricity is produced by approximately 100 light 
water nuclear reactors. However, many of these plants may be 
prematurely closing before their 2030 planned retirement, which 
will result in an increased proportion of energy produced by 
carbon-emitting sources unless other renewables, solar, wind, 
are able to replace the capacity of these LWRs.
    What structural or statutory changes are needed to ensure 
that our current nuclear energy fleet remains a part of the 
U.S.'s carbon-free energy grid, and what structural or 
statutory changes are needed to enable nuclear innovation and 
the modernization of nuclear energy reactors?
    Dr. Deutch. Sir, the answer is that there has to be market 
redesign, and that subject is dealt with in great detail, 
market redesign and some choices, what choices have to be made, 
in the report.
    I would not have the--you wouldn't want to hear me talk 
about all of them, but let me just say that you cannot have the 
circumstances now with around the country, not everywhere, the 
Southeast United States is an exception, you cannot have the 
market you have giving preference to--in the dispatch of 
electricity to non-base-load-generating plants so that they 
cannot make money even if they were cheaper.
    So you have to find some solution to that. That has to be 
done on a State-by-State basis, and it's a very, very tough 
task. But otherwise, you're going to continue to have more 
early retirements like happened in California.
    Senator Udall. The--and I want to ask that first question 
in a little different way. I mean, there are many efforts both 
at the international level, at the State level, and at our 
national level to push us towards renewable sources of energy. 
Pulling back on those do you think would be a good idea?
    Dr. Deutch. No.

                   TECHNOLOGY-NEUTRAL PRICE ON CARBON

    Senator Udall. Okay. Now, nuclear energy has a production 
tax credit incentive, and has had it for many, many years, as 
you know. However, that credit has now expired and the nuclear 
industry is preparing to ask Congress for new forms of support.
    On the other hand, while renewable energy credits were 
recently extended, as you know, they are being phased out, and 
there is no guarantee they will be extended again. Rather than 
Congress debating and continuing new technology-specific tax 
credits, like the nuclear PTC or renewable PTCs, would the best 
policy be a technology-neutral price on carbon, which would 
promote all clean energy technologies, including nuclear 
renewables and carbon capture and sequestration?
    Dr. Deutch. You say--I didn't quite get the last sentence, 
sir.
    Senator Udall. The last is--and it's a long one, so I'm 
going to say it again here, so I understand that.
    [Laughter.]
    Dr. Deutch. Thank you, sir.
    Senator Udall. Rather than Congress debating and continuing 
new technology-specific tax credits, that I mentioned earlier, 
like the nuclear PTC or renewable PTCs, would the best policy 
be a technology-neutral price on carbon, which would promote 
all clean energy technologies including nuclear, renewables, 
and carbon capture and sequestration?
    Dr. Deutch. Absolutely, yes.
    Senator Udall. And that's----
    Dr. Deutch. And I would include--I would include in that 
all the oil and gas drilling things as well, which gives 
subsidies for certain kinds of fossil fuels. The answer is yes. 
A single carbon charge, how the revenue is spent is critical to 
how it looks elsewhere.
    But the answer is yes, it would be the most efficient way 
to do it, and that's--some members of my Task Force think 
that's exactly what should be done, but that's not part of our 
report because we are asked to frame an initiative, not to say 
balance it with all these things we're now discussing.
    Senator Udall. Yes. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Dr. Deutch, for being here and for your work 
on the report. I have to say I share the issues that you raised 
in your testimony with respect to the importance of nuclear 
power as we're addressing our need to reduce carbon emissions, 
not only in the U.S., but throughout the world.
    I also share your concerns about the importance of American 
technology when it comes to nuclear safety around the world. I 
remember talking to one of our engineers from the Seabrook 
Nuclear Power Plant in New Hampshire, who relayed to me what he 
was doing with Russia after Chernobyl in an effort to try and 
address safety there.
    So I think those are very important and very relevant as we 
think about our policy. And I'm disappointed, as you've heard 
from several of the people here, that--I served on the Energy 
Committee under Chairman Bingaman when we produced an energy 
bill that would have addressed nuclear power in the future. 
That never made it to the floor. We have another bill that's 
currently being negotiated. It's not at all clear if that's 
going to make it out of Congress. That also addresses the 
future of nuclear power in this country. So I think we have not 
been responsive in the way that we should in order to address 
the future challenges.
    In New England, 30 percent of our total electricity comes 
from nuclear power, so the retirement of nuclear generators is 
of particular concern. And you recommend significant reforms in 
the energy and electricity markets to help value the base load 
power that's produced by nuclear reactors.

                       ELECTRICITY MARKET REFORM

    I wonder if you could discuss in a little more detail than 
you did in the response to Senator Udall what those kinds of 
reforms should look like, because as we look at New England's 
wholesale electric operator, ISO New England, I think it's a 
challenge that we have both now and are looking at in the 
future. So what kinds of things are you talking about?
    Dr. Deutch. Thank you, Senator. Let me say that I'm not 
going to do as good a job as I could if I were here with some 
of my Task Force members who really specialize more in this 
than I do.
    But let me just take the case of Illinois, where they 
closed I think two reactors because there was no way for them 
to dispatch the electricity. At night, wind will even bid 
negative prices so that they get dispatched in order to earn 
the 3 cents or whatever it is per kilowatt hour production 
payment, production tax credit, that they get.
    So the fact is you have to fix that. You cannot have a 
situation where some sources of technology get dispatched with 
a favorable rate because of a government subsidy, others don't 
have the government subsidy, they can't--if they can't dispatch 
it. So that's a specific example.
    Many of the States do not acknowledge the kinds of rates 
that need to be set given whatever dispatch rules they have so 
that a company can get back its investment over time. That's a 
negotiation between the regulatory commission and the company, 
but there is a balance there. It's not being met in many 
places.
    Every State is different. So some parts of the country, 
like the Southeast, are much more accommodating. But without 
market reform of some kind, this ain't going to happen.
    And again here's a situation, everybody in the committee is 
unanimous on this, and our Task Force is unanimous on this.
    Senator Shaheen. Well, should FERC (Federal Energy 
Regulatory Commission) have a role in this? What should their 
role be in trying to look at this issue?
    Dr. Deutch. I'm going to get myself into trouble, but I 
think, yes, I think FERC should have a much larger role in 
this. I guess there's a Supreme Court decision that gives them 
more ability to go and--but, you know, we have a long jealously 
guarded history of having local and regional utilities set 
their own rates on their own basis. But fundamentally, this 
does, in my mind, require more of a role for FERC, but it's 
another battle that I'm sure you guys would have to face.

          SAFELY EXTENDING LICENSES OF EXISTING NUCLEAR PLANTS

    Senator Shaheen. I'm almost out of time, but I also wanted 
to raise an issue that we're seeing in New Hampshire with the 
Seabrook Nuclear Power Plant because they will come up for 
relicensing I think in the early 2020s. And they've encountered 
some issues concerning concrete degradation, the ASR, alkalized 
silica reaction, and they have led to concerns about the safety 
of the plant and the relicensing process.
    So is this something that the committee, looking at the 
future of nuclear power, has looked at? Are there--how should 
we address safety issues like that and----
    Dr. Deutch. I believe Senator, that you're making exactly 
the same point that I tried to make earlier. When these plants 
turn to be 80----
    Senator Shaheen. Well, this one is not going to be 80. It's 
a relatively young----
    Dr. Deutch. But they're all going to be 80, but as they 
turn--as they get to be older, questions are going to be raised 
that would be applied--new plants would have to conform to, and 
now you have the question about, are you willing to make an 
assessment of the risk and say to them, ``No, we're not going 
to relicense you, or you have to repair this''? And that's 
going to be done on a case-by-case basis by the NRC. I don't 
know the circumstances in Seabrook, although at one time I knew 
it pretty well, but I don't know it anymore. But those 
questions and concrete is a big deal.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you.
    Dr. Deutch, you've been terrific with us, and it's good to 
have your experience and your straightforwardness here. I think 
I'm speaking for all of us, we thank you and your committee for 
your time and work, and Secretary Moniz, for impaneling you. If 
you have additional comments that you would like for us to 
consider, why, we would welcome your sending those to us after 
you leave.
    I think it's time now to go to the second panel. So we'll 
excuse you and ask Dr. McKinzie and Dr. Icenhour, who I 
introduced earlier, to come forward.
    Dr. Icenhour is the Associate Laboratory Director of the 
Nuclear Science and Energy Directorate at Oak Ridge National 
Laboratory, and Dr. McKinzie, Nuclear Program Director and 
Senior Scientist at Natural Resources Defense Council.
    Dr. Icenhour, we'll start with you, if we may. And I'll ask 
each of you to summarize your testimony in about 5 minutes, if 
you will, which will give us time to consider--to ask 
questions. And Senator Feinstein has an important appointment 
at 4:00, so we'll conclude either by then or not long after 
that.
    Dr. Icenhour.
STATEMENT OF DR. ALAN S. ICENHOUR, ASSOCIATE LABORATORY 
            DIRECTOR, NUCLEAR SCIENCE AND ENGINEERING 
            DIRECTOR, OAK RIDGE NATIONAL LABORATORY
    Dr. Icenhour. Thank you, Chairman Alexander and Ranking 
Member Feinstein. I am very pleased to participate in this 
panel today.
    At Oak Ridge National Laboratory, I'm privileged to lead a 
very talented group of scientists and engineers as we address 
scientific and technological challenges in both fission and 
fusion energy, radioisotopes, nuclear modeling and simulation, 
and nuclear security.

                    NUCLEAR RESEARCH AND DEVELOPMENT

    Our nuclear fission R&D efforts include advanced reactor 
technologies, light water reactor sustainability, accident-
tolerant fuels, used nuclear fuels, modeling and simulations, 
such as the Consortium for Advanced Simulation of Light Water 
Reactors, materials and extreme environments, manufacturing and 
maintenance technologies, and safety analysis and licensing 
approaches. This expertise enables broader contributions to 
nuclear security, safeguards, and non-proliferation related to 
R&D.
    We are all familiar with the so-called nuclear cliff, which 
is the point in time when the current fleet of plants rapidly 
retires. So how will we replace that capacity? How can we 
rapidly innovate and enable affordable and reliable advanced 
reactor technologies?
    The United States has historically led nuclear energy 
innovation, and I believe that we must continue to do so. 
Development of the next generation of reactors will provide 
clean, secure, and affordable energy, and will ensure that the 
U.S. industry is positioned to compete internationally.
    Rapid deployment of advanced nuclear systems requires a 
science-based design and licensing approach. With contemporary 
science-based tools and techniques, development can be 
accelerated in laboratory and high-performance computing 
environments, and this can also accelerate licensing.
    Materials used in nuclear systems directly affect 
economics, performance, and safety. The opportunity is at hand 
for a new generation of reactors that will also employ a new 
generation of materials.
    We also have the opportunity to see into reactors as never 
before. Modern instrumentation and sensing techniques can 
optimize operations and further enhance safety. Predictive 
modeling and simulation tools provide a new basis for 
regulatory action and licensing.
    Innovations can be introduced more quickly and designs can 
evolve on the drawing board. Recognizing the challenges ahead, 
we must move forward deliberately to avoid the nuclear cliff. 
Future U.S. policy for nuclear energy will be critical. 
Decisions are needed with specific goals. Rapid innovation will 
be essential and requires collaboration among the national 
laboratories, industry, and universities.
    We must also leverage existing assets. For example, Oak 
Ridge National Laboratory has unique facilities, such as our 
research reactor and hot cells for the safe handling, 
experimentation, and analysis of nuclear materials.
    ORNL (Oak Ridge National Laboratory) is working with Idaho 
and Argonne National Laboratories to implement the Department 
of Energy's Gateway for Accelerated Innovation in Nuclear, or 
GAIN, initiative, which is providing easier access to the 
technical capabilities of the national laboratories.
    The timelines and economics are a hurdle for new reactor 
technologies, but they can be overcome through approaches such 
as increased use of modeling and simulation, advanced 
manufacturing techniques, and development of new materials.
    There is a growing national interest in the deployment of 
advanced reactors and the associated fuel cycle, as evidenced 
by the number of summits, symposia, workshops, hearings, and 
other events focused on this. Such events reflect a collective 
sense of urgency. National laboratories are a vital part of 
meeting the challenges for the future of nuclear power.
    A sustained R&D program is needed with clear long-term 
goals. Such program will retire technical and regulatory risk, 
improve economic competitiveness, develop the next generation 
of scientists and engineers, establish advanced facility 
capabilities, and address the entire fuel cycle.
    We are prepared to help solve these compelling challenges, 
and we are partnering to enable rapid innovation. Together, we 
can succeed in bringing the best of our Nation's scientific 
understanding and engineering capabilities to bear on deploying 
the next generation of carbon-free nuclear energy technologies.
    Thank you for the opportunity to share my thoughts with the 
subcommittee. I request that my written testimony be made a 
part of the public record. And I would be happy to answer your 
questions.
    [The statement follows:]
             Prepared Statement of Alan S. Icenhour, Ph.D.
    Thank you Chairman Alexander, Ranking Member Feinstein, and Members 
of the subcommittee. I am Dr. Alan Icenhour, Associate Laboratory 
Director for Nuclear Science and Engineering at the Oak Ridge National 
Laboratory (ORNL), and I am pleased to participate in this hearing with 
this distinguished panel today.
    Oak Ridge National Laboratory is the largest U.S. Department of 
Energy (DOE) science and energy laboratory, conducting basic and 
applied research to deliver transformative solutions to compelling 
problems in energy and security. ORNL's diverse capabilities span a 
broad range of scientific and engineering disciplines, enabling the 
Laboratory to explore fundamental science challenges and to carry out 
the research needed to accelerate the delivery of solutions to the 
marketplace. ORNL supports DOE's national missions of:
  --Scientific Discovery.--We assemble teams of experts from diverse 
        backgrounds, equip them with powerful instruments and research 
        facilities, and address compelling national problems;
  --Clean Energy.--We deliver technology solutions for carbon-free 
        energy sources such as nuclear fission/fusion and solar 
        photovoltaics, as well as energy-efficient buildings, 
        transportation, and manufacturing. We also study biological, 
        environmental, and climate systems in order to advance 
        biofuels, while exploring the impacts of all of these 
        technologies;
  --Security.--We develop and deploy ``first-of-a-kind'' science-based 
        security technologies to make the world a safer place.
    ORNL supports these missions through leadership in four major areas 
of science and technology:
  --Neutrons.--We operate two of the world's leading neutron sources 
        that enable scientists and engineers to gain new insights into 
        materials and biological systems;
  --Computing.--We accelerate scientific discovery through modeling and 
        simulation on powerful supercomputers, advance data-intensive 
        science, and sustain U.S. leadership in high-performance 
        computing;
  --Materials.--We integrate basic and applied research to develop 
        advanced materials for energy applications;
  --Nuclear.--We advance the scientific basis for 21st century nuclear 
        fission and fusion technologies and systems, and we produce 
        isotopes for research, industry, and medicine.
    As the Associate Laboratory Director for Nuclear Science and 
Engineering, I am privileged to lead a talented group of scientists and 
engineers as we address scientific and technological challenges in both 
fission and fusion energy, radioisotopes, nuclear modeling and 
simulation, and nuclear security. Our nuclear fission research and 
development (R&D) efforts span the nuclear fuel cycle and address the 
current fleet, as well as future reactors. These efforts include:
  --advanced reactor technology development and design;
  --light water reactor sustainability;
  --research and development of nuclear fuels--increased accident 
        tolerance and understanding the science of used nuclear fuel;
  --modeling and simulation, including integrated multiphysics 
        modeling, developing new physics codes, and exploring exascale 
        applications;
  --measurement and analysis of nuclear data;
  --understanding the science of materials in extreme environments;
  --development of new manufacturing and maintenance technologies; and
  --safety analysis and licensing approaches.
    The expertise we have established in these areas enables our 
broader contributions in the areas of nuclear security, safeguards, and 
nonproliferation-related R&D. As a result, ORNL in partnership with 
other DOE National Laboratories is well positioned for key 
contributions toward the R&D needed to meet our Nation's energy policy 
objectives for the next generation.
    We recognize that future energy demands will continue to require a 
mixture of sources that are closely and efficiently tailored to 
regional resources and needs. The shift to carbon-free energy sources 
also tells us that nuclear must play a role if we are to meet growing 
needs, particularly in urban and industrial environments where the 
baseload demand requires the availability of reliable, large-scale 
electricity production. As we transition toward a clean-energy economy, 
nuclear energy must therefore continue to be a meaningful and sustained 
component of the overall U.S. energy balance.
  ornl supports nuclear power as a continued carbon-free energy source
    Nuclear energy is the largest clean-air energy source in the U.S. 
and the only such source that produces large amounts of electricity 
around the clock. It is a secure source that is not subject to changing 
weather conditions, unpredictable fuel cost fluctuations, or dependence 
on foreign suppliers. Nuclear power plants produce no air pollution and 
do not emit greenhouse gases. These features combine to make nuclear 
energy an essential part of the overall global energy system. In the 
U.S. alone, it already provides almost two-thirds of our emission-free 
generation and about 20 percent of total electricity, all while 
producing at a greater than 90 percent capacity factor.\1\
---------------------------------------------------------------------------
    \1\ Nuclear Energy Institute, 2015 statistics--In the U.S. nuclear 
energy provides: (a) 62.4 percent of emission-free generation; (b) 19.5 
percent of electricity, and; (c) produces at a 92.2 percent capacity 
factor.
---------------------------------------------------------------------------
    And yet many challenges remain for nuclear energy--both for the 
existing U.S. fleet, as well as for new reactors. The near-term future 
of the commercial nuclear power industry hinges upon furthering power 
uprates, realizing higher fuel burn-up, and operating the existing 
plants for longer lifetimes--all while dealing with market challenges, 
and also providing confidence in enhanced nuclear safety for both the 
current fleet and the next generation of nuclear power technology. In 
the longer term, the next generation of nuclear power technologies 
offers the opportunity to expand upon past successes by further 
improving performance, safe operations, and fuel efficiency, while 
contributing an even greater share of baseload electric power that is 
carbon-free and environmentally sound.
Avoiding the ``Nuclear Cliff''
    We are all familiar with the so-called ``nuclear cliff,'' which is 
the point in time when we will rapidly see retirements of the current 
fleet of plants as they reach the end of their operating licenses. 
Recently, one new plant has come on line (Watts Bar Unit 2) and four 
plants are in the construction phase (Vogtle 3&4 and Summer 2&3). 
However, six plants have also been closed since 2013,\2\ with the most 
recent, Fort Calhoun, shutting down on October 24, 2016. While some 
remaining plants have been granted marginal capacity upratings, there 
are also further plants under threat of closure. From a practical 
perspective, nuclear electric generating capacity replacement is not 
yet robust and the ``nuclear cliff'' remains a persistent challenge.
---------------------------------------------------------------------------
    \2\ The Vermont Yankee Nuclear Power Plant was shut down on 
December 29, 2014. Another four reactors were permanently closed in 
2013 before their licenses expired: San Onofre 2 and 3 in California, 
Crystal River 3 in Florida, and Kewaunee in Wisconsin. The Fort Calhoun 
plant shut down on October 24, 2016.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Effect of operating life extensions on current U.S. nuclear 
generating capacity, depicting original operating license (blue); 
current operating license (brown), which reflects only the plants that 
have been granted a license renewal; all operating plants assumed to 
have one license renewal (grey); and all operating plants assumed to 
have two license renewals (yellow)
    The question is how will we replace that retiring capacity? How can 
we rapidly innovate and enable affordable and reliable advanced reactor 
technologies?
                 the next generation of nuclear energy
    The United States has historically led nuclear energy innovation, 
and I believe that we must continue to do so. Nuclear energy has 
important impacts in terms of our national economy and security. More 
broadly, nuclear technology capabilities enable many other uses within 
science, industry, and medicine, such as high energy physics research, 
deep space missions, imaging, analysis, and isotope-based disease 
treatment. Our efforts in this area also invigorate our Science, 
Technology, Engineering, and Math (STEM) capabilities, as we prepare 
the next generation of scientists and engineers. Our common objective, 
across the government, academic, and industrial sectors, must be to 
bring the best of our Nation's scientific understanding and engineering 
prowess to bear on deploying the next generation of nuclear energy 
technologies. Meeting this objective will enable nuclear power to 
provide clean, secure, and affordable energy to meet growing demand, 
and will ensure that U.S. industry is positioned to compete 
internationally.
    While there is a huge potential global impact by deploying advanced 
nuclear systems rapidly, there are also scientific questions that must 
be addressed in the process. By using a science-based design and 
licensing approach, we can improve upon history, rather than repeat it. 
The existing fleet of U.S. nuclear plants was developed using empirical 
engineering approaches. That is to say, systems were initially 
designed, built, and tested; designs were then marginally improved as 
operating experience was gained. Billions of dollars were invested in 
generating operating data to determine what worked best. Because of 
advancements in scientific capabilities, we have the opportunity to 
take a new approach. With contemporary science-based tools and 
techniques, the development phase can be rapidly accelerated in 
laboratory and high-performance computing environments. Similarly, 
there are also opportunities to accelerate the licensing phase.
    The materials selected for use in nuclear systems directly affect 
the economics, performance, and safety of power plants. By using new 
materials, we can improve upon each of these important factors. The 
current U.S. reactor fleet relied upon alloys available from 1950s and 
1960s technology which have incrementally improved. There has been a 
high bar for introducing new materials into reactors due to regulatory 
requirements that discourage design change. The opportunity is now at 
hand to move to a new generation of reactors that will also employ a 
new generation of advanced materials that can increase safety while 
reducing cost.
    Finally, we have the opportunity to see into reactors as we could 
never see before. Obtaining measurements in nuclear environments is 
particularly difficult due to rapidly changing temperature, fluid 
dynamics, and radiological environments. However, the information 
obtained through measurements is critical to our understanding of 
limits to operating conditions and system lifetime. With modern 
instrumentation and advanced sensing techniques, a new approach can be 
taken to optimizing operations and further enhancing safety.
    The DOE National Laboratories are the best organizations to assist 
in rapidly moving nuclear science and engineering toward these new 
horizons--because the labs rely on the science-based approach, and they 
field world-class facilities and capabilities. Through research, 
development, and demonstration of predictive modeling and simulation 
tools, the labs are largely displacing the old empirical approach. This 
provides for a new basis for regulatory action and licensing for the 
next generation of nuclear systems. An important outcome is that 
innovations can be introduced more quickly, and advanced designs can be 
confidently evolved ``on the drawing board'' without the historic need 
for a large investment in systems development and testing to gather 
experimental observations.
    Extrapolating atomic-, nano-, and micro-scale processes to 
engineering-scale properties and performance represents a significant 
scientific challenge that can be met by the National Laboratories. Not 
only does engineering qualification of new materials take a long time, 
but more than 60-year service lifetimes are also difficult to 
demonstrate. In order to extrapolate what we can do in our laboratories 
with modern scientific instruments to long-term engineering 
performance, we must continue to improve our understanding of three key 
domains:
  --Understanding the mechanisms of material failure enables 
        improvements to complex alloy chemistry and permits tailoring 
        of new materials to the challenges of operating environments;
  --Understanding long-term material performance provides the basis for 
        accurate predictive modeling and thus reduces uncertainty in 
        life cycle analysis; and
  --Accurately characterizing harsh conditions, such as radiation, high 
        temperatures, and corrosion, further increases the fidelity and 
        thus the reliability of our understanding of engineering 
        performance.
    While progress in modeling and simulation is rapidly advancing at 
the National Laboratories, the need for empirical measurements in 
extreme nuclear environments will never be entirely overcome. Theory 
advances most rapidly when validation through testing remains 
available. Currently, reactor and experimental instrumentation is 
limited. As a result, reactor operation and safety must all be designed 
and quantified up front. In the future, the ability to measure detailed 
environment conditions can be used in real time to inform operations 
and safety. In-core measurements during irradiation testing and new 
characterization tools will also improve the development process. 
Several related issues also need to be addressed, including:
  --Survivability of sensors in extreme environments;
  --Being able to place sensors in key locations;
  --Transmitting data through vessels;
  --Reliability of instrumentation system; and
  --Being able to introduce a large number of sensors.
    Recognizing the challenges ahead, we must nonetheless move forward 
deliberately and decisively if we are to avoid the ``nuclear cliff,'' 
which shows the rapid retirement of a large capacity in a relatively 
short period of time, i.e., 100 GWe starting in the early 2030s 
(depending upon subsequent license extensions for some plants). This 
21st century real and present threat creates a palpable sense of 
urgency that must be translated into action if we are to successfully 
modernize our nuclear power generating capacity on the needed 
timescale.
The Road Ahead
    Recently, the Secretary of Energy Advisory Board (SEAB) assembled a 
Task Force that provided expert recommendations for a ``Four-Phase 
Advanced Nuclear Reactor Program.'' \3\ The phases proceed from 
technology selection through demonstration plant licensing and 
culminate in plant operations in preparation for private 
commercialization. The SEAB report points out that there are many 
challenges that need to be addressed--some are technology-based, while 
others are policy-based. The Task Force midpoint estimate is that such 
a four-phase program would require about 25 years. The future U.S. 
policy for nuclear energy will be critical. Given the challenges and 
timeline, decisions are needed with specific goals. It is also clear 
that rapid innovation will be essential.
---------------------------------------------------------------------------
    \3\ Secretary of Energy Advisory Board, Report of the Task Force on 
the Future of Nuclear Power, September 22, 2016, p. 3.
---------------------------------------------------------------------------
    the vital role of the national laboratories in rapid innovation
    If we are to achieve practical realization of ubiquitous carbon-
free energy in the next generation of nuclear power, then rapid 
innovation in nuclear science and engineering is an undeniable 
prerequisite. While the challenges are great, our national capabilities 
have also been advanced as a direct result of Federal investments. We 
have already demonstrated some of the tools needed to accomplish rapid 
innovation (e.g., modeling and simulation in a high-performance 
computing environment), but success will require more than just 
advanced tooling. Rapid innovation also relies heavily on two critical 
factors:
  --Intensive collaboration across the affected sectors--government, 
        academia, and industry; and
  --DOE National Laboratory strategic positioning to assist in 
        systematically identifying and overcoming technical challenges 
        through a science-based approach.
    National Laboratories play an important role by providing both the 
expertise and facilities to work on some of the Nation's most 
challenging problems. And, with respect to nuclear energy, the National 
Laboratories are important as we innovate. The laboratories possess 
unique nuclear technology expertise, ranging from very fundamental 
science to applications. This expertise must be preserved and further 
developed for the long term.
    The National Laboratories are distinguished by their demonstrated 
ability to assemble large teams of experts from a variety of scientific 
and technical disciplines in order to tackle compelling national 
problems. They also design, build, and operate powerful scientific 
facilities that are available to the international research community. 
They work in partnership with universities and industry to train the 
future science and engineering workforce and transfer the results of 
their R&D to the marketplace.
    Intensive collaboration on the next generation of nuclear science 
and technology will require:
    Advancing Progress Through National Laboratory Partnerships.--ORNL 
        works in close partnership with Idaho National Laboratory, 
        Argonne National Laboratory, and other national laboratories to 
        define and solve complex nuclear science and engineering 
        problems--drawing upon the collective national capacity.

    Advancing Technology Through Industrial Partnerships.--ORNL works 
        closely with industry to move research into the marketplace and 
        collaborates with other private research institutions to expand 
        capabilities, increase the availability of facilities and 
        expertise, and create research and development opportunities 
        for both large institutional labs and small innovative 
        entrepreneurs.

    Advancing Science Through University Partnerships.--ORNL partners 
        with more than 250 universities and includes several major 
        Southeastern research universities on the UT-Battelle 
        management team. Our core university partners--Duke, Florida 
        State, Georgia Tech, North Carolina State, Vanderbilt, 
        University of Virginia, and Virginia Tech, in addition to the 
        University of Tennessee and Oak Ridge Associated Universities--
        ensure broad engagement of faculty and students in ORNL's 
        science programs.

    Advancing Development by Leveraging Existing Assets.--ORNL has 
        unique facilities that enable nuclear R&D. Facilities such as 
        our hot cells and glove box facilities allow for the safe 
        handing, experimentation, and analysis of nuclear materials. 
        Such assets are vital to ensure our fundamental understanding 
        of nuclear materials and technologies and to further 
        innovation. Additionally, we use our world-class capabilities 
        such as the Spallation Neutron Source, the High Flux Isotope 
        Reactor, and the Titan high-performance computer to explore 
        materials and phenomena that are important for nuclear 
        applications.

    Using the Gateway for Accelerated Innovation in Nuclear (GAIN).--
        ORNL is working with Idaho National Laboratory and Argonne 
        National Laboratory to implement the DOE's GAIN initiative, 
        which provides the nuclear community easier access to the 
        technical capabilities of the National Laboratories, with the 
        goal of enhancing innovation and moving technologies closer to 
        commercialization. GAIN enables access to nuclear and 
        radiological facilities, testing capabilities, and 
        computational capabilities; as well as information and data.
    As reflected by GAIN, in order to deploy new reactor technologies, 
we must change our approach. The timelines and economics are a hurdle, 
but they can be overcome through new methods such as increased use of 
modeling and simulation, use of advanced manufacturing techniques, and 
development of new materials.

    Modeling and Simulation has an Important Role to Play.--modeling 
        and simulation along with data exploration have joined 
        experiment and theory as the third and fourth pillars of 
        science, allowing researchers who make the most of 
        supercomputers to quickly draw conclusions from complex and 
        copious data. Large-scale computing underpins scientific 
        disciplines including materials science, chemistry, plasma 
        physics, astrophysics, biology, climate research, and nuclear 
        fission/fusion. ORNL supercomputers and support systems for 
        data generation, analysis, visualization, and storage 
        illuminate phenomena that are often impossible to study in a 
        laboratory. Simulations allow virtual testing of prototypes 
        before their actual construction and speed the development of 
        technology solutions.

    Advanced Manufacturing Techniques will Add Efficiencies.--we are 
        also exploring new approaches to the production of qualified 
        components for nuclear energy service, such as additive 
        manufacturing (AM). ORNL is collaborating with equipment 
        manufacturers and end users to advance state-of-the-art 
        technologies and revolutionize the way products are designed 
        and built using AM technology. Drawing on its close ties with 
        industry and world-leading capabilities in materials 
        development, characterization, and processing, ORNL is creating 
        an unmatched environment for breakthroughs in AM.

    Advances in Materials Science are Essential.--ORNL is a premier 
        materials laboratory where we are researching ways to reduce 
        the time from discovery to use. Additionally, we are exploring 
        how to extrapolate short time experiments and measurements to 
        the much longer times required for components in service. 
        Scientific investigation with neutrons gives researchers 
        unprecedented capabilities for understanding the structure and 
        properties of materials important in biology, chemistry, 
        physics, and engineering. ORNL provides two of the most 
        powerful neutron science facilities in the world--the 
        Spallation Neutron Source and the High Flux Isotope Reactor. 
        Through materials research, scientists are discovering 
        remarkable ways to address our energy needs.
The CASL (Consortium for Advanced Simulation of Light Water Reactors) 
        DOE Energy Innovation Hub Experience
    The ORNL experience in conceptualizing, organizing, and executing 
the CASL mission to provide leading edge modeling and simulation 
capability to improve the performance of current operating light water 
reactors represents a valuable model. This is because many of the rapid 
innovation aspects discussed above were successfully implemented in the 
CASL methodology. Collaboration via partnerships across the government, 
academic, and industrial sectors of the nuclear energy community 
remains a core management principle of CASL, and multiple DOE National 
Laboratories (ORNL, INL, SNL, LANL) are founding partners with critical 
roles in addressing specific technical challenges. CASL has been a 
widely acknowledged success as a direct result of these practices.
    CASL has been developing the Virtual Environment for Reactor 
Applications (VERA) software suite, which was recently recognized with 
an R&D 100 award. VERA simulates nuclear reactor physical phenomena 
using coupled multi-physics models including neutron transport, 
thermal-hydraulics, fuel performance, and coolant chemistry. These CASL 
tools are now being used in several areas for reactor analysis related 
to confirmation of vendor analysis tools, analysis of reactor startups, 
assessment of the risk of Corrosion-Related Unidentified Deposits 
(CRUD) Induced Power Shift (CIPS), applications to investigate fuel 
performance, and special studies that provide the physics simulation 
and fidelity to address issues that industry codes cannot. Test stands 
have been deployed at Westinghouse Electric Company, the Tennessee 
Valley Authority, and the Electric Power Research Institute to enable 
direct industry participation in the test and evaluation stage of CASL 
technologies.
    Examples of CASL applications include:
  --Simulation of 14 cycles (20 years) of TVA Watts Bar Unit 1 
        operation and simulation of Watts Bar Unit 2 startup;
  --Westinghouse simulation of the AP1000<SUP>TM</SUP> startup and 
        first cycle;
  --CRUD and CIPS simulations by Duke Energy, AREVA, and NuScale; and
  --Modeling of accident tolerant fuel designs at Westinghouse.
                    setting the pace for the future
    To further the development of advanced reactor technologies, DOE 
has established two projects under a Funding Opportunity Announcement 
(FOA), and ORNL is participating in both projects. In the advanced 
reactor arena, we are partners on:
  --Molten Chloride Fast Reactor: A project led by Southern Company 
        Services, a subsidiary of Southern Company, focuses on molten 
        chloride fast reactors (MCFRs). The effort includes ORNL, 
        TerraPower, the Electric Power Research Institute, and 
        Vanderbilt University. The liquid-fueled MCFR is a molten salt 
        reactor design that offers advantages in terms of its 
        simplicity, fuel cycle, and efficiency. Compared to other 
        advanced reactor concepts, MCFRs could provide enhanced 
        operational performance, safety, security, and economic value.

  --Xe-100 Pebble Bed Advanced Reactor: ORNL is also supporting a 
        project led by X-energy to develop the fuel manufacturing 
        methodology needed to supply the Xe-100 Pebble Bed Advanced 
        Reactor. Partners on the project include BWX Technologies Inc., 
        Oregon State University, Teledyne-Brown Engineering, SGL Group, 
        and Idaho National Laboratory. The next-generation design, 
        advanced safety features, and small footprint of the pebble bed 
        high-temperature gas-cooled reactor will enable such a reactor 
        to serve a wide array of community and industry needs while 
        ensuring public safety.
Growing National Interest in Advanced Reactors
    Collectively, our efforts must consider the entire fuel cycle 
including the supply chain. Innovation and deployment of reactors does 
not begin and end with just the reactor. There is clearly growing 
national interest in the deployment of advanced reactors and the 
associated fuel cycle as evidenced by the number of summits, symposia, 
workshops, and other events over the past several years. Last month, at 
ORNL we hosted our second Molten Salt Reactor Workshop, which was 
attended by 185 representatives from industry, academia, and 
government. In February 2016, we hosted the Nuclear Infrastructure 
Council's Advanced Reactor Technical Summit III, which brought together 
another 190 technologists focused on topics and methods for improving 
the cost and deployment timeframe of advanced reactors. Once again, 
industrial, academic, and government organizations were all 
represented.
    Such events reflect the collective sense of urgency in the electric 
power generating community about the next steps for nuclear energy, and 
the National Laboratories are an important part of those next steps.
                               conclusion
    Nuclear energy faces a number of challenges and the National 
Laboratories play a vital role in helping to meet those challenges. A 
sustained R&D program is needed, with clear long-term goals. Effective 
R&D programs will retire technical and regulatory risk, improve 
economic competitiveness, develop the next generation of scientist and 
engineers, establish advanced facility capabilities, and address the 
entire fuel cycle. Rapid innovation will also be essential to achieve 
success on the time-scale needed to replace capacity and to enable 
deployment of new technologies.
    ORNL is prepared to help address these compelling national 
challenges, and we have already begun partnering with other National 
Laboratories, industry, and academia to enable the rapid innovation 
that will be required. With your continued support, together we can 
succeed in bringing the best of our Nation's scientific understanding 
and engineering prowess to bear on deploying the next generation of 
carbon-free nuclear energy technologies.
    Thank you for the opportunity to share my thoughts with the 
Subcommittee. I request that my written testimony be made a part of the 
public record, and I would be happy to answer your questions.

    Senator Alexander. Thanks, Dr. Icenhour.
    Dr. McKinzie, welcome.
STATEMENT OF DR. MATTHEW MCKINZIE, NUCLEAR PROGRAM 
            DIRECTOR AND SENIOR SCIENTIST, NATURAL 
            RESOURCES DEFENSE COUNCIL
    Dr. McKinzie. Chairman Alexander, Ranking Member Feinstein, 
and members of the subcommittee, thank you for providing the 
Natural Resources Defense Council, NRDC, with this opportunity 
to present our views on the future of nuclear power.
    NRDC is a national non-profit organization of scientists, 
lawyers, and environmental advocates with over 2 million 
members and supporters. NRDC has been engaged with nuclear 
energy and nuclear weapons since our founding in 1970, and NRDC 
maintains a nuclear program, which I direct.

                        FUTURE OF NUCLEAR POWER

    The future of nuclear power in the United States is 
uncertain and faces significant challenges. As we've heard, 
most reactors will reach the end of their licenses and close in 
the decades ahead, and some are at risk of near-term shutdown.
    In addition to economic challenges, difficulties for 
nuclear power arise from safety, security, proliferation, and 
nuclear waste. And the role of nuclear power as a low-carbon 
energy resource is being superseded by advances in energy 
efficiency and renewable energy technologies.
    Only four reactors are currently under construction in the 
United States, four large AP1000 reactors, in Georgia and South 
Carolina. One type of small modular reactor, the NuScale SMR, 
may soon submit a license application to the NRC. So with many 
nuclear closures and few nuclear builds, the future of nuclear 
energy is one now of decline.
    Today's hearing considers what are called advanced nuclear 
reactors and how they could impact the future of nuclear power 
and government support for their research and development.
    To summarize my written testimony in a few words would be, 
be very cautious on advanced nuclear. First, see what results 
we get with our current government investment in new nuclear 
projects, the AP1000s, the NuScale SMR, and, importantly, 
prioritize unfinished business for nuclear, the waste issue, 
among others.
    For decades, nuclear scientists and engineers have sought 
to develop advanced nuclear designs that reduce the amount of 
waste generated, that lower nuclear weapons proliferation risk, 
and that improve safety, but such benefits from advanced 
nuclear are still theoretical, and importantly, there is no 
evidence that advanced nuclear would be economically 
competitive in the future.
    In our testimony, NRDC respectfully offers five 
recommendations for the subcommittee in consideration of the 
government's role in advanced nuclear energy research and 
development. So I'll go through these five recommendations.
    Recommendation one, and I think this was echoed a lot in 
today's hearing, give priority to solving the nuclear waste 
problem. Many thousands of tons of spent nuclear fuel must be 
isolated from people and from the environment for millennia. So 
our recommendation is site and construct a deep geologic 
repository using a consent-based and science-based process 
before spending money on advanced nuclear.
    Recommendation two, wait on the construction of the AP1000s 
and the NuScale SMR. Assess the lessons learned from these 
projects for their safety, reliability, and cost before looking 
at an advanced nuclear demonstration plan.
    Recommendation three, consistently apply a nuclear weapons 
proliferation test to advance nuclear designs among the energy 
technology choices, for the United States nuclear power is 
unique, and the overlaps between civilian energy technology and 
nuclear weapons. The risk of nuclear weapons proliferation from 
nuclear power can be managed, can attempt to be managed, but 
never eliminated. Preventing proliferation is of utmost 
importance for the future of nuclear energy.
    Recommendation four, consider the full impacts of the 
nuclear fuel cycle associated with advanced reactors, including 
severe accidents. Many aspects of the light water reactor fuel 
cycle are still not worked out, including, it hasn't come up 
yet at this hearing, but the issue of decommissioning.
    Recommendation five, get clear on the economic 
competitiveness for advanced nuclear early on. NRDC feels like 
history should teach us a caution--this was echoed in your 
opening statement, Senator--that funding advanced nuclear 
research and development for uneconomical designs can mean 
taxpayers are then responsible for far greater sums in the 
future.
    To conclude, if an energy policy goal for subcommittee 
members is to preserve the nuclear power option in the future, 
then we hope you maintain a healthy dose of skepticism 
regarding the benefits promised by advanced nuclear technology 
concepts that seek taxpayer support.
    Thank you.
    [The statement follows:]
            Prepared Statement of Matthew G. McKinzie, Ph.D.
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Subcommittee, thank you for providing the Natural Resources Defense 
Council, Inc. (NRDC) this opportunity to present our views on ``The 
Future of Nuclear Power.''
    NRDC is a national, non-profit organization of scientists, lawyers, 
and environmental specialists, dedicated to protecting public health 
and the environment. Founded in 1970, NRDC serves more than two million 
members, supporters and environmental activists with offices in New 
York, Washington, DC, Los Angeles, San Francisco, Chicago, Bozeman, 
Montana, and Beijing. NRDC has been engaged with the environmental 
issues surrounding nuclear energy and nuclear weapons since our 
founding, and NRDC maintains a Nuclear Program staffed by a nuclear 
physicist, a nuclear engineer, a radiation health physicist and an 
attorney.
    This testimony focuses on four topics: (1) the future of nuclear 
power, including NRDC recommendations to the Subcommittee regarding 
research, development and demonstration (RD&D) of advanced nuclear 
reactors; (2) deployment of small modular reactors (SMRs); (3) 
development and licensing of advanced nuclear reactors; and (4) nuclear 
energy RD&D by the U.S. Department of Energy (DOE).
                      the future of nuclear power
    Facing significant challenges, the future of nuclear power in the 
United States is uncertain. Today 99 reactors produce 19.5 percent of 
U.S. electricity; most of these reactors will reach the end of their 
current licenses and may close by mid-century, and approximately 
fifteen percent of these reactors are at risk of near-term closure due 
to market competition, including the possible need to replace expensive 
major components. Only four reactors are currently under construction 
in the United States. In addition to the economic challenges for 
nuclear power, difficulties for nuclear power arise from safety, 
security, proliferation and nuclear waste. The position of nuclear 
power as a low-carbon energy resource is being superseded by advances 
in energy efficiency and renewable energy technologies. A primary role 
of the Federal Government in energy policy is to foster energy 
technologies and energy systems with public benefit--prioritizing 
values of energy sustainability and stability of supply at low cost and 
without public health and environmental harms. NRDC is skeptical that 
nuclear power can deliver these energy values in the future.
    Nevertheless, the Federal Government will continue to play primary 
roles in nuclear energy policy: in oversight of safety and security at 
operating nuclear reactors; in preventing the proliferation of nuclear 
weapons; and in disposing of spent nuclear fuel in one or more deep 
geologic repositories. Other important roles of the Federal Government 
include support of programs in nuclear engineering and science and in 
health physics at our universities and national laboratories.
    The future of nuclear power could be impacted by new nuclear 
technologies. Today all reactors in the United States delivering 
electricity to the grid use low-enriched uranium as fuel with light 
water (i.e., water containing the natural proportions of hydrogen 
isotopes) serving as the coolant and neutron moderator. These U.S. 
light water reactors (LWRs) are of two basic designs: the Pressurized 
Water Reactor (PWR) and the Boiling Water Reactor (BWR), with the 
latter making up about one-third of operating reactors. Of the new and 
proposed nuclear power technologies--all as yet untested via operating 
U.S. prototypes--the AP1000 and the NuScale SMR are PWRs, and similarly 
use low enriched uranium as fuel and light water as the coolant and 
moderator. But there are also a host of other nuclear technology 
concepts being advocated for future Federal research and development 
support that are varied in terms of potential technological attributes.
    Termed ``advanced reactors,'' these include, but are not limited 
to, the sodium-cooled fast reactor (SFR), the lead-cooled fast reactor 
(LFR), the gas-cooled fast reactor (GFR), a variety of molten salt 
reactor designs (MSRs), the high-temperature gas reactor (HTGR) and 
very high temperature gas reactor (VHTGR). These can be designed as 
large reactors or SMRs. DOE when referring to ``advanced reactors'' 
excludes LWRs. This is misleading because some of the non-LWR concepts 
predate LWRs and there are new LWR designs, e.g., some SMRs, that are 
more advanced that the current fleet of deployed LWRs. NRDC's testimony 
will address selected advanced reactor concepts individually, and NRDC 
respectfully offers five recommendations for the Subcommittee in 
consideration of advanced nuclear energy research and development:
      A.  Prioritize solving the nuclear waste problem over the 
        demonstration of new nuclear technology;
      B.  Wait for the construction of domestic AP1000s and a prototype 
        SMR, and assess lessons learned from their safety, reliability 
        and potential economic competitiveness before entertaining 
        Federal cost sharing investments to license and construct non-
        LWR advanced nuclear reactor demonstration plants;
      C.  Consistently apply a nuclear weapons proliferation test to 
        advanced nuclear designs;
      D.  Consider severe accident consequences and the full impacts of 
        the nuclear fuel cycle associated with advanced nuclear 
        reactors; and
      E.  Require greater clarity on likely economic competitiveness 
        for advanced nuclear designs earlier in the research and 
        development cycle.
    These five recommendations address the varied impacts of nuclear 
power and the legacies and lessons from past nuclear operations in the 
United States.
A. Prioritize solving the nuclear waste problem over the demonstration 
        of new nuclear technology
    Nuclear power has resulted in the production of approximately 
72,000 tons of spent nuclear fuel which is currently stored at 
operating nuclear power plants or decommissioning reactor sites at over 
100 sites across the United States, and continued operation of existing 
U.S. nuclear reactors will result in producing another 70,000 tons for 
a total of over 140,000 tons by mid-century.\1\ Due to high levels of 
radioactivity, this spent nuclear fuel must be isolated from people and 
the environment for millennia, and thus is an intergenerational 
problem. NRDC recommends to the Subcommittee that the Federal 
Government should give higher priority to demonstrating the geologic 
disposal of spent fuel and high level nuclear waste over demonstrating 
advanced nuclear reactors.
---------------------------------------------------------------------------
    \1\ Moving Forward with Consent-Based Siting for Nuclear Waste 
Facilities: Recommendations of the BPC Nuclear Waste Council, 
Bipartisan Policy Center, September 2016, http://bipartisanpolicy.org/
library/consent-based-siting-nuclear-waste/.
---------------------------------------------------------------------------
B. Wait for the construction of domestic AP1000s and a prototype SMR, 
        and assess lessons learned from their safety, reliability and 
        potential economic competitiveness before entertaining Federal 
        cost sharing investments to license and construct non-LWR 
        advanced nuclear reactor demonstration plants
    The four nuclear power plants now under construction in the United 
States in Georgia and South Carolina are all AP1000s. The engineering 
goals of the AP1000 design are improved safety, increased operating 
efficiencies and smaller physical footprint than currently operating 
reactors. The four AP1000 construction projects are over budget and 
behind schedule, with the target of early next decade for first 
connection to the electric grid. Operator experience, capacity factors 
and importantly the capital cost and operation and maintenance costs of 
the AP1000 will remain uncertain until the completion of these 
projects. Given that the AP1000 represents the bulk of today's Federal, 
State and ratepayer investment in new nuclear power technology, the 
AP1000 should be carefully assessed before further significant Federal 
investment in advanced nuclear reactors, to determine whether the 
AP1000 is likely to play a role in the future of nuclear power in the 
United States.
    Not as far along as the AP1000 is the SMR nuclear reactor concept. 
The Federal Government is currently supporting work to prepare one SMR 
design for license application at the U.S. Nuclear Regulatory 
Commission (NRC)--the NuScale SMR--and may support construction of a 
first NuScale SMR plant at Idaho National Laboratory (INL). If a first 
comprehensive SMR license application is submitted to the NRC in 2016, 
the NRC has outlined a license application review of 39 months, or 
possibly through 2020. But there are many unknowns for SMR licensing 
that impact cost and operations, for example the size of the SMR 
Evacuation Planning Zone, and requirements on SMR plant staffing and 
security. Given that the SMR represents a substantial current U.S. 
Government investment in new approach to commercial nuclear power, the 
SMR technology should be further assessed regarding its economic 
viability before further Federal investment in non-LWR advanced nuclear 
reactors, as the NuScale SMR may or may not be built.
C. Consistently apply a nuclear weapons proliferation test to advanced 
        nuclear designs
    Among energy technology choices for the United States, nuclear 
power is unique in that there are substantial overlaps between civilian 
energy technology and military applications of this technology to 
nuclear weapons. The risk of nuclear weapons proliferation can be 
managed but not eliminated. Preventing the proliferation of nuclear 
weapons remains a cornerstone of U.S. national security policy and is 
of utmost importance in considering the future of nuclear power.
    Proliferation risk depends on the design of a nuclear reactor, 
safeguards on its operation, and the reactor's associated nuclear fuel 
cycle. At the front end of the nuclear fuel cycle, the capacity to 
enrich uranium for use as fuel in LWRs has the inherent potential to 
produce highly-enriched uranium for nuclear weapons. At the back end of 
the nuclear fuel cycle, reprocessing of spent nuclear fuel confers the 
technical potential to produce plutonium for nuclear weapons.
    If spent nuclear fuel is not reprocessed, the fuel cycle is defined 
as a ``once-through'' or ``open'' nuclear fuel cycle, and if spent fuel 
is reprocessed (with or without reuse as reactor fuel), the nuclear 
fuel cycle is defined as ``closed.'' As a general matter, the open 
nuclear fuel cycle represents a significantly reduced proliferation 
risk compared to a closed nuclear fuel cycle.
    Advanced nuclear designs should reduce or at least not increase 
proliferation risks compared with current LWR technology. Reactor 
concepts that contemplate reprocessing spent fuel should not be pursued 
during the foreseeable future.
D. Consider severe accident consequences and the full impacts of the 
        nuclear fuel cycle associated with advanced nuclear reactors
    Full impacts of plant operations and the nuclear fuel cycle 
include: uranium mining, enrichment and fuel fabrication; normal 
nuclear plant operations and accident scenarios; decommissioning of 
closed nuclear reactors and interim storage and final disposition of 
spent fuel. There are substantial aspects of the nuclear fuel cycle for 
current LWRs that must still be resolved. Three prominent examples are 
the currently inadequate U.S. regulatory frameworks for In-Situ Leach 
uranium mining, nuclear reactor decommissioning, and interim storage 
and final disposition of spent nuclear fuel.
    The full life cycle impacts of operations and the nuclear fuel 
cycle need to be considered for advanced nuclear reactor designs early 
in the research and development cycle.
E. Require clarity on economic competitiveness for advanced nuclear 
        designs early in the research and development cycle
    Before significant Federal investing in research and development of 
advanced nuclear technologies, there should be greater clarity on 
economic competitiveness. The economic competitiveness of advanced 
nuclear will incorporate issues identified above: safety, operations 
and maintenance, decommissioning and waste.
    As seen in recent nuclear reactor closures, the current market 
competitiveness of LWR technology is fragile. The price of electricity 
from AP1000 and SMR reactors will likely be at least as expensive or 
more expensive than from currently operating reactors. While the AP1000 
has the relative economic benefit of larger scale, the business model 
for the SMR seeks to make up some of the competitive difference with 
the AP1000 through efficiencies in construction, operation and 
maintenance, and decommissioning. The price of electricity from 
advanced nuclear will likely be more expensive than from AP1000 or 
NuScale SMRs due to additional complexities of design and operations 
for non-light water technologies.
    The Federal Government should not invest research and development 
funds into non-LWR advanced nuclear projects without early clarity on 
economic competitiveness, as ultimately this will be one important 
factor in whether the technology flourishes or becomes yet another 
failed Federal effort to force nuclear energy onto the commercial 
marketplace.
            deployment of commercial small modular reactors
    Over the past decade the status of SMRs has developed from initial 
interest and exploratory work, through preliminary SMR design programs 
by several consortia and businesses, and now to an imminent SMR design 
certification application to the NRC by NuScale Power and Utah 
Associated Municipal Power Systems (UAMPS)--the first such SMR 
licensing application in the United States. NuScale and UAMPS then plan 
to apply to the NRC for a combined construction and operation license 
in late 2017 or early 2018.\2\ In February 2016 DOE issued a Site Use 
Permit to the UAMPS Carbon Free Power Project granting it access to the 
Idaho National Lab site for the purposes of identifying potential 
locations for the NuScale Power Plant.\3\ The license application to 
the NRC will likely reference an SMR design containing up to 12 reactor 
modules at the single UAMPS nuclear plant. DOE has played a substantial 
role in SMR research and development.
---------------------------------------------------------------------------
    \2\ NuScale Power, LLC and Utah Associated Municipal Power Systems 
Combined Response to NRC Regulatory Issue Summary 2015-07, June 17, 
2015, http://pbadupws.nrc.gov/docs/ML1517/ML15170A296.pdf.
    \3\ U.S. Department of Energy Use Permit No. DE-NE700065, February 
17, 2016, http://www.id.energy.gov/insideNEID/PDF/
DOE_UAMPS%20Use%20Permit%20DE-N700065.pdf.
---------------------------------------------------------------------------
    The NRC staff has developed a 39-month ``optimum baseline 
schedule'' for evaluating the SMR license,\4\ but SMR licensing may 
prove challenging. particularly with respect to the size of the 
Emergency Planning Zone (EPZ).\5\ Planning for nuclear accidents within 
the EPZ is one of the government's most important responsibilities in 
nuclear energy policy with the goal of averting and minimizing 
radiation doses to people at risk from an accident. For an SMR, a 
smaller EPZ reduces cost and opens potential new markets near 
population centers, but with a corresponding loss of safety in defense 
in depth. Other outstanding issue for SMR licensing that also implicate 
SMR economics are requirements for site personnel and security, 
safeguards against cyber threats for digital instrumentation and 
controls, and decommissioning.
---------------------------------------------------------------------------
    \4\ Status of the Office of New Reactors Readiness to Review Small 
Modular Reactor Applications, U.S. Nuclear Regulatory Commission, 
August 28, 2014, http://www.nrc.gov/reading-rm/doc-collections/
commission/secys/2014/2014-0095scy.pdf.
    \5\ Ramana, M. V., Laura Berzak Hopkins, and Alexander Glaser. 
``Licensing small modular reactors.'' Energy 61 (2013): 555-564.
---------------------------------------------------------------------------
    The 50 MWe output of a single NuScale SMR module should be compared 
with the approximately 100 GWe of current U.S. nuclear capacity. 
Replacing current U.S. nuclear capacity with NuScale SMRs would require 
approximately 2,000 NuScale reactors. The business model for the SMR 
includes favorable assumptions about cost savings from assembly-line 
manufacturing and industrial learning; however NRDC cautions members of 
the Subcommittee to visualize the vast scale of SMR adoption that would 
be required to have any impact on future U.S. nuclear energy use. While 
the regulatory hurdles and future operational uncertainties of the 
NuScale SMR project are substantial, the NuScale SMR design is better 
understood than advanced non-light water nuclear reactor designs.
         development and licensing of advanced nuclear reactors
    For decades, nuclear scientists and engineers have sought to 
develop reactor designs that involve one or more of the following 
goals: reduce the amount of nuclear waste generated, involve the 
production or handling of weapons-useable nuclear material, and lower 
the likelihood or the consequence of severe accidents. The current 
leading concepts for advanced non-LWRs also pursue some of these goals. 
While there are many non-LWR advanced nuclear technologies in early 
stages of development (many of them based on ideas from early in 
nuclear power programs), no advanced nuclear design has demonstrated 
any of these goals in a working prototype. These benefits of advanced 
nuclear are still theoretical at present. More importantly there is no 
evidence that any would be economically competitive with renewable 
energy technologies or even with the AP1000 or the NuScale SMR.
    From a practical standpoint, advanced reactors are just different 
reactor types that must compete economically with energy resources that 
are currently available, including renewable energy resources. Past 
experiences with non-LWRs has been largely unsuccessful. Some non-LWR 
advanced nuclear reactor designs use fast neutrons to sustain 
criticality (in comparison to light water reactors that use slow or 
thermal neutrons), and some non-LWR designs breed and burn additional 
fissile material during operations. Dozens of fast breeder reactors 
were built and have operated for varied lengths of time since the 
1950s.\6\ Because of the high costs and reliability and safety issues 
for fast breeders, no commercial breeder reactors have been deployed in 
a competitive energy market setting.
---------------------------------------------------------------------------
    \6\ Cochran, Thomas B., et al. ``Fast breeder reactor programs: 
history and status.'' International Panel on Fissile Materials (2010).
---------------------------------------------------------------------------
    There is a consensus within the scientific community that advanced 
nuclear will remain a costlier nuclear technology option than LWRs 
until a speculative, future period of uranium scarcity not anticipated 
before the end of this century. For example, a 2011 study by the 
Massachusetts Institute of Technology ``The Future of the Nuclear Fuel 
Cycle'' concluded: ``There is no shortage of uranium resources that 
might constrain future commitments to build new nuclear plants for much 
of this century at least. . . . For the next several decades, a once 
through fuel cycle using light water reactors (LWRs) is the preferred 
economic option for the U.S. and is likely to be the dominant feature 
of the nuclear energy system in the U.S. and elsewhere for much of this 
century. Improvements in light-water reactor designs to increase the 
efficiency of fuel resource utilization and reduce the cost of future 
reactor plants should be a principal research and development focus.'' 
\7\
---------------------------------------------------------------------------
    \7\ Kazimi, Mujid, et al. ``The future of the nuclear fuel cycle.'' 
Massachusetts Institute of Technology, Cambridge, MA (2011).
---------------------------------------------------------------------------
    Some proponents of advanced nuclear reactor designs argue that 
these reactors coupled with a closed nuclear fuel cycle will address 
the nuclear waste problem. But, in reality, advanced nuclear will 
increase the U.S. nuclear waste burden, and the root of the nuclear 
waste problem is the lack of geologic disposal sites for the waste from 
any kind of nuclear power reactor.
    Advanced reactors concepts differ substantially in design and 
operation, including nuclear fuel cycle aspects, from the currently 
licensed and operating U.S. light water reactors. There are many 
advanced nuclear reactor design concepts. The United States is part of 
the Generation IV International Forum (GIF) \8\, a collaboration among 
14 countries ``on the development of advanced next generation nuclear 
energy systems.'' Members of GIF evaluated 130 advanced nuclear reactor 
concepts and selected six technologies for further research and 
development focus: gas-cooled fast reactor; lead-cooled fast reactor; 
molten salt reactor; super-critical water-cooled reactor; sodium-cooled 
fast reactor; and very high temperature reactor. But even with respect 
to these six categories of advanced nuclear reactor concepts, the 
designs are varied and utilize thermal or fast neutrons, incorporate 
closed and open fuel cycles, and envision reactor sizes from very small 
to very large. The GIF defines technology goals for advanced nuclear 
as: ``Sustainability, economics, safety and reliability, and 
proliferation resistance and physical protection.'' Within the GIF, the 
United States has expressed commitment to two of these advanced nuclear 
designs: the sodium-cooled fast reactor (with a closed nuclear fuel 
cycle) and the very high temperature reactor (with an open or closed 
fuel cycle).
---------------------------------------------------------------------------
    \8\ GEN IV International Forum: https://www.gen-4.org/gif/jcms/
c_9260/public.
---------------------------------------------------------------------------
    In January of this year DOE announced \9\ a selection of two 
companies for a multi-year cost share of up to $80 million in total to 
further develop advanced nuclear designs:
---------------------------------------------------------------------------
    \9\ Http://www.energy.gov/articles/energy-department-announces-new-
investments-advanced-nuclear-power-reactors-help-meet.
---------------------------------------------------------------------------
  --X-energy \10\--partnering with BWX Technology, Oregon State 
        University, Teledyne-Brown Engineering, SGL Group, Idaho 
        National Laboratory, and Oak Ridge National Laboratory to solve 
        design and fuel development challenges of the Xe-100 Pebble Bed 
        Advanced Reactor; and
---------------------------------------------------------------------------
    \10\ Http://www.x-energy.com/.
---------------------------------------------------------------------------
  --Southern Company Services \11\--partnering with TerraPower, 
        Electric Power Research Institute, Vanderbilt University, and 
        Oak Ridge National Laboratory to perform integrated effects 
        tests and materials suitability studies to support development 
        of the Molten Chloride Fast Reactor.
---------------------------------------------------------------------------
    \11\ Http://www.southerncompany.com/news/2016-01-15-so-nuclear-
technology.cshtml.
---------------------------------------------------------------------------
    The X-energy advanced reactor concept is for a high temperature 
gas-cooled reactor (HTGR) design utilizing the thermal neutron spectrum 
and consisting of a ``four-pack'' of 50MWe units together generating 
200MWe. HTGRs can operate with an open or closed fuel cycle.\12\ A 
review \13\ of the history of this technology has highlighted severe 
hurdles this technology must overcome: ``HTGRs are prone to a wide 
variety of small failures, including graphite dust accumulation, 
ingress of water or oil, and fuel failures. Some of these could be the 
trigger for larger failures or accidents, with more severe 
consequences.'' The economic outlook for the Xe-100 advanced nuclear 
design would also face challenges in high capital cost for power plant 
construction, lower capacity factors and a reduced operating lifetime. 
The DOE Next Generation Nuclear Plant (NGNP) program tried to 
commercialize the HTGR \14\ but failed because no industrial entity was 
willing to cost-share with the U.S. Government on an annual 50-50 cost 
sharing basis. In other words, the DOE has already tried to develop 
this option once without success.
---------------------------------------------------------------------------
    \12\ Piet, Steven J., Samuel E. Bays, and Nick R. Soelberg. ``HTGR 
Technology Family Assessment for a Range of Fuel Cycle Missions.'' 
Idaho National Laboratory: Idaho Falls, ID (2010).
    \13\ Ramana, M. V. ``The checkered operational history of high-
temperature gas-cooled reactors.'' Bulletin of the Atomic Scientists 
72.3 (2016): 171-179.
    \14\ Kadak, Andrew C. ``The Status of the US High-Temperature Gas 
Reactors.'' Engineering 2.1 (2016): 119-123.
---------------------------------------------------------------------------
    The Southern Company-led advanced reactor concept is for a molten 
salt design utilizing the fast neutron spectrum. The molten salt 
reactor concept was developed at Oak Ridge National Laboratory in the 
1960s, but it has not been developed commercially. The Molten Chloride 
Fast Reactor has many technical challenges in materials and 
construction. The program managed by Southern is focused on 
benchmarking calculations with data from testing in a non-nuclear 
environment, for example: material corrosion rates, synthesis methods 
for fuel salts, salt properties, thermal hydraulics, heat capacities, 
and viscosities. Fundamental questions remain before costing and 
construction estimates can provide a sense of the possibility for 
licensing and commercialization of the Molten Chloride Fast Reactor. 
NRDC recommends scrutiny of this program with respect to several key 
questions: Have the corrosion problems for molten salt been 
sufficiently addressed with respect to the requirements of a commercial 
plant? Will the associated nuclear fuel cycle separate fissile material 
from the bulk of the salt? How will nuclear weapons materials be 
accounted for in proliferation safeguards?
    The practical nuclear engineering and economic hurdles inherent in 
these technologies are such that NRDC questions whether advanced 
nuclear will ever be commercialized and therefore even shoulder a small 
fraction of energy demand in fast evolving energy markets that address 
the pressing needs of mitigating climate change. Furthermore, as an 
environmental advocacy organization, NRDC has concerns that advanced 
nuclear may serve as a distraction to the rapid, continued scale-up of 
existing, economically viable and proven solutions to the threat of 
climate change from wind, solar energy efficiency, and other clean 
sustainable energy technologies. Moreover, some advanced nuclear fuel 
cycles, if adopted by the United States and imitated aboard, present 
new safety, environmental and proliferation challenges that the world 
in its present state is ill-equipped to handle.
 recommendations about nuclear energy research and development at the 
                       u.s. department of energy
    The DOE's May 2016 draft ``Vision and Strategy for the Development 
and Deployment of Advanced Reactors'' correctly prioritizes addressing 
the problem of climate change; \15\ however in reality advanced non-
light water reactor technology is today only remotely relevant to 
carbon mitigation due to cost, safety and design uncertainties and the 
very extended roll-out times that would be required. NRDC disagrees 
with DOE's assessment that ``sustaining a substantial nuclear presence 
in the U.S. power mix beyond 2050 will almost certainly require the 
development and deployment of a new generation of advanced reactors'' 
given current uncertainties with advanced nuclear and that performance 
data for the first AP1000 reactors and potentially for the first SMR is 
still forthcoming and central to this assessment.
---------------------------------------------------------------------------
    \15\ Http://www.energy.gov/ne/downloads/draft-vision-and-strategy-
development-and-deployment-advanced-reactors.
---------------------------------------------------------------------------
    In this draft vision and strategy document, DOE has stated a goal 
of: ``By the early 2030s, at least two non-light water advanced reactor 
concepts would have reached technical maturity, demonstrated safety and 
economic benefits, and completed licensing reviews by the U.S. Nuclear 
Regulatory Commission (NRC) sufficient to allow construction to go 
forward.'' From NRDC's perspective this is not a reasonable goal, as it 
presumes the technical need for and economic competitiveness of 
advanced nuclear which are far from being demonstrated. Instead, DOE's 
role for advanced nuclear should be small investments in research and 
development in areas such as computer modeling and materials science 
that also have applications for nuclear safety, for nuclear non-
proliferation and for non-nuclear energy technologies, such as the use 
of molten salt for energy storage in renewable generation.
    Advanced nuclear reactor designs with their associated nuclear fuel 
cycles require vigilant attention to nuclear weapons proliferation. 
NRDC recommends that DOE commission a ``red team'' study that would 
seek to exploit the proliferation potential of advanced nuclear energy 
options, looking at different scenarios --proliferation intent at time 
of adoption of the advanced nuclear technology, sudden breakout to 
nuclear weapons capability from a civilian nuclear power program that 
uses advanced nuclear reactors, or a gradual accumulation of nuclear 
weapons materials and infrastructure over decades of advanced nuclear 
power generation leading to establishment of a nuclear arsenal. The 
nuclear weapons design capacities at the U.S. National Laboratories 
would be a resource to draw on for such a red team study.
    Nuclear energy research and development at the DOE is the spending 
of taxpayers' money. Given this fact, it is important to consider these 
DOE programs in the context of substantial existing Federal subsidies 
for nuclear energy. A 2011 study published by the Union of Concerned 
Scientists \16\ found that: ``subsidies to the nuclear fuel cycle have 
often exceeded the value of the power produced. This means that buying 
power on the open market and giving it away for free would have been 
less costly than subsidizing the construction and operation of nuclear 
power plants.'' Thus, government support for nuclear energy is very 
broad, and not limited to research and development. NRDC recommends 
this history should invoke caution from the Subcommittee, as approval 
of funding advanced nuclear research and development for uneconomical 
designs can mean taxpayers are then responsible for far greater sums in 
the future.
---------------------------------------------------------------------------
    \16\ Koplow, Douglas N. Nuclear power: Still not viable without 
subsidies. Union of Concerned Scientists, 2011. http://www.ucsusa.org/
sites/default/files/legacy/assets/documents/nuclear_
power/nuclear_subsidies_report.pdf.
---------------------------------------------------------------------------
                               conclusion
    The future of nuclear energy in the United States is uncertain and 
challenged. In addition to economic challenges for nuclear power, 
difficulties arise from economics, safety, security, proliferation and 
nuclear waste, and the value of nuclear power as a low-carbon energy 
resource is being superseded by advances in energy efficiency and 
renewable energy technologies.
    In consideration of DOE research and development support for 
advanced nuclear, NRDC respectfully offers five recommendations to the 
Subcommittee: prioritize solving the nuclear waste problem; assess the 
prototype AP1000 and SMR before considering further Federal investment 
in advanced nuclear; consistently apply a nuclear weapons proliferation 
test to advanced nuclear designs; consider the full impacts of severe 
accidents and the nuclear fuel cycle associated with advanced nuclear 
reactors; and require greater clarity on the likely economic 
competitiveness of advanced nuclear designs early in the research and 
development cycle.
    If a public policy goal for Subcommittee members is to preserve the 
nuclear power option for the United States in the future, NRDC 
recommends maintaining a healthy dose of skepticism regarding the 
putative benefits promised by the numerous advanced nuclear technology 
concepts seeking taxpayer support for their development.

    Senator Alexander. Thank you, Dr. McKinzie.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.

                   NUCLEAR WASTE STORAGE AND DISPOSAL

    Mr. McKinzie, you know, it's interesting because we have no 
nuclear waste policy in this country. And as such, we pile up 
fines, I think it's $20 million a year, which are in the 
hundreds of millions of dollars, and yet still fail to act. 
You've looked at this. Why does that happen? I mean, why 
wouldn't the industry want a nuclear waste policy? Why wouldn't 
they want a nuclear policy, a process by which this--we've 
debated it, we've discussed it, and come to the conclusion, you 
know, that it has to be practical, it has to be voluntary, 
States have to want it.
    We have one in New Mexico, WIPP, the people of WIPP and 
around it want it, they take great pride in it. A stupid 
accident for even the most sophisticated agency, Los Alamos, 
who contracts out the kitty litter, and they use the wrong 
kitty litter, and it explodes.
    So it's very hard for some of us to conceive of a future 
that's properly carried out. And now that these SMRs are being 
proposed, I am told that the only way they're cost--they're 
economically cost efficient is if they're grouped together. So 
if you're going to put four 300- or 400-megawatt reactors in 
one place, you still have to deal with the waste. How do you do 
that?
    So I guess I've really developed a very jaundiced view 
about the practicality in this country and the ability--I mean 
I was alerted by what Senator Shaheen said about the concrete. 
And without going into it, John Deutch said, well, that's a 
serious problem. Now I'll go and look and find out exactly what 
it is.
    So if either of you have some comments to make, because I 
think our first responsibility is safety to the public, is to 
see that these things are secure, that the waste is secure, 
that they are as functional and efficient and well built as 
they possibly can be, sited appropriately, run scrupulously, 
and that's difficult to have happen.
    And so it doesn't surprise me that people coming up or 
companies coming up for relicensing may opt not to go ahead.
    Dr. McKinzie. I would--if I could be very candid on why I 
think industry hasn't supported a nuclear waste solution in a 
vigorous way, I think it would be because the current waste 
situation is consistent with the industry's business model, 
storage of spent nuclear fuel, mostly in wet pools, some in dry 
cask, at reactor site. That's fine with the business model.
    NRDC objects to the NRC finding that long-term storage of 
spent nuclear fuel in wet pools, in densely packed wet pools, 
doesn't represent an incredible danger, an incredible risk, but 
yet that is tolerated by the regulator. And so there just is 
inertia in the industry.
    Senator Feinstein. Well, I think, and somebody correct me 
if I'm wrong, but I believe you store them for 5 to 7 years, 
and then they should be removed from the spent fuel pool, and 
they should be put in dry casks, hopefully transportation dry 
casks, so that they can be moved then to a permanent waste 
facility, which we don't have.
    And so I can only speak for California, which I know these 
things are just stacking up. And, yes, there's a very real 
danger in spent fuel pools. If the water disappears, if the 
pool is fragmented by an earthquake, and you have all these hot 
rods, 3,300, piled up, it's a big problem.
    So--but no one seems to care. That's what really bothers 
me. Nobody seems to care.
    Dr. McKinzie. It's a very difficult problem. The NRDC 
advocates for a consent-based and science-based approach on 
deep geologic repositories. That also includes authority at the 
State level for regulating radioactive materials. That's not 
there. That is a component of WIPP, and we believe why WIPP was 
able to go forward in the first place, but we believe that 
State authority in regulating radioactive materials with 
respect to repository is a key element to include.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.

                     SAFETY RECORD OF NUCLEAR POWER

    Senator Alexander. Thank you, Senator Feinstein.
    Thanks to both of you. I'll have just a couple of comments. 
I would not want people to leave this hearing without a 
different view being expressed about the safety of nuclear 
power. There has never been a death in connection with the 
commercial operation of nuclear reactors in the United States 
since they began. There's never been a death attributable to 
reactors in the Navy since the 1950s, when they began. The only 
most celebrated accident we had in the United States was Three 
Mile Island in 1979, and despite years of testing of everybody 
in the area, no one was hurt.
    So based on the safety record, no other form of energy has 
a better safety record. And the Nuclear Regulatory Commission, 
which has extensive careful regulation, has determined that the 
used fuel is safely stored for many years in the places where 
it is, which is onsite.

                   NUCLEAR WASTE STORAGE AND DISPOSAL

    And I agree that we need to move it, and I would like to 
get it out of California, too, but we have a place to put it, 
and the place is Yucca Mountain in Nevada, and the law says 
that's where it should go, and the courts say that's what the 
law says, and the scientists have said that it's safe there for 
a million years. And Yucca Mountain is large enough to accept 
all of the used nuclear fuel that we have stored onsite in the 
United States today. So we have a stalemate in the Congress.
    The reason we haven't passed the legislation Senator 
Feinstein and I would like to pass is because we take the 
position that we should move ahead on all tracks at once, and 
if we get stuck on one, we should still--namely, Yucca--we 
should continue to move on the others. Some of those who 
strongly support Yucca Mountain say, well, if you don't move on 
Yucca, you're not going to move on anything.
    Well, we've got to solve that. That's our responsibility 
really. The help of others would support our position, that's 
true, but that's our responsibility to work out, and we're 
going to continue to try to do that.

                       ADVANCED NUCLEAR REACTORS

    Dr. Icenhour, I just have maybe one or two questions. You 
heard the testimony about the proposal for two advanced 
reactors to be licensed and ready for construction in the 2030s 
from Dr. Deutch's report. Do you think the goal is achievable? 
And if so, what do you think it will take to accomplish it?
    Dr. Icenhour. Yes, Senator, I do believe that is 
achievable. And one of the things I reflect on, I like history 
also, as Senator Feinstein said, and when I drive into Oak 
Ridge National Laboratory, I drive past the graphite reactor, 
and that's a lesson in history of what this country can do, a 
reactor that was built in 9 months, went critical in November 
1943. And that just reminds me of what we can do when we decide 
to do something. And so the question is, how do we get there?
    We have to, first of all, decide to do it and move forward, 
much like Mr. Deutch was saying. We have to decide we're going 
to do this. We have to set clear goals. We have to have focused 
effort, focused R&D, that will help move us along the way. And 
it will take a public-private partnership to do this.
    And then the final element I would add is along the way we 
have to continue to work with NRC to have the appropriate 
regulatory framework in place.

                    ADVANCED MODELING AND SIMULATION

    Senator Alexander. All right. Dr. Icenhour, you talked 
about the big computers at Oak Ridge and the work you're doing 
on modeling and simulation. As we talk about relicensing, 
taking, say, Seabrook maybe from 40 years to 60 years, or 
taking some of the existing reactors from 60 years to 80 years, 
which the Nuclear Regulatory Commission is considering, how can 
the supercomputers you work with help with determining whether 
it's safe and appropriate to do that or not?
    Dr. Icenhour. Well, one example of that, Senator, is, of 
course, the Consortium for Advanced Simulation of Light Water 
Reactors, or CASL, which has developed a very high-fidelity 
model of a nuclear reactor, and so we're able to understand 
that very clearly what's happening with the reactor and as 
changes occur.
    And so it's the use of advanced modeling and simulation 
coupled with experimental data that can help enable the 
understanding and help inform the basis for moving forward for 
life extensions.

                    NUCLEAR POWER AND CLIMATE CHANGE

    Senator Alexander. Dr. McKinzie, you work for a well-
recognized group, the Natural Resources Defense Council. I 
would assume you and the Council are concerned about climate 
change?
    Dr. McKinzie. Yes, we are.
    Senator Alexander. Dr. Deutch said his committee was 
unanimous that if we didn't take some action, that by 2030, we 
wouldn't have nuclear power option going forward in the United 
States, so we would lose 20 percent of our electricity and 60 
percent of our carbon-free electricity. Do you think that helps 
us deal with climate change?
    Dr. McKinzie. I would--I question the 2030 as a cliff where 
all of that power suddenly turns off. It will be more like a 
ramp down in power as different units reach different ages 
and----
    Senator Alexander. Well, this testimony, unanimous by a 
widely divergent committee, was that if we hadn't acted by 
2030, the option would be gone, which I guess means that by 
then, we wouldn't have a way to continue it as, over the next 
20 years, the rest of the reactors closed.
    Dr. McKinzie. Addressing climate change is a critical 
problem that requires a transformation in how our country, how 
the world, generates and consumes energy. In the United States 
right now, we have a mix----
    Senator Alexander. Well, wait a minute. My question is, do 
you think that we--that it helps dealing with climate change to 
lose the nuclear option by 2030, as his Task Force unanimously 
said would happen?
    Dr. McKinzie. I'm a skeptic that nuclear will be able to 
deliver the energy, the low-carbon energy that we need to 
address climate change----
    Senator Alexander. Well, but today it produces 60 percent 
of our carbon-free electricity.
    Dr. McKinzie. But it has an uncertain future.
    Senator Alexander. Well, but how much of our carbon-free 
electricity does wind power produce today?
    Dr. McKinzie. Oh, wind power produces less carbon-free 
energy than nuclear, but renewable energy, energy efficiency, 
it has really made incredible advances recently and showing 
itself as a lower cost option than nuclear for addressing 
climate change, and I believe that progress will continue.
    Senator Alexander. So you would be comfortable with losing 
the nuclear option in terms of our country's ability to deal 
with climate change.
    Dr. McKinzie. I am uncomfortable with unresolved problems 
for nuclear energy, unsolved problems. I believe that 
pragmatically nuclear will continue at a lower level into the 
future. I don't imagine it vanishing. We have the four AP1000 
reactors under construction.
    So I think that a scenario in which everything is gone by 
2030 is perhaps too negative for nuclear energy, but I'm a 
skeptic that nuclear can continue to contribute at its current 
level.
    Senator Alexander. What would replace it?
    Dr. McKinzie. Well, the Department of Energy's own national 
laboratories have seen a scenario where renewable energy can be 
the dominant source of clean energy in the future.
    Senator Alexander. Meaning windmills.
    Dr. McKinzie. Solar, wind----
    Senator Alexander. Solar is today less than 1 percent of 
our electricity, right?
    Dr. McKinzie. That's correct, Senator.
    Senator Alexander. And wind is about 3 or 4 percent of our 
electricity.
    Dr. McKinzie. But the recent growth has been extraordinary, 
and that trend we believe will continue.
    Senator Alexander. And the wind is available when the wind 
blows, and the solar is available when the sun shines.
    Dr. McKinzie. There is an issue of base load versus non-
base-load generation to contend with. I would say that our--the 
transmission grid is evolving in time and changing in time and 
adapting to a variable generation as well as there will 
probably be advances in storage.
    I think that nuclear will probably play a role in the 
future. I'm not sure how large. And I do know there are 
longstanding problems to solve first.

                             YUCCA MOUNTAIN

    Senator Alexander. So you do agree that finding a way to 
store used nuclear fuel, I believe it was your testimony, is an 
urgent----
    Dr. McKinzie. Absolutely.
    Senator Alexander. So you support opening Yucca Mountain?
    Dr. McKinzie. No, NRDC does not support opening----
    Senator Alexander. Why not? The law says it should, the 
court says the law says that, and the scientists say it's safe 
for a million years there.
    Dr. McKinzie. Well, the process of restarting the Yucca 
Mountain project would begin with the license application, and 
resolving over 200 contentions, new and significant information 
that may actually necessitate starting from scratch in terms of 
the license----
    Senator Alexander. So you think we can open another 
repository more rapidly than we could complete Yucca Mountain?
    Dr. McKinzie. We believe that Yucca Mountain will likely 
fail, and so we do need to go back to basics in----
    Senator Alexander. But do you believe we can open--so you--
it would fail because groups like yours don't support doing it 
even though the science says it's safe there for a million 
years, and the law says we should do it.
    Dr. McKinzie. We don't believe it would be able to get 
through the licensing process. NRDC is not party to the 
licensing process.
    Senator Alexander. Yucca Mountain would be large enough to 
hold all the stored nuclear fuel in the country that we have 
today, correct?
    Dr. McKinzie. Modifications to Yucca Mountain are 
envisioned that would enable it to store more fuel and require 
it to include things like titanium drip shields to prevent 
migration of the waste.
    Senator Alexander. Wait just a minute. The Nuclear 
Regulatory Commission has testified here that Yucca Mountain is 
large enough to hold all of the stored--all of the nuclear fuel 
that's currently stored at the approximately 100 reactors in 
the country. You disagree with that?
    Dr. McKinzie. No, I don't disagree with that, if you're 
talking about the 77,000 tons that are stored currently. But 
the United States will generate again as much between now and 
mid-century.
    Senator Alexander. Right. And so my view is that we should 
open Yucca Mountain, put the fuel we have there, move it out of 
California, other places where it is, and open new 
repositories, maybe a private repository, and solve our 
stalemate.
    Well, in any event, we've had a terrific wide range of 
views here today, both from the Senators and from expert 
witnesses.
    Dr. McKinzie, Dr. Icenhour, thank you both so much for 
being a part of our discussion.
    The hearing record will remain open for 5 days. All 
statements submitted by witnesses and Senators will be included 
in the record. The subcommittee requests all responses for the 
record be provided within 30 days of receipt.
    If either of you have something you would like for us to 
consider that you didn't have a chance to say today or when you 
go home you wish you had said, if you'll send it to us, we'll 
distribute it to the other Senators.

                         CONCLUSION OF HEARINGS

    Senator Alexander. We thank you very much for taking your 
time to be here.
    The subcommittee stands adjourned.
    [Whereupon, at 4:02 p.m., Wednesday, November 16, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]
</pre></body></html>
